<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                        WEDNESDAY, JUNE 18, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m. in room SD-192, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin, Leahy, Feinstein, Murray, Reed, 
Pryor, Collins, Graham, Coats, and Blunt.

                         DEPARTMENT OF DEFENSE

                   Office of the Secretary of Defense

STATEMENT OF HON. CHUCK HAGEL, SECRETARY OF DEFENSE
ACCOMPANIED BY HON. ROBERT HALE, UNDER SECRETARY OF DEFENSE, 
            COMPTROLLER

             OPENING STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Good morning.
    The subcommittee meets this morning to receive testimony on 
the fiscal year 2015 budget request for the Department of 
Defense (DOD).
    I am pleased to welcome the leadership of the Department, 
Secretary Chuck Hagel and General Martin Dempsey, to present 
their views on both the strategic and budgetary challenges 
facing our armed forces.
    Mr. Hale, thank you for your expertise, as well. Your 
continuing contributions make a big difference.
    Let me congratulate the Department on the capture of Ahmed 
Abu Khatallah, a key figure in the September 2012 attack on 
U.S. facilities in Benghazi, an attack which cost us four 
American lives. I want to commend the professionalism of our 
men and women in uniform who worked alongside law enforcement 
and intelligence counterparts to ensure that this man will be 
brought to justice.
    We're also following several other recent events which have 
underscored the many challenges to American security and 
interests around the world. The shocking events in Iraq this 
past week demonstrate the threats posed by continuing chaos in 
Syria which has given rise to dangerous new extremist groups. 
Deterioration of security in Yemen shows that established 
terrorist organizations, such as al-Qaeda in the Arabian 
Peninsula, remain a serious threat. The aggressive moves by 
Russia in Ukraine recall the importance of U.S. security 
commitments to our allies, partners, and friends. And finally, 
the drawdown of U.S. forces in Afghanistan raise serious 
questions about our future posture and commitments to that 
country. Secretary Hagel, General Dempsey, I hope you can 
address these situations in your remarks.
    Along with these security threats, the Department has a 
longer-term challenge when it comes to the budget. I've said, 
many times, sequestration was a threat that was never supposed 
to happen. But it did. The shrinking budgets have meant that 
many important programs, such as large headquarter staffs, 
generous contractor support contracts, and generous travel 
policies, have been changed and cut back.
    But it's not clear that the Department is making all of the 
tough choices required in this budget environment. The fiscal 
year 2015 Defense budget plan includes $115 billion in spending 
between 2016 and 2019 above the BCA (Budget Control Act) caps, 
meaning that more tough choices are ahead if we do not 
eliminate sequestration next year. The Department also proposed 
$26 billion in additional programs that it could not fit within 
its budget constraints but were viewed as high priorities for 
readiness, modernization, and key needs. And the service chiefs 
proposed an additional $36 billion in programs also viewed as 
high priorities.
    Lastly, it's been 3\1/2\ months since the 2015 budget was 
submitted, and Congress has yet to see the overseas contingency 
operations budget request. I'm the first to say that we need to 
do something about sequestration, provide a responsible budget 
plan that balances investments in national defense, education, 
healthcare innovation, and other national priorities, but I am 
concerned that the Department of Defense cannot continue to 
count on tens of billions of extra dollars arriving each year 
outside of the budget process, and I'd like to know how the 
Department intends to further tighten its budget process in 
light of the continuing unknowns about sequestration.

                           PREPARED STATEMENT

    Despite these challenges, we can still afford to make 
critical investments in the Defense budget within available 
resources. Many Defense leaders have embraced competition to 
get more bang from the taxpayer's buck, and there is even more 
that can be done to accelerate competition in Defense programs. 
Investments in science and technology are critical, not only to 
national defense, but also to innovation across America. DOD 
investments in GPS satellites, the Internet, and medical 
research have literally touched the lives of every American, 
whether or not they've ever worn a uniform. Work going on today 
at DARPA, the Army Research Laboratory, the Air Force Research 
Lab, and the Office of Naval Research could improve our 
national security, revolutionize medicine, technology, and 
business for years to come. Even in these tough budget times, 
we have to work to afford investments in medical research for 
breakthrough technologies and to increase investments in key 
areas. I look forward to working with you, Secretary Hagel, to 
make this happen.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    The subcommittee meets this morning to receive testimony on the 
fiscal year 2015 budget request for the Department of Defense.
    I am pleased to welcome the leadership of the Department of 
Defense, Secretary Hagel and General Dempsey, to present their views on 
both the strategic and budgetary challenges facing our Armed Forces.
    Several recent events have underscored the many challenges to 
American security and interests around the world.
    First, let me congratulate the Department of Defense on the capture 
of a key figure in the attack on September 2012 attack on U.S. 
facilities in Banghazi, named Ahmed Abu Khatallah. In particular, I 
commend the professionalism of our men and women in uniform, who worked 
alongside their law enforcement and intelligence counterparts to ensure 
this man was brought to justice.
    We are also following a number of other events:
  --The shocking events in Iraq this past week demonstrate the threats 
        posed by continuing chaos in Syria, which have given rise to 
        dangerous new extremist groups.
  --Deterioration of security in Yemen shows that an established 
        terrorist organization, such as Al Qaeda in the Arabian 
        Peninsula, remains a serious threat.
  --The aggressive moves by Russia in Ukraine recall the importance of 
        U.S. security commitments to our allies, partners, and friends.
  --And finally, the drawdown of U.S. forces in Afghanistan raises 
        questions about our future posture and commitments to that 
        country.
    Secretary Hagel and General Dempsey, I hope you can address some of 
those situations in your opening remarks.
    Along with these security threats, the Department has a longer term 
challenge in how to budget for its priorities.
    I've said many times that sequestration was never supposed to 
happen, but it did.
    The shrinking budgets have meant that many nice-to-have programs, 
such as large headquarters staffs, generous contractor support 
contracts, and generous travel policies, have been cut back.
    But it is not clear that the Department is making all of the tough 
choices required in this new budget environment. The fiscal year 2015 
defense budget plan includes $115 billion in spending between 2016 and 
2019 that is above the BCA caps--meaning that more tough choices are 
ahead if sequestration is not eliminated next year.
    The Department also proposed $26 billion in additional programs 
that it could not fit within its budget constraints, but were viewed as 
high priorities for readiness, modernization, and other key needs. And 
the Service Chiefs proposed an additional $36 billion in programs that 
are also viewed as high priorities.
    Lastly, it has been three and a half months since the 2015 budget 
was submitted, and Congress has yet to see an Overseas Contingency 
Operations budget request.
    I am the first to say that we need to do something about 
sequestration and provide a responsible budget plan that balances 
investments in national defense, education, healthcare, innovation, and 
other national priorities.
    But I am concerned that the DOD cannot continue to count on tens of 
billions of extra dollars arriving each year outside of the budget 
process, and I would like to know how the Department intends to further 
tighten its budgeting process in light of the continuing unknowns of 
sequestration.
    Despite these serious challenges, we can still afford to make 
critical investments in the defense budget within the available 
resources. Many defense leaders have embraced competition to get more 
bang from the taxpayer buck, and there is even more than can be done to 
accelerate competition in defense programs.
    Investments in science and technology are critical not only to our 
national defense, but to innovation across our country. DOD investments 
in GPS satellites, the Internet, and medical research have touched the 
lives of every American, whether or not they have ever worn a uniform.
    Work going on today at DARPA, the Army Research Laboratory, the Air 
Force Research Lab, and the Office of Naval Research could improve our 
national security and revolutionize medicine, technology, and business 
for years to come. Even in these tough budget times, we can afford to 
target medical research and breakthrough technologies for increased 
investment, and I look forward to working with you, Secretary Hagel, to 
make that happen.

    Senator Durbin. Chairwoman Mikulski is not here and Ranking 
Member Shelby is on the floor, so at this point, I'm going to 
proceed to our witnesses and ask Secretary Hagel if he would 
like to open up and make a statement. Your written statement 
will be made an official part of the record.

                 SUMMARY STATEMENT OF HON. CHUCK HAGEL

    Secretary Hagel. Mr. Chairman, thank you. Good morning. 
Members of the committee, good morning. And thank you for the 
opportunity to talk about our fiscal year 2015 budget and, as 
you have noted, the other issues that are before us in the 
world today in this country. We are prepared to respond to 
questions regarding those specific issues.
    I also, on behalf of the Defense Department, want to thank 
this subcommittee, in particular, for your continued support of 
our troops and what is required in order to keep our troops 
modern, ready, capable. And that is much the focus of this 
budget and much of what we'll be talking about this morning, 
and why we presented the budget we have, and why we need the 
budget that we will present.
    Mr. Chairman, I particularly appreciate being here, as 
always, when I am with the Chairman of the Joint Chiefs, 
General Marty Dempsey. This country is very fortunate to have 
General Dempsey's leadership, as well as all the chiefs that 
not only represent our services so well, but are very effective 
in their leadership and very wise in their advice they give to 
the President, give to me.
    I also want to note that Bob Hale, as you have recognized 
already, our Comptroller for DOD over the last 5 years. This, I 
believe, will be his last budget hearing. I know he's greatly 
distressed by that, but he's a great admirer of the Congress, 
and never gets enough time with all of you.
    And I want to particularly acknowledge Bob Hale, because he 
has really been particularly important to DOD and this country 
over the last year, 2 years, when we have had Government 
shutdowns, abrupt, steep cuts, sequestration, which you've 
mentioned. He has been the architecture and the chief operating 
officer to guide us through that.
    So, Bob, we will miss you, your leadership and what you've 
contributed, but you deserve to escape. And you all know very 
well his successor, Mike McCord, who served for many years as a 
senior staff member on the Armed Services Committee. This body 
confirmed him recently, and we appreciate that, so he will 
replace Bob.
    Mr. Chairman, you have noted, and I just recognized, that 
recent crises in Iraq, Ukraine, remind us all how quickly 
things can change in the world, and not for the better. And 
they underscore why we must assure the readiness and the 
agility and the capability of our military. That's what we will 
address today.
    My lengthier submitted statement, Mr. Chairman, describes 
our budget in detail and the rationale behind the decisions 
that we have come forward with, presented in our budget.
    You mentioned our overseas contingency operations budget, 
OCO, for fiscal year 2015. It is being finalized now. I know 
it's late. There are some reasons for that. This OCO 
presentation will reflect the President's decision on a couple 
of new initiatives that he has announced that he's taken and 
certainly the continuation of our enduring presence in 
Afghanistan, as well.
    The President, as you know, recently announced a $5-billion 
Counterterrorism Partnership Fund, which would be funded 
through OCO, and a $1-billion European Reassurance Initiative, 
also funded out of OCO. I strongly support both of these, for 
the reasons that we will define more clearly this morning.
    This budget reflects, I believe, the threats, the 
uncertainties, and the opportunities facing our country today, 
but also probably is important in the future. Everyone on this 
committee knows that decisions made today have immense impact 
on what kind of a military we're going to have down the road. 
You mentioned science and technology. That is one of the 
foundational dynamics of keeping our technological edge, our 
capability, our modernization ahead of what's out there. It 
also, Mr. Chairman, reflects the tough fiscal realities facing 
us here today. And you mentioned one, of course: Sequestration.
    The tremendous uncertainty that DOD has had to deal with 
the last 12 months, but really the last 24 months--do we have a 
budget? We don't have a budget. What kind of a budget? That 
kind of uncertainty, when you're trying to put together and 
operate in the interest of our national security, an enterprise 
this big, has been difficult. But because of the kind of 
leadership in people like Bob Hale and Marty Dempsey, we've 
been able to do it.
    Last year, DOD's budget was cut $37 billion. It was cut $37 
billion because of sequestration. And I might remind this 
committee, as you all know, that's in addition to the $487-
billion 10-year reduction under the Budget Control Act of 2011 
that DOD was already implementing. December's Bipartisan Budget 
Act gave DOD some temporary relief from sequestration for 
fiscal years 2014 and 2015. But it still imposes more than $75 
billion in cuts over the fiscal year this year and fiscal year 
2015.
    Mr. Chairman, unless Congress changes the law, as you all 
know, before fiscal year 2016, sequestration will be back as 
the law, and that will take another $50 billion from our budget 
each year through fiscal year 2021, damaging the military's 
readiness, undercutting our Defense strategy and our 
capabilities.
    The President's 5-year budget plan provides a realistic 
alternative to sequestration, projecting, as you note, $115 
billion more than current law allows from 2016 to 2019. This is 
the minimum amount of additional spending that our military and 
our civilian leadership believe is needed to successfully 
execute the Defense strategy.
    Since my submitted statement explains in detail our budget 
request and the rationale behind those key decisions, I want to 
focus on two critical areas.
    First, our decision to reduce the size of the military's 
force structure and retire older platforms in order to invest 
in training and modernization. Under the strict budget limits 
being imposed on DOD, we cannot keep our current force 
structure adequately ready and modernized. Readiness is our 
main concern. I know it's a concern of this committee. 
Readiness is our main concern, as it must be for anyone who 
cares about our national security and the men and women who 
defend it. We cannot place our men and women in situations if 
they are not ready. It would be a failure, the worst failure 
leadership could make.
    So, we made a strategic decision to reduce the size of our 
force to ensure our troops are trained, ready, capable. These 
decisions were based on strategic priorities in detailed 
analysis, and agreed to by all--by all the service chiefs. 
After 13 years of long war and stability operations, we must 
shift our focus onto future requirements shaped by enduring and 
emerging threats, much like we're seeing today. We must be able 
to defeat terrorist threats and cyber attacks and deter 
adversaries with increasingly modern weapons and technological 
capabilities. That's why we protected funding for cyber and 
special operations.
    For the Active Duty Army, we propose drawing down by 13 
percent over the next 5 years, to about 440 to 450 soldiers, 
which we believe is adequate for future demand, Chief of Staff 
of the Army, General Odierno, believes is adequate for future 
demand.
    Army National Guard and Reserve units will remain, and have 
to remain, a vibrant part of our national defense. We've 
proposed drawing the Reserves and the National Guard down by 5 
percent. We will continue investing in high-end ground 
capabilities to keep our soldiers the most advanced, ready, and 
capable in the world.
    The Navy will have 11 carrier strike groups under the 
President's budget plan, keeping our carrier force at the level 
approved by Congress. We've protected investments in 
submarines, afloat staging bases, guided-missile destroyers, 
and other lethal survivable platforms, ensuring our 
technological edge and enabling our naval forces to operate 
effectively, regardless of other nations' capabilities.
    But we had to make some tradeoffs, Mr. Chairman. We had to 
make some realistic tradeoffs. To help keep its ship inventory 
ready and modern at reduced budget levels, the Navy will set 
aside 11 cruisers for modernization and retrofitting, then 
return them to service with greater capability and longer 
lifespans. This will also support a strong defense industrial 
base, itself a national strategic asset.
    The Marine Corps will continue its planned drawdown to 
182,000 and will devote about 900 more marines to increased 
Embassy security.
    The Air Force will continue investing in advanced 
capabilities that are most relevant to maintaining our aerial 
dominance in confronting new threats, including the F-35 Joint 
Strike Fighter, the new long-range bomber, and the KC-45 
refueling tanker. But we choose--chose to replace the 50-year-
old U-2 with the unmanned Global Hawk and phase out the 40-
year-old A-10, which lacks the multi-mission capabilities of 
more advanced survivable aircraft.
    Let me address compensation reform as the second issue. 
Taking care of our people, as everyone on this committee knows, 
means providing them with fair compensation as well as the 
training and tools they need to succeed in battle and to return 
home safely. To meet those obligations under constrained 
budgets, we need some modest reforms and structural 
adjustments. We need these to slow the grow in pay and certain 
in-kind benefits.
    Let me clarify what these adjustments are and are not.
    First, we'll keep recommending pay increases, but the rate 
of growth of those increases would be slow.
    Second, off-basing housing--off-base housing subsidies, 
they will continue. Today's 100-percent benefit would be 
gradually reduced, but only to 95 percent, phasing in over 
several years. And I would remind us that, in the 1990s, the 
housing allowance was about 80 percent.
    Third, we're not closing commissaries. We recommended 
gradually phasing out some subsidies, but only for domestic 
commissaries in large metropolitan areas. We'll continue fully 
subsidizing all commissaries overseas and in remote locations.
    Fourth, we recommend simplifying and modernizing our three 
TRICARE systems by merging them into one system, phasing in 
modest increases in copays and deductibles for retirees and 
family members to encourage the most affordable means of care. 
Active Duty personnel's healthcare will remain free. We will 
not compromise on access and quality of healthcare. Under our 
plan, 100 percent of the savings from compensation reform will 
go toward ensuring--that our troops have the training and tools 
they need to accomplish their missions.
    Readiness. If Congress blocks these changes without 
adjusting current budget caps, or if sequestration remains the 
law, it will jeopardize the readiness and capability of our 
armed forces and shortchange America's ability to effectively 
and decisively respond when global offense--events demand it. 
My submitted statement, Mr. Chairman, details how sequestration 
would compromise our national security.

                           PREPARED STATEMENT

    Mr. Chairman, the President's budget supports our Defense 
strategy, it defends this country and keeps our commitment--all 
of our commitments to our people. The Chairman, the chiefs, and 
I strongly support it. I look forward to your questions.
    Thank you, Mr. Chairman.
    [The statement follows:]
                 Prepared Statement of Hon. Chuck Hagel
    Chairman Durbin, Ranking Member Cochran, members of the committee: 
Thank you for the opportunity to be here today.
    The President's fiscal year 2015 budget submission for the 
Department of Defense fully reflects the historic transition taking 
place as America winds down the longest war in its history. This is a 
defining budget that will begin adapting and reshaping our defense 
enterprise for years to come. Recent crises in Iraq and Ukraine are 
reminders of how dangerous, volatile, and unpredictable the world can 
be--and they underscore the absolute need to assure the readiness, 
agility, and capability of the United States military.
    With this budget, we are repositioning the military for the new 
strategic challenges and opportunities that will define our future: new 
technologies, new centers of power, and a world that is growing more 
volatile, more unpredictable, and in some instances more threatening to 
the United States. We are also helping navigate through a period of 
great uncertainty regarding the future level of resources DOD will have 
to defend the Nation.
    I have no illusions about the fiscal realities facing DOD. It was 1 
year ago that $37 billion in sequestration cuts were being imposed for 
fiscal year 2013--cuts that came in addition to the $487 billion, 10-
year defense spending reductions required by the Budget Control Act of 
2011 that DOD has been implementing.
    We had to implement this $37 billion cut in a matter of months 
while trying to avoid damage to national security. Our people and our 
mission suffered because of these abrupt and deep cuts.
    Today, DOD is in a better place as a result of the Bipartisan 
Budget Act passed last December. It provided DOD with some relief in 
this fiscal year and for fiscal year 2015. And it gave us some budget 
certainty for the next fiscal year.
    The Bipartisan Budget Act was possible because Members of Congress, 
both Republican and Democrat, worked together with this Administration 
for the greater interests of our country.
    But we're not yet where we need to be. So our partnership must 
continue.
    Under the spending limits of the Bipartisan Budget Act, DOD's base 
budget is roughly $496 billion in fiscal year 2014--or $31 billion 
below what the President requested last year. The law also meant 
cutting DOD spending in fiscal year 2015 to $496 billion, which is $45 
billion less than was projected in the President's budget request last 
year. And sequestration-level cuts remain the law for fiscal year 2016 
and beyond.
    Defense budgets have long included both a 1-year budget request, 
and a 5-year plan that indicates expectations for the future. Over the 
years from fiscal year 2016 to fiscal year 2019, the President's plan 
projects $115 billion more in spending than at sequestration levels.
    Some have asked why the President continues to request budgets 
above sequestration levels. The reason is clear. President Obama and I 
are not going to ask for a level of funding that would compromise 
America's national security interests. We never would. Continued 
sequestration cuts would compromise our national security both for the 
short and long term.
    That said, if sequestration returns in fiscal year 2016 and beyond, 
or if we receive funding levels below the President's request, we are 
prepared to specify the cuts we would have to make, and the risks we 
would then have to assume. These cuts are described in this testimony 
and have been sent over to Congress in a detailed report.
    However, the President, the Chairman, and I do not expect Congress 
to push us further down a path that has clear risks to our national 
security. Instead, we expect that all of us can continue working 
together, as partners, to find a balance . . .   and to assure 
America's national security. If Congress is going to require us to 
operate under increasingly constrained budgets, Congress must partner 
with us so that we can make the right decisions.
    The President's budget matches resources to the updated defense 
strategy in this year's Quadrennial Defense Review (QDR), which builds 
on the President's January 2012 Defense Strategic Guidance. The QDR is 
not budget-driven; rather, it is resource-informed, defining the risks 
assumed under the President's budget as well as the risks that would be 
assumed under the return of sequestration. A QDR that completely 
ignores fiscal realities would be irrelevant.
    The QDR outlines our top strategic priorities, which weighed 
heavily on the choices presented in this budget:
  --Defending the homeland against all threats;
  --Building security globally by projecting U.S. influence and 
        deterring aggression; and
  --Remaining prepared to win decisively against any adversary should 
        deterrence fail.
    To fulfill this strategy DOD will continue to shift its operational 
focus and forces to the Asia-Pacific, sustain commitments to key allies 
and partners in the Middle East and Europe, maintain engagement in 
other regions, and continue to aggressively pursue global terrorist 
networks.
    As a whole, this budget allows DOD to implement the President's 
defense strategy, albeit with some increased risks, which I specify 
later in my testimony.
    The reality of reduced resources and a changing strategic 
environment requires us to prioritize and make difficult choices. Given 
the uncertainty about funding levels, our current 5-year plan reduces 
selected end strengths and forces to levels consistent with 
sequestration-level cuts. Those additional reductions could be reversed 
if funding rises above sequestration levels. I explain this in greater 
detail later in my testimony. The way we formulated our budget gives us 
the flexibility to make difficult decisions based on the likely range 
of potential fiscal outcomes.
    budget top-lines: balancing readiness, capability, and capacity
    Consistent with the strict spending limits of the Bipartisan Budget 
Act, President Obama is requesting $495.6 billion for DOD's fiscal year 
2015 base budget. Since last year's plans called for $541 billion for 
fiscal year 2015, this represents a $45 billion cut. Our fiscal year 
2015 budget will allow the military to protect U.S. interests and 
fulfill the updated defense strategy--but with increased levels of 
risk. DOD can manage these risks under the President's fiscal year 2015 
budget plan, but risks would grow significantly if sequestration-level 
cuts return in fiscal year 2016, if proposed reforms are not accepted, 
and if uncertainty over budget levels continues.
    In formulating this budget, our priority was balancing readiness, 
capability, and capacity--making sure that whatever size force we have, 
we can afford to keep our people properly trained, equipped, 
compensated, and prepared to accomplish their mission. That's the only 
reasonable course under constrained budgets. We must be able to keep 
our military ready and capable.
    Accordingly, about two-thirds of DOD's fiscal year 2015 budget--
$341.3 billion--funds its day-to-day costs, what a business might call 
its operating budget. These funds pay for things like fuel, spare 
parts, logistics support, maintenance, service contracts, and 
administration. It also includes pay and benefits for military and 
civilian personnel, which by themselves comprise nearly half of the 
total budget.
    The remaining third of our budget--$154.3 billion--pays for 
investments in future defense needs, or what a business might call its 
capital improvement budget. These funds are allocated for researching, 
developing, testing, evaluating, and ultimately purchasing the weapons, 
equipment, and facilities that our men and women in uniform need to 
accomplish their mission.
    Broken down in a more specific way, our budget includes the 
following categories:
  --Military pay and benefits (including healthcare and retirement 
        benefits).--$167.2 billion, or about 34 percent of the total 
        base budget.
  --Civilian pay and benefits.--$77 billion, or about 16 percent of the 
        total base budget.
  --Other operating costs.--$97.1 billion, or about 19 percent of the 
        total base budget.
  --Acquisitions and other investments (Procurement; research, 
        development, testing, and evaluation; and new facilities 
        construction).--$154.3 billion, or about 31 percent of the 
        total base budget.
    So far I have focused on DOD's base budget. We will soon propose an 
Overseas Contingency Operations (OCO) budget for fiscal year 2015. The 
OCO budget will cover costs related to Afghanistan and other operations 
and will reflect the President's decision regarding the enduring 
presence in Afghanistan and U.S. commitments made at the 2012 NATO 
Summit in Chicago. Specifically it will assume that at the beginning of 
calendar year 2015, the United States will have 9,800 U.S. 
servicemembers in different parts of Afghanistan, in addition to troops 
from our NATO allies and other partners, to conduct two limited 
missions: training and advising Afghanistan's security forces, and 
counterterrorism operations against the remnants of al-Qa'ida. By the 
end of 2015, we would reduce the U.S. presence by roughly half, 
consolidating our troops into two locations in Kabul and Bagram 
Airfield. By the end of 2016, we will draw down to a more conventional 
Embassy-based security assistance presence in Kabul. As the President 
has made clear, this enduring presence is contingent on the Afghans 
signing a Bilateral Security Agreement.
    The OCO budget request will also cover other costs related to 
CENTCOM operations in the Mideast. In addition, the President has 
announced that the fiscal year 2015 OCO request will include up to $5 
billion for a Counterterrorism Partnerships Fund designed to allow the 
United States to train, build capacity, and facilitate operations of 
partner countries assisting on the front lines of our efforts to combat 
terrorism. These funds will give us the flexibility to fulfill 
different missions such as training security forces in Yemen, 
supporting a regionally led force to help keep peace in Somalia, 
working with European allies to train a security force and border 
patrol in Libya, and facilitating French operations in Mali.
    The fiscal year 2015 OCO request will also include the President's 
one billion dollar European Reassurance Initiative that would allow us 
to take measures to reinforce Allies and Partners in Europe. These 
measures could include:
  --increasing exercises, training, and rotational presence across 
        Europe, especially on the territory of our newer NATO allies;
  --as we have done in Poland, deploying small detachments of U.S. 
        planners to augment the capability of our allies to design and 
        host a broad range of training and exercises;
  --increasing the responsiveness of U.S. forces to reinforce NATO 
        through the prepositioning of equipment, and improvements to 
        other reception facilities and infrastructure in Europe; and
  --increasing U.S. Navy participation in NATO naval force deployments, 
        including deployments to the Black and Baltic Seas.
    The fiscal year 2015 budget request sent to Congress in March 
included a placeholder of $79 billion for OCO. It would be premature 
for me to provide right now a specific number for the fiscal year 2015 
OCO request. However, we expect that the proposal will be substantially 
smaller than the placeholder figure.
                          being more efficient
    Because we are asking taxpayers for more than half a trillion 
dollars for defense spending, DOD must make every $1 count--
particularly during a period when we are under stringent budget 
constraints across the Federal Government. So we're continuing to find 
new ways to use our resources more wisely and strategically, be more 
efficient, reduce overhead, and root out waste, fraud, and abuse.
    This year, a new package of reforms in these areas--the second-
largest submitted by this Administration--produced $18.2 billion in 
savings for fiscal year 2015, and some $93 billion in savings through 
fiscal year 2019. This enabled us to make smaller cuts in other areas. 
Building on a 20-percent cut in management headquarters operating 
budgets--which we began implementing in December for the Office of the 
Secretary of Defense and the Joint Staff, and which the services and 
agencies are implementing during the 5-year defense plan--this package 
includes savings from reducing contractor costs and civilian personnel; 
terminating or delaying some troubled weapons and procurement programs 
in favor of higher priorities; and cutting back on costs at certain 
defense agencies. It also includes healthcare savings that we found by 
cutting back lower-priority research projects and construction and by 
taking advantage of slower growth of healthcare costs in the private 
sector.
    We are also continuing to monitor previous years' initiatives to 
use our resources more efficiently, as well as making progress toward 
auditability on our financial statements. DOD expects most of its 
budget statements to be audit ready by this September, and remains 
committed to becoming fully audit-ready by 2017. This is an ambitious 
goal for an organization of our size and complexity, and there is still 
much more work to do. But we are making significant progress. Several 
DOD organizations have achieved important, positive audit results. Last 
year, for example, the Marine Corps became the first DOD military 
service to receive a clean audit opinion--in this case for the current 
year of its budget statement.
    In addition to these efforts, we must take a serious look at 
responsible procurement and acquisition reforms that will further 
increase the buying power of defense dollars. This is particularly 
important if we're going to protect investments in modernized 
capabilities. DOD officials are already working closely with 
Congressional Committee staff to go over defense acquisition and 
procurement laws line-by-line, and we hope to start implementing 
legislative reforms this year.
    No reasonable discussion of allocating our resources more 
efficiently can avoid the need to reduce excess facilities. With this 
submission, we are asking Congress to authorize a round of Base 
Realignment and Closure (BRAC) to begin in fiscal year 2017.
    I understand Congress' concerns about BRAC, including your desire 
to reduce overseas infrastructure first and your frustrations with BRAC 
2005. That's why this round will be focused on finding savings rather 
than reorganization and will feature a rapid payback of up-front costs, 
and why DOD will continue to reduce excess overseas infrastructure.
    But we must also divest ourselves of excess domestic facilities, 
and BRAC is the most responsible path. I am fully aware that Congress 
has not agreed to our BRAC requests of the last 2 years, and that both 
authorizing committees have denied our request for a BRAC round in 
2017. If Congress continues to block these requests while reducing the 
overall budget, we will have to consider every tool at our disposal to 
reduce infrastructure.
    We can't keep financing overhead that we don't need, because we're 
taking that money away from areas that we do need. The more we delay 
now, the more we'll have to spend later on unneeded installations 
instead of on training, equipping, and compensating our people--robbing 
our troops of the resources they need to be able to fight and win 
decisively when we send them into harm's way.
    This issue is only going to get more difficult. Future Congresses 
and administrations will be dealing with it, with fewer and far less 
attractive and far more painful options. Congress and DOD must work 
together to make these decisions wisely--because no matter what, we 
must reduce force structure and end strength in order to sustain a 
ready and capable force under constrained budgets.
      sustaining a ready and capable force--now and in the future
    This is the lesson of every defense drawdown over the past 70 
years. Whether after World War II, Korea, Vietnam, or the Cold War, the 
U.S. military retained more force structure than it could afford to 
train, maintain, and equip--giving too much weight to capacity over 
readiness and capability. Because readiness and modernization were 
sacrificed, it took much more money for the military to recover and be 
sufficiently trained and equipped to perform assigned missions. And 
conflict ultimately did resurface after every war.
    We can't afford to repeat those mistakes, which is why we decided 
to trade some capacity for readiness and modernized capabilities, in 
order to ensure that our military will be well-trained and supplied. 
All of our force structure decisions were made strategically--
protecting investments in the forces that would be uniquely suited to 
the most likely missions of the future, and minimizing risk in meeting 
the President's defense strategy.
    Our decisions for investing in a modernized and capable future 
force were made in a similar way. With the proliferation of more 
advanced military technologies and other nations pursuing comprehensive 
military modernization, we are entering an era where American dominance 
on the seas, in the skies, and in space--not to mention cyberspace--can 
no longer be taken for granted. Because it is essential for deterring 
aggression, and because the risk of failure against those potential 
adversaries would be far greater than against any others, the 
President's budget puts a premium on rapidly deployable, self-
sustaining platforms that can defeat more technologically advanced 
adversaries.
    Sustaining these critical investments under restrained budgets 
required setting strategic priorities and making difficult tradeoffs. 
That's why each service's budget allocations were made based on 
strategy and with the goal of maintaining balance in the readiness, 
capability, and capacity of the force.
Army: (24 Percent of the President's Fiscal Year 2015 Budget)
    The Army's $120.3 billion will support 32 active-duty brigade 
combat teams in fiscal year 2015. Since we are no longer sizing the 
force for large and prolonged stability operations, the Army will 
accelerate the pace and increase the scale of its post-war drawdown--
reducing by 13 percent between now and 2017, from about 520,000 
soldiers to a range of 440,000-450,000 active-duty soldiers instead of 
490,000. To maintain a balanced force, the Army National Guard and 
Reserves will also draw down, but by a smaller percentage and by a 
smaller amount than the active Army--reducing by an average of 5 
percent between now and 2017, from about 355,000 Guardsmen and 205,000 
Reservists to 335,000 Guardsmen and 195,000 Reservists.
    Analysis conducted by the QDR indicated that under the President's 
budget, the U.S. military's resulting post-war ground force will be 
sufficient to meet the updated defense strategy: capable of decisively 
defeating aggression in one major combat theater--as it must be--while 
also defending the homeland and supporting air and naval forces engaged 
in another theater. I am aware that pending legislation would establish 
yet another commission on the size and shape of the Army, and would 
also limit the size of the Army drawdown in the years beyond fiscal 
year 2015. We don't need to wait for another commission. We know what 
we have to do based on the continued deep resource restraints. Under 
current budget limits, maintaining an Army larger than the one we 
propose will lead to forces that do not have enough funds for proper 
training and modern equipment.
    In terms of capabilities, we chose to terminate and reevaluate 
alternative options for the Army's Ground Combat Vehicle program, which 
had become too heavy and needed an infusion of new technology. The Army 
will also streamline its helicopter force from 7 to 4 airframes. Aging 
Kiowa helicopters and older training helicopters will be retired and 
replaced with more advanced Apache helicopters that will move from the 
National Guard to the active force. In return, the Guard will receive 
much more versatile Blackhawk helicopters, which are not only critical 
for warfighting, but also more adaptable for the missions the Guard 
conducts most frequently, such as disaster relief and emergency 
response.
    The past decade of war has clearly shown that Apaches are in high 
demand. We need to put the Apaches where they will be ready to deploy 
fast and frequently when they're needed. This decision will also help 
the Guard's helicopter force more closely adhere to state and Federal 
requirements for homeland defense, disaster relief, and support to 
civil authorities while still serving as an important operational and 
strategic complement to our active-duty military. The Guard's 
helicopter fleet would only decline by 8 percent compared to the active 
Army's decline by 25 percent, and the overall fleet will be 
significantly modernized under the President's budget plan.
    In making these difficult decisions on the Guard and Reserves, we 
affirmed the value of a highly capable reserve component, while keeping 
the focus on how our military can best meet future demands given fiscal 
constraints. I know that pending legislation would prohibit some or all 
of these changes. Let me emphasize that we made these proposals based 
on strategic priorities, clear facts, unbiased analysis, and fiscal 
realities . . . and with the bottom line focus on how we can best 
defend the United States. If Congress prohibits the changes, then we 
run a serious risk of reducing our combat capability.
Navy and Marine Corps: (30 Percent of the President's Fiscal Year 2015 
        Budget)
    The Navy and Marine Corps are allocated $147.7 billion for fiscal 
year 2015. The Navy's $124.9 billion will support a fleet approaching 
300 ships and some 323,600 active-duty sailors, as well as help 
preserve the fleet's modernization programs. The President's budget 
plan protects our investments in attack submarines, guided missile 
destroyers, and afloat staging bases--all of which we will need to 
confront emerging threats. Specifically:
  --Virginia-Class Attack Submarines.--We are requesting $5.9 billion 
        for fiscal year 2015, and $28 billion over the FYDP, to support 
        buying two submarines a year through fiscal year 2019.
  --DDG-51 Guided Missile Destroyers.--We are requesting $2.8 billion 
        for fiscal year 2015, and $16 billion over the FYDP, to support 
        buying two DDG-51 destroyers a year through fiscal year 2019. 
        This will grow our destroyer inventory from 62 at the end of 
        fiscal year 2014 to 71 (68 DDG-51s, 3 DDG-1000s) at the end of 
        fiscal year 2019.
  --Afloat Forward Staging Bases.--We are requesting $613 million over 
        the FYDP to support buying one afloat forward staging base 
        between now and fiscal year 2019.
  --Aircraft Carriers.--The President's budget plan enables us to 
        support 11 carrier strike groups, including the USS George 
        Washington and its carrier air wing. If we receive the 
        President's funding levels through fiscal year 2019, we will 
        keep the George Washington in the fleet and pay for its nuclear 
        refueling and overhaul. We are requesting $2 billion in fiscal 
        year 2015 and $12 billion over the FYDP to support completion 
        of the Gerald Ford, construction of the John F. Kennedy, and 
        initial procurement of the next carrier.
  --F-35 Joint Strike Fighter.--The Department of the Navy is acquiring 
        two F-35 variants--the Navy carrier-based variant, the F-35C, 
        and the Marine Corps short-take-off-and-vertical-landing 
        variant, the F-35B. The Navy is requesting $3.3 billion for 
        eight aircraft in fiscal year 2015 (two F-35Cs and six F-35Bs), 
        and $22.9 billion for 105 aircraft over the FYDP.
    Again, trade-offs were required to prioritize those investments 
under current budget constraints. In order to help keep its ship 
inventory ready and modern at reduced budget levels, half of the Navy's 
cruiser fleet--or 11 ships--will be placed in a long-term phased 
modernization program that will eventually provide them with greater 
capability and a longer lifespan. This approach to modernization 
enables us to sustain our fleet of cruisers over the long term, which 
is important because they're the most capable ships for controlling the 
air defense of a carrier strike group. I am aware that some pending 
legislation would prohibit placing these ships into this new status. I 
believe that, in the long run, such a prohibition would lead to a Navy 
that is less modern and capable.
    Despite preserving the fleet's modernization programs and providing 
for increases in ship inventory over the next 5 years, I am concerned 
that the Navy is relying too heavily on the Littoral Combat Ship (LCS) 
to achieve its long-term goals for ship numbers.
    The LCS was designed to perform certain missions--such as mine 
sweeping and antisubmarine warfare--in a relatively permissive 
environment. But we need to closely examine whether the LCS has the 
independent protection and firepower to operate and survive against a 
more advanced military adversary and emerging new technologies, 
especially in the Asia Pacific. If we were to build out the LCS program 
to 52 ships, as previously planned, it would represent one-sixth of our 
future 300-ship Navy. Given continued fiscal constraints, we must 
direct future shipbuilding resources toward platforms that can operate 
in every region and along the full spectrum of conflict.
    Therefore, no new contract negotiations beyond 32 ships will go 
forward. With this decision, the LCS line will continue beyond our 5-
year budget plan with no interruptions. Additionally, at my direction, 
the Navy will submit alternative proposals to procure a capable and 
lethal small surface combatant, generally consistent with the 
capabilities of a frigate. I've directed the Navy to consider a 
completely new design, existing ship designs, and a modified LCS. These 
proposals are due to me later this year in time to inform next year's 
budget submission.
    While these decisions still keep the Navy on track for a 300-ship 
inventory by 2019, finding the money required to modernize older ships 
and buy new ones will depend on the Navy's success in its aggressive 
and ambitious plans to reduce acquisitions costs and use available 
resources more efficiently, particularly in the acquisition of 
contracted services. My office will be keeping a close eye on these 
efforts.
    The Marine Corps' $22.7 billion will support 182,700 Marines, 
including about 900 more Marines devoted to increased security at 
embassies around the world. It will also support a geographically 
distributed force posture in the Asia-Pacific, which will be critical 
as we continue rebalancing to the region.
Air Force: (28 Percent of the President's Fiscal Year 2015 Budget)
    The Air Force is allocated $137.8 billion in fiscal year 2015. We 
chose to protect funding for advanced systems most relevant to 
confronting emerging new threats--including the F-35 Joint Strike 
Fighter, the new Long Range Strike Bomber, and the KC-46 refueling 
tanker. These platforms will be critical to maintaining aerial 
dominance against any potential adversaries for decades to come. 
Specifically:
  --F-35 Joint Strike Fighter.--We are requesting $4.6 billion for 26 
        aircraft in fiscal year 2015, and $31.7 billion for 238 
        aircraft over the FYDP.
  --Long Range Strike Bomber.--We are requesting $900 million for 
        development funds in fiscal year 2015, and $11.4 billion over 
        the FYDP.
  --KC-46 Tanker.--We are requesting $2.4 billion for seven aircraft in 
        fiscal year 2015, and $16.5 billion for 69 aircraft over the 
        FYDP.
    Because we believe research and development is essential to keeping 
our military's technological edge, the President's budget also invests 
$1 billion through fiscal year 2019 in a promising next-generation jet 
engine technology, which we expect to produce improved performance and 
sizeable cost-savings through less fuel consumption. This new funding 
will also help ensure a robust industrial base--itself a national 
strategic asset.
    Protecting these investments required trade-offs. In the next 5 
years, in order to free up funding to train and maintain no less than 
48 squadrons, the Air Force plans to reduce the number of active-duty 
personnel from 328,000 airmen at the end of fiscal year 2014 to 309,000 
airmen by the end of fiscal year 2019. The Air Force will also retire 
the 50-year-old U-2 in favor of the unmanned Global Hawk system, slow 
the growth in its arsenal of armed unmanned systems, and phase out the 
aging A-10 fleet.
    The A-10 ``Warthog'' is a venerable platform, and this was a tough 
decision. But it is a 40-year-old single-purpose airplane originally 
designed to kill enemy tanks on a Cold War battlefield. It cannot 
survive or operate effectively where there are more advanced aircraft 
or air defenses. And as we saw in Iraq and Afghanistan, the advent of 
precision munitions means that many more types of aircraft can now 
provide effective close air support, from multirole fighters to B-1 
bombers to remotely piloted aircraft, which can all execute more than 
one mission. Moreover, the A-10's age is making it much more difficult 
and costly to maintain. Analysis showed that significant savings were 
only possible through eliminating the entire support apparatus 
associated with the aircraft. Keeping a smaller number of A-10s would 
only delay the inevitable while forcing worse trade-offs elsewhere. I 
therefore strongly urge the Congress to permit DOD the flexibility to 
make difficult changes such as the retirement of the A-10 aircraft.
Defense-Wide: (18 Percent of the President's Fiscal Year 2015 Budget)
    The remaining share of the budget--about $89.8 billion--is 
allocated for organizations across the Department of Defense.
    For fiscal year 2015, this includes about $7.5 billion for the 
Missile Defense Agency, which is critical for defending our homeland 
and reassuring our European allies. This funding will enable DOD to 
increase the number of Ground-Based Interceptors and make targeted 
investments in additional defensive interceptors, discrimination 
capabilities, and sensors. The budget continues to support the 
President's schedule for the European Phased Adaptive Approach.
    Since special operations forces play a key role in 
counterterrorism, crisis response, and building partner capacity, the 
President's budget for fiscal year 2015 allocates $7.7 billion for 
Special Operations Command. This is equal to what we requested last 
year, a 10-percent increase over what Congress appropriated for fiscal 
year 2014, and will support a special operations force of 69,700 
personnel.
    The President's fiscal year 2015 budget increases cyber funding to 
$5.1 billion and maintains funding for intelligence agencies and other 
support activities. Through funds allocated to the Navy and the Air 
Force, the President's budget also preserves all three legs of the 
nuclear triad and funds important investments to ensure a safe, secure, 
and effective nuclear deterrent.
compensation reform and structural adjustments to some in-kind benefits
    For all the money that goes into maintaining a modernized and 
capable force, people are the core of our military. In this era of 
constrained budgets, ensuring that our people are properly trained, 
equipped, prepared, and compensated requires looking at difficult 
trade-offs and making some difficult choices. Compensation adjustments 
were the last thing we looked at, because you take care of your people 
first.
    While Congress has taken some helpful steps in recent years to 
control the growth in compensation spending, we must do more. At this 
point, given the steps we've already taken to reduce civilian personnel 
costs in compliance with Congressional direction, no realistic effort 
to find further significant savings--savings needed to close serious 
shortfalls in training, maintenance, and equipment--can avoid dealing 
with military compensation . . .  That includes pay and benefits for 
active and retired troops, both direct and in-kind.
    We could reduce overall payroll spending by further reducing the 
total number of people in uniform. But since too small a force adds too 
much risk to our national security, we must also address the growth in 
pay and benefits for servicemembers so that we can afford to provide 
them with the training and tools they need to successfully accomplish 
their missions and return home safely.
    Since 2000, Congress has in some cases boosted pay increases above 
the levels requested by the Department of Defense. Benefits were added 
and increased by more than what most active-duty personnel sought, 
expected, or had been promised when joining the military. Congress also 
added a new healthcare benefit and approved DOD proposals to increase 
housing allowances. As a U.S. Senator I supported such proposals. It 
was the right thing to do at the time, given the burdens being placed 
on our servicemembers, the military's recruiting and retention 
challenges, and the fact that we had few constraints on defense 
spending.
    But today DOD faces a vastly different fiscal situation--and all 
the services have consistently met recruiting and retention goals. This 
year we're concluding combat operations in America's longest war, which 
has lasted 13 years. Now is the time to consider fair and responsible 
adjustments to our overall military compensation package.
    America has an obligation to make sure servicemembers and their 
families are fairly and appropriately compensated and cared for during 
and after their time in uniform. We also have a responsibility to give 
our troops the finest training and equipment possible--so that whenever 
America calls upon them, they are prepared with every advantage we can 
give them so that they will return home safely to their families. The 
President's budget fulfills both of these promises to our 
servicemembers and their families by making several specific proposals.
Basic Pay Raises
    For fiscal year 2015 we are requesting 1 percent raise in basic pay 
for military personnel--with the exception of general and flag 
officers, whose pay will be frozen for a year. Basic pay raises in 
future years will be similarly restrained, though raises will continue.
    DOD rightfully provides many benefits to our people; however, 
finding the money to meet these commitments while protecting training 
and readiness under tighter budgets will require some structural 
adjustments to three of them--housing, commissaries, and TRICARE.
Housing
    In the early 1990s, DOD covered only about 80 percent of 
servicemembers' total off-base housing costs. Since then, we increased 
that rate to 100 percent.
    To adequately fund readiness and modernization under constrained 
budgets, we need to slow the growth rate of tax-free basic housing 
allowances (BAH) until they cover about 95 percent of the average 
servicemember's housing expenses. We would also remove renters' 
insurance from the benefit calculation.
    This change will happen over several years, to ensure that our 
people have time to adjust to it. And, in order to ensure that military 
personnel don't have to pay more out-of-pocket after they've signed a 
lease, a servicemember's allowance won't be adjusted until they've 
moved to a new location. This means that no one currently living in a 
particular area will see their housing allowances actually decrease; 
only servicemembers moving into the area will receive the lower rate, 
which is what already happens under the current rules when housing 
market prices go down.
    To account for geographic differences in housing costs, we will 
also design this adjustment to ensure that all servicemembers in the 
same pay grade have identical out-of-pocket costs. That way, once the 
overall change has been fully phased-in for all personnel, 
servicemembers in the same pay grade but living in different areas 
would end up paying the same dollar amount toward their housing costs--
and they'll know exactly how much that will be so that they can make 
informed decisions and trade-offs in their own budgets.
    All of these savings will be invested back into the force, to help 
keep our people trained and equipped so they can succeed in battle and 
return home safely to their families.
Commissaries
    There's no doubt that commissaries provide a valued service to our 
people, especially younger military families and retirees. For this 
reason, we're not directing any commissaries to close.
    Like our base exchanges, commissaries currently do not pay rent or 
taxes. That won't change under any of our proposals. But unlike base 
exchanges, commissaries also receive $1.4 billion in direct subsidies 
each year. In order to adequately fund training and readiness under 
constrained budgets, we need to gradually reduce that subsidy by $1 
billion (about two-thirds) over the next 3 years.
    Stateside commissaries have many private-sector competitors, and 
it's not unreasonable for them to operate more like a business. Since 
commissaries still operate rent-free and tax-free, they will still be 
able to provide a good deal to servicemembers, military families, and 
retirees as long as they continue to shop there. Going forward, only 
commissaries overseas or in remote U.S. locations would continue 
receiving direct subsidies, which, for example, not only helps pay to 
ship U.S. goods to bases overseas, but also helps those who either may 
not have the option of a local grocery store or are stationed where 
food prices may be higher.
TRICARE
    In recent years, Congress has permitted DOD to make some changes 
that slow the growth in military healthcare costs; however, these costs 
will continue to grow, and we need to slow that growth in order to free 
up funds for training and readiness. So we need to make some additional 
smart, responsible adjustments to help streamline, simplify, and 
modernize the system while encouraging affordability.
    Merging three of our TRICARE health plans for those under 65--
Prime, Standard, and Extra--into a single, modernized health plan will 
help us focus on quality while reducing complexity and administrative 
costs. The new plan would adjust co-pays and deductibles for retirees 
and some active-duty family members in ways that encourage TRICARE 
members to use the most affordable means of care, such as military 
treatment facilities and preferred providers.
    Some important features of the military healthcare system will not 
change. The scope of benefits will not change, and we will continue to 
distinguish between in-network and out-of-network care. Active-duty 
personnel will still receive healthcare that is entirely free--that's 
the promise we make when they sign up, and it's a promise we intend to 
keep. Medically retired personnel and survivors of those who died on 
active duty will continue to be treated favorably, with no 
participation fees and lower co-pays and deductibles. And DOD will 
continue to support our programs for wounded warriors.
    With the TRICARE single health plan, active-duty family members and 
retirees under age 65 will be able to save more money by using military 
treatment facilities (MTF) if they're close to home, which are often 
under-used. More than 90 percent of active-duty servicemembers and 
their families live within an MTF's 40-mile-radius service area. For 
families of active-duty servicemembers stationed far away from MTFs, 
such as recruiters, all their care will continue to be considered ``in-
network'' even if there are no network care providers in their remote 
location.
    Under this proposal, the share of costs borne by retirees will rise 
from about 9 percent today to about 11 percent--still a smaller cost 
share than the roughly 25 percent that retirees were paying out-of-
pocket when TRICARE was initially set up in the 1990s. And while we 
will ask retirees and some active-duty family members to pay modestly 
more, others may end up paying less. Overall, everyone's benefits will 
remain substantial, affordable, and generous--as they should be.
    Given these proposed efforts to modernize and simplify TRICARE for 
retirees under age 65, we did not resubmit last year's request for 
sharp increases in enrollment fees for these retirees.
    For retirees who are old enough to use Medicare and who choose to 
have TRICARE as well--what we call TRICARE-For-Life (TFL)--we would ask 
new members to pay a little bit more as well. Since TFL coverage 
currently requires no premium or enrollment fee, DOD again proposes a 
small per-person enrollment fee equal to 1 percent of a retiree's gross 
retirement pay up to a maximum of $300 per person--comparable to paying 
a monthly premium of no more than $25. For retired general and flag 
officers, the maximum would be $400 per person. Current TFL members 
would be grandfathered and exempted from having to pay enrollment fees. 
Even with this small enrollment fee, TFL members will still have 
substantial, affordable, and generous benefits--saving them thousands 
of dollars a year compared to similar coverage supplementing Medicare.
    Congress has taken helpful steps in the past, authorizing 
adjustments to the TRICARE pharmacy co-pay structure and initiating a 
pilot program for TFL members to refill prescriptions for maintenance 
medications (such as those that treat high blood pressure and high 
cholesterol) by mail order. These are good practices that we must now 
build upon in order to better encourage more TRICARE members to use 
generics and mail-order prescriptions, which help save the most money. 
Under our plan, MTFs will continue filling prescriptions without 
charging a co-pay, while all prescriptions for long-term maintenance 
medications will need to be filled either at MTFs or through the 
TRICARE mail order pharmacy. To ensure that our people aren't caught 
off-guard and have time to make the necessary adjustments, our plan 
would be slowly phased in over a 10-year period.
Military Retirement
    Our proposals do not include any recommended changes to military 
retirement benefits for those now serving in the Armed Forces. Because 
military retirement is a complex and long-term benefit, it deserves 
special study. Therefore, we are working with and waiting for the 
results of the Military Compensation and Retirement Modernization 
Commission, which is expected to present its report in February 2015, 
before pursuing reforms in that area. But DOD continues to support the 
principle of ``grandfathering'' for any future changes to military 
retirement plans.
Why Now
    DOD's military and civilian leaders conducted substantial analysis 
to arrive at our proposed package of compensation adjustments. We 
concluded that, even after we make these changes and slow the growth in 
military compensation, we will still be able to recruit and retain a 
high-quality force and offer generous, competitive, and sustainable 
benefits.
    These proposed compensation adjustments will be phased in over 
time, but they must begin now because budget limits are already in 
place. If we wait, we would have to make even deeper cuts to readiness 
or force structure in order to comply with the budget caps that 
Congress has passed into law. We must be able to free up funds in order 
to provide our men and women in uniform with the tools and training 
they need to succeed in battle and return home safely to their 
families. Sustaining a well-trained, ready, agile, motivated, and 
technologically superior force depends on it.
    To be clear, our proposals were carefully crafted to reform 
military compensation in a fair, responsible, and sustainable way, 
making the most modest adjustments we could afford. We took a holistic 
approach to this issue, because continuous piecemeal changes will only 
prolong the uncertainty and create doubts among our personnel about 
whether their benefits will be there in the future.
    We recognize that no one serving our Nation in uniform is overpaid 
for what they do for our country. But if we continue on the current 
course without making these modest adjustments now, the choices will 
only grow more difficult and painful down the road. We will inevitably 
have to either cut into compensation even more deeply and abruptly, or 
we will have to deprive our men and women of the training and equipment 
they need to succeed in battle. Either way, we would be breaking faith 
with our people. And the President and I will not allow that to happen.
    We're also recommending freezing generals' and admirals' pay for 1 
year. And as I've already announced, I'm cutting the budget of the 
Office of the Secretary of Defense by 20 percent. The Joint Staff, the 
Service Chiefs, and the Combatant Commanders are cutting their 
management headquarters operating budgets by 20 percent as well. We're 
also continuing to focus on acquisition reform and asking for another 
round of authority for Base Realignment and Closure.
    These are tough choices that are made with the full support of the 
Joint Chiefs of Staff. All the savings associated with these changes 
will go toward providing our people with the tools and training they 
need in order to fight and win on the battlefield and return home 
safely to their families. If Congress does not permit these changes to 
go into effect, but leaves in place the current budget caps, we run the 
risk of creating a military that is well-paid but not well trained and 
equipped.
                    risks in the president's budget
    I've outlined the funding levels the Chairman, the Chiefs, and I 
believe we need to protect this country, and the decisions we had to 
make to stay within the limits agreed to in the Bipartisan Budget Act. 
They add some risks to our defense strategy, but manageable ones.
    Over the near-term, because of budget limitations even under the 
Bipartisan Budget Act and after 13 years of war, the military will 
continue to experience gaps in training and maintenance--putting stress 
on the force and limiting our global readiness even as we sustain a 
heightened alert posture in regions like the Middle East and North 
Africa.
    We continue to face the constant risk of uncertainty in a dynamic 
and volatile security environment. Budget reductions inevitably reduce 
the military's margin of error in dealing with these risks, as other 
powers continue to modernize their weapons portfolios, to include anti-
air and anti-ship systems. And a smaller force strains our ability to 
simultaneously respond to more than one major contingency at a time. 
The President's budget allows our military to continue to have the 
capability to defeat any aggressor.
              sequestration's effect on programs and risk
    If sequestration-level cuts are re-imposed in fiscal year 2016 and 
beyond, if our reforms are not accepted, or if uncertainty on budget 
levels continues, our analysis has shown that we would have to make 
unavoidable decisions and choices that would significantly increase 
those risks. As I've made clear, the scale and timeline of continued 
sequestration-level cuts would require greater reductions in the 
military's size, reach, and margin of technological superiority. That 
means fewer planes, fewer ships, fewer troops, and a force that would 
be under-trained, poorly maintained, and reliant on older weapons and 
equipment:
  --The Army would have to draw down the active-duty force to 420,000 
        soldiers, the Army Guard to 315,000 soldiers, and the Army 
        Reserve to 185,000 soldiers. The Army Guard would have 50 fewer 
        Light Utility Helicopters.
  --The Navy would have to retire a 25-year-old aircraft carrier--the 
        USS George Washington--and her carrier air wing ahead of her 
        scheduled nuclear refueling and overhaul. It would also have to 
        immediately lay up six additional ships, defer procurement for 
        one submarine, and buy two fewer F-35Cs and three fewer DDG-51 
        guided missile destroyers between fiscal year 2015 and fiscal 
        year 2019. The Navy would ultimately have 10 fewer large 
        surface combatants than would be expected under the President's 
        funding levels.
  --The Marine Corps would have to draw down to 175,000 Marines. While 
        we would still devote about 900 Marines to increased Embassy 
        security around the world, this reduction would entail some 
        added risk for future contingencies as well as sustaining the 
        Marines' global presence.
  --The Air Force would have to retire 80 more aircraft, including the 
        entire KC-10 tanker fleet and the Global Hawk Block 40 fleet, 
        as well as slow down purchases of the Joint Strike Fighter--
        resulting in 15 fewer F-35As purchased through fiscal year 
        2019--and sustain 10 fewer Predator and Reaper 24-hour combat 
        air patrols. The Air Force would also have to take deep cuts to 
        flying hours, which would prevent a return to adequate 
        readiness levels.
  --Across DOD, operation and maintenance funding--an important element 
        of the budget that supports readiness--would grow at only about 
        2 percent a year under sequestration compared to about 3 
        percent a year under the President's budget. This will hamper 
        or even prevent a gradual recovery in readiness. Funding for 
        research, development, testing, and evaluation would decline by 
        1.3 percent a year under sequestration instead of increasing by 
        1.6 percent under the President's budget. And there would be no 
        recovery in funding for military facilities repairs and 
        construction.
    If we don't get some clarity in our future funding, we will have to 
start implementing those changes. Although future developments in the 
security environment might require us to modify some of these specific 
plans, the strategic impacts are clear. Under the funding levels that 
the President and I are asking for, we can manage the risks. Under a 
return to sequestration spending levels, risks would grow 
significantly, particularly if our military is required to respond to 
multiple major contingencies at the same time.
    Our recommendations beyond fiscal year 2015 provide a realistic 
alternative to sequestration-level cuts, sustaining adequate readiness 
and modernization most relevant to strategic priorities over the long 
term. But this can only be achieved by the strategic balance of reforms 
and reductions that we have presented in this budget. This will require 
the Congress to partner with the Department of Defense in making 
politically difficult choices.
                      our shared national interest
    Formulating this budget request required new ways of thinking about 
both short-term and long-term challenges facing our country.
    I look forward to working with the Congress in finding the 
responsible ground with the required resources to protect America's 
interests.
    I appreciate this opportunity to discuss the President's fiscal 
year 2015 budget request for the Department of Defense, and I look 
forward to your questions.
    Mr. Chairman, thank you.

    Senator Durbin. Thanks, Mr. Secretary.
    General Dempsey.
STATEMENT OF GENERAL MARTIN DEMPSEY, CHAIRMAN, JOINT 
            CHIEFS OF STAFF
    General Dempsey. Thank you, Chairman Durbin, members of the 
committee. I appreciate the opportunity to come before you 
today and speak about our defense budget for 2015.
    I want to add my appreciation to Under Secretary Hale for 
his many years of service to the Department and to the Nation.
    Let me begin by commenting on Iraq. The men and women who 
served in Iraq did exactly what we asked them to do. Al-Qaeda-
inspired extremists raising flags over Iraq's embattled cities 
triggers in me the same thing that runs through the minds of 
any veteran who served there, which is bitter disappointment 
that Iraq's leaders failed to unite for the good of their 
people. I share alarm about the future of Iraq, and we are 
developing a full range of options to help stabilize the 
region.
    Let me also speak to Afghanistan. Our men and women remain 
fully engaged on the mission at hand. They continue to build 
the institution of the Afghan National Security Forces, who 
secured the recent elections that will allow the first 
democratic transition of power in Afghanistan's history.
    The decision on troop numbers beyond 2014 positions us to 
support Afghanistan's transition. It aligns military objectives 
with resources and allows us and our allies to plan for 2015 
and 2016 while continuing to focus on the important work at 
hand this year.
    Three months ago, I met with my NATO (North Atlantic Treaty 
Organization) counterparts in Brussels. The threat of further 
Russian coercion to the East in a growing ARC of instability to 
NATO's southern flank weigh heavily on our allies. And last 
week, the Joint Chiefs and I met with the United Kingdom's 
combined chiefs in London for the first such meeting in London 
since 1948. We agree that now is not the time for business as 
usual. We can't think too narrowly about future security 
challenges, nor can we be too certain that we'll get it right.
    Each of my international engagements reaffirm that U.S. 
military primacy is still regarded as the world's best hope for 
stability and prosperity, but there is a real sense that our 
primacy may be at risk; in part because of the choices being 
made in this city on the defense budget.
    As I said last year, we need time, certainty, and 
flexibility to balance the institution and to allow us to meet 
the Nation's needs for the future. Without these things, our 
commitments to our allies and partners, to the defense 
industrial base, and to the men and women who serve in uniform 
and their families will be placed in jeopardy. It will undercut 
the reassurances that I just spent a good deal of my time 
delivering around the world.
    At the same time, this Congress has demanded, correctly, 
that we be more strategic, efficient, and innovative in the way 
we do business. This budget, in real terms, does all of these 
things. It's a pragmatic way forward that balances, as best as 
it can be balanced, our national security and our fiscal 
responsibilities. Yet, our efforts to reshape and reform the 
military continue to be rejected. We have infrastructure that 
we don't need and, with your support, we ought to be able to 
divest. We have legacy weapons systems that we can't afford to 
sustain and, with your support, we ought to be able to retire. 
We have personnel costs that have grown at a disproportionate 
rate, and we ought to be able to make modest adjustments that 
will make the All-Volunteer Force more affordable and 
sustainable over time.
    Failing to act on these issues is a choice, itself, one 
that will force us into an unbalanced level of cuts to our 
readiness and modernization. And when major portions of the 
budget are rendered untouchable, readiness pays the bill. This 
ultimately makes our force less effective than this Nation 
needs it to be.

                           PREPARED STATEMENT

    If sequestration-level cuts return in 2016, the options 
that we will be able to provide the Nation shrink, and the 
risks will become, in my judgment, unmanageable. This is a 
reckless and unnecessary path.
    I know these issues weigh heavily on the minds of our men 
and women in uniform and their families. I hear about it 
constantly. And I know they weigh heavily on you.
    Mr. Chairman, members of this committee, thank you for your 
support, and I stand ready to answer your questions.
    [The statement follows:]
            Prepared Statement of General Martin E. Dempsey
    Chairman Durbin, Vice Chairman Cochran, and distinguished members 
of this subcommittee, it is my privilege to report to you on the state 
of America's Armed Forces, our accomplishments over the last year, the 
opportunities and challenges ahead, and my vision for the future force.
    We are in our Nation's 13th year at war. I am extremely proud to 
represent the men and women of our Armed Forces. Volunteers all, they 
represent America at its very best.
    It is these Soldiers, Sailors, Airmen, Marines, and Coast 
Guardsmen--America's sons and daughters--who will face tomorrow's 
challenges with the strategy, structure, and resources we develop 
today. Our men and women are our decisive edge. Sustaining our military 
strength in the face of an historic shift to the future means making 
sure that the force is in the right balance.
    In the near term, our mission in Afghanistan will transition, while 
we reset a force coming out of more than a decade of continuous 
conflict. We will sustain--in some cases adjust--our commitments around 
the globe to keep our Nation immune from coercion. And, we must do all 
of this with decreasing defense budgets. As a result, we will have to 
assume risk in some areas to create opportunity in others. This will 
require carefully prioritizing investments in readiness, training, 
modernization, and leader development.
    Our men and women in uniform are the cornerstone of this Nation's 
security and our strongest bridge to the future. They are trusting us 
to make the right choices. So are the American people.
                         joint force operations
    America's military has been in continuous conflict for the longest 
period in our Nation's history. But the force remains strong. The Joint 
Force today is as diverse and rich in experience as it has ever been. 
Our men and women remain engaged around the globe supporting our 
Nation's interests. They are defeating adversaries, deterring 
aggression, strengthening partners, and delivering aid.
    Over the past year, our men and women have continued to fight, 
transition, and redeploy from Afghanistan. In June of last year, the 
Afghans reached a decisive milestone as they assumed lead 
responsibility for their own security. This signaled a shift in our 
primary mission from combat to training, advising, and assisting the 
Afghan forces, who recently supported the national elections that will 
allow the first democratic transition of power in Afghanistan's 
history.
    The President's recent decision on troop numbers beyond 2014 
positions us to support Afghanistan's transition. It aligns our 
objectives with resources, builds on 12 years of effort, and allows us 
to plan for 2015 and 2016, while continuing to focus on the work at 
hand this year. It also provides a blueprint for working regional 
issues with regional partners.
    The Joint Force continues to serve in and around an unpredictable 
Middle East through military-to-military exercises, exchanges, and 
security assistance. We are actively reinforcing our partners along 
Syria's borders to help contain violence, care for refugees, and 
counter the spread of violent extremism. We continue to pursue violent 
extremist organizations both directly and through our partners where 
U.S. and allied interests are threatened. This includes support to 
partners in Yemen, and to French and African partners in Mali. Our 
military is also working closely with the U.S. Department of State to 
help restore security and stability in the Central African Republic and 
South Sudan.
    We have deepened our traditional security ties in the Asia Pacific. 
In addition to our support for Typhoon Haiyan recovery efforts, we have 
strengthened cooperation with our allies and partners through military 
activities and force posture. We have maintained an active presence in 
the South and East China Seas, while also remaining prepared to respond 
to provocations on the Korean Peninsula.
    We also remain postured with our interagency partners to detect, 
deter, and defeat threats to the homeland--to include ballistic missile 
defense, countering terrorism, and safeguarding against cyber-attack on 
government and critical infrastructure targets. Our men and women work 
collaboratively with other U.S. agencies, with forward-stationed State 
Department professionals, and with regional allies and partners to keep 
the Nation safe. Across all of these security operations, the Joint 
Force remains ready with military options if called upon.
                    balancing global strategic risk
    The global security environment is as fluid and complex as we have 
ever seen. We are being challenged in pockets throughout the world by a 
diverse set of actors--resurgent and rising powers, failing states, and 
aggressive ideologies. Power in the international system is shifting 
below and beyond the nation-state. At the same time, the balance 
between our security demands and available resources has rarely been 
more delicate.
    The confluence of wide-ranging transitions, enduring and new 
friction points, and ``wild cards'' can seem unsolvable. Yet, 
understanding the interrelationships between trends reshaping the 
security environment offers opportunities to begin to solve some of the 
world's perplexing and prolonged challenges.
    In any effort, the military does not do it alone. We must bring to 
bear every tool of national power in American's arsenal. Our 
distributed networks of allies and partners are equally indispensable. 
Together, we can build shared understanding and develop focused, whole 
approaches that share the costs of global leadership. Deepening these 
hard-won relationships of trust and building the capacity of our 
partners will be more vital in the years ahead.
    In this context, the Joint Force of the future will require 
exceptional agility in how we shape, prepare, and posture. We will seek 
innovation not only in technology, but also in leader development, 
doctrine, organization, and partnerships. We must be able to rapidly 
aggregate and disaggregate our formations, throttle up force and just 
as quickly, throttle it back.
    We will have to be more regionally focused in our understanding and 
globally networked in our approaches. We will be adaptable to combatant 
commander priorities to prevent conflict, shape the strategic 
environment, and--when necessary--win decisively.
    And, importantly, we will have to balance these competing strategic 
objectives in the context of a resource-constrained environment. We 
must be frank about the limits of what the Joint Force can achieve, how 
quickly, for how long, and with what risk.
    Accordingly, we will need to challenge assumptions and align 
ambitions to match our combined abilities. Our force's greatest value 
to the Nation is as much unrealized as realized. We need to calibrate 
our use of military power to where it is most able and appropriate to 
advance our national interests. Our recent wars have reminded us that 
our military serves the Nation best when it is synchronized with other 
elements of national power and integrated with our partners.
                          balancing the force
    As part of an historic shift to the future, the institution is 
fundamentally re-examining itself to preserve military strength in the 
face of the changing security environment and declining resources. Here 
are five ways in which we are working to make sure the Joint Force 
remains properly balanced over time:
Resource Allocation
    We are resetting how we allocate our budget among manpower, 
operations, training, maintenance, and modernization. Disproportionate 
growth in the cost per servicemember is overburdening our manpower 
account and threatening to erode combat power. We have to bring those 
costs back into balance with our other sacred obligations to the 
Nation.
    The President's fiscal year 2015 budget request, importantly, 
reflects the needed personnel reductions, institutional streamlining, 
and administrative changes that better reflect our military's more 
limited resources. We will keep driving towards becoming more steel-
plated on all fronts--shedding waste, redundancy, and superfluity in 
our organizations and processes. We are rebalancing our tooth-to-tail 
ratio by shrinking the Department's headquarters, overhead, and 
overseas infrastructure costs. We are taking steps to improve our 
acquisitions enterprise. And, we will make the tough choices on force 
structure.
    We will never end our campaign to find every way to become more 
effective. Yet, we have already seen that not every effort generates 
the savings we need as fast as we need them. And some proposals to shed 
excess infrastructure have not gained the support of Congress, most 
notably our calls for a Base Realignment and Closure round and requests 
to retire legacy weapons systems we no longer need or can afford.
    Getting our personnel costs in balance is a strategic imperative. 
We can no longer put off rebalancing our military compensation systems. 
Otherwise we are forced into disproportionate cuts to readiness and 
modernization. We price ourselves out of the ability to defend the 
Nation.
    We must work together to modernize and optimize our compensation 
package to fairly compensate our men and women for their service. We 
should provide the options and flexibility that they prefer and shift 
funds from undervalued services to the more highly valued benefits, as 
we reduce our outlays.
    We need to slow the rate of growth in our three highest cost areas: 
basic pay, healthcare, and housing allowances. The Joint Chiefs, our 
senior enlisted leaders, and I also strongly recommend grandfathering 
any future proposed changes to military retirement, and we will 
continue to place a premium on efforts that support wounded warriors 
and mental health.
    To that end, I look forward to working in partnership with Congress 
and the American people on a sensible approach that addresses the 
growing imbalances in our accounts, enables us to recruit and retain 
America's best, and puts the all-volunteer force on a viable path for 
the future.
    We should tackle this in a comprehensive package of reforms. 
Piecemeal changes are a surefire way to fray the trust and confidence 
of our troops. They want--and they deserve--predictability.
Geographic Shift
    The United States remains a global power and our military is 
globally engaged. While we transition from the wars of the past decade, 
we are focusing on an evolving range of challenges and opportunities. 
Our military will continue to have deep security ties in the Middle 
East and globally. And, we are--of necessity--continuing the rebalance 
to the Asia Pacific as part of our Government's larger priority to 
strengthen the future stability and growth in that region.
    Broadly, this geographic rebalance reflects where the future 
demographic, economic, and security trends are moving. In a sense, it 
is ``skating to where the puck is going,'' as hockey great Wayne 
Gretzky used to say. As such, we are--over time--investing more 
bandwidth in our relationships in the Asia Pacific, engaging more at 
every level, and shifting assets to the region, to include our best 
human capital and equipment.
    Europe remains a central pillar to our national security and 
prosperity. Our NATO alliance has responded to security challenges in 
Afghanistan, Africa, and the Middle East. The most successful and 
durable alliance in history, NATO transcends partnership because common 
values underpin our 65-year-old alliance. The threat of further Russian 
coercion to the east, a growing arc of instability to the south, and 
preparations for a post-2014 mission in Afghanistan weigh heavily on 
the minds of my NATO counterparts. I remain confident that the alliance 
is strong, capable, and resolute as it faces and overcomes these 
challenges. Going forward, we will all benefit from the security NATO 
provides.
Preparing across the Spectrum
    Our force is coming out of more than a decade of focusing primarily 
on one particular kind of fight centered on the Middle East. As a 
result, we have become the finest counterinsurgency force in the world.
    Current and future security challenges mandate that we broaden our 
approach. Across the Services, we are resetting how we train units and 
develop leaders to account for conflict across the spectrum. This 
includes those critical conventional areas that--by necessity--were 
deemphasized over the past decade.
    We are also pluralizing our partnerships with other agencies and 
nations. With the global terrorism threat specifically, we are 
rebalancing our emphasis towards building or enabling our partners, 
while retaining the capability to take direct action ourselves.
    Remaining the security partner of choice increases our Nation's 
collective ability to safeguard common interests and support greater 
stability in weaker areas of the world. Improving partner capability 
and capacity in a targeted way is an important component of our 
military strategy, especially as our resources become more constrained.
Force Distribution
    In keeping with the evolving strategic landscape, our force posture 
must also evolve. As we emerge from the major campaigns of the last 
decade, we are developing new approaches across and within commands in 
the way we assign, allocate, and apportion forces inside a broader 
interagency construct.
    We are determining how much of the force should be forward-
stationed, how much should be rotational, and how much should be surge 
ready in the homeland. Baselining forces in each combatant command will 
allow us to predictably engage with and assure partners and deter 
adversaries. Baseline does not mean equal resources. We seek instead a 
force distribution appropriately weighted to our national interests and 
threats.
    Our military has become more integrated operationally and 
organizationally across the Active, Guard, and Reserve, especially over 
the past decade. We are working to determine the most effective mix of 
each of the components to preserve the strength we have gained as a 
more seamless force. This too will be different across the combatant 
commands. For example, many relationships in Europe--especially the 
newest NATO partner nations--benefit from the National Guard-led State 
Partnership Program, which is in its 20th year. Relationships such as 
these will help us to sustain the capabilities we will require in the 
years ahead.
    Also to strengthen the Joint Force, we are committed to offer 
everyone in uniform equal professional opportunities to contribute 
their talent. Rescinding the Direct Ground Combat Rule last January has 
enabled the elimination of gender-based restrictions for assignment. 
The Services are mid-way through reviewing and validating occupational 
standards with the aim of integrating women into occupational fields to 
the fullest extent over the next 2 years. We are proceeding in a 
deliberate, measured way that preserves unit readiness, cohesion, and 
the quality of the all-volunteer force.
    Additionally, as our force draws down, the remarkable generation 
that carried the best of our Nation into battle is transitioning home 
and reintegrating into civilian life. We will keep working with the 
Department of Veterans Affairs, other agencies, and communities across 
the country to make sure they have access to healthcare, quality 
education opportunities, and meaningful employment. This generation is 
not done serving and our efforts to enable them to contribute their 
strengths should be viewed as a direct investment in the future of 
America.
Competence and Character
    We are making sure that as the Nation's Profession of Arms, we 
remain equally committed to competence and character throughout our 
ranks. The pace of the last decade, frankly, may have resulted in an 
overemphasis on competence. Those we serve call for us to be good 
stewards of the special trust and confidence gifted to us by our fellow 
citizens--on and off the battlefield.
    Even as--especially as--we take this opportunity to remake our 
force and its capabilities, we owe it to the American people and to 
ourselves to also take an introspective look at whether we are holding 
true to the bedrock values and standards of our profession. 
Historically, the military has done precisely this after coming out of 
major periods of conflict.
    The vast majority serve honorably with moral courage and 
distinction every day. But sexual assault crimes, failures of 
leadership and ethics, and lapses of judgment by a portion of the force 
are evidence that we must do more--and we are. These issues have my 
ongoing and full attention.
    It has been and continues to be one of my foremost priorities as 
Chairman to rekindle within the force both its understanding and its 
resolve as a profession. We must strengthen the enduring norms and 
values that define us and continue to be a source of trust and pride 
for our Nation.
    We are looking at who we are promoting. More importantly, we are 
looking at what we are promoting--the standards, the ethos, the essence 
of professionalism. We know that we can never let our actions distance 
us from the American people, nor destroy the message that draws many 
into the ranks of the military in the first place.
    To that end, we are advancing a constellation of initiatives 
towards our continued development as professionals. These include 360 
degree reviews, staff assistance and training visits to senior 
leadership, and a deeper investment in character development and 
education through the span of service. We are detecting and rooting out 
flaws in our command culture and promoting an ethos of accountability 
across the ranks. We know we own this challenge and we are committed to 
meeting it.
                      balancing strategic choices
    Our military's ability to field a ready, capable force to meet 
global mission requirements has been placed at risk by layered effects 
of the operational pace and converging fiscal factors of recent years.
    The funds above sequester levels passed by this Congress in the 
Bipartisan Budget Agreement allow us to buy back some lost readiness 
and continue to make responsible investments in our Nation's defense. 
It doesn't solve every readiness problem and is no long-term solution 
to sequestration, but it does give us a measure of near-term relief and 
stability.
    The Joint Chiefs and I are grateful for Congress's support of the 
efforts to return units to the necessary levels of readiness. It helps 
us preserve options for the Nation and ensure that our troops can do 
what they joined the military to do. Likewise, we appreciate the 
dialogue engendered in these chambers to determine the kind of military 
the American people need and can afford--the right mix of capabilities 
and programs to protect our national interests.
    While we have achieved a degree of certainty in our budget for the 
next 2 years, we still don't have a steady, predictable funding stream, 
nor the flexibility and time we need to reset the force for the 
challenges we see ahead.
    This tension comes at a time when winning together through 
jointness has been at its peak. If we don't adapt from previous 
approaches toward a sounder way to steward our Nation's defense, we 
risk ending up with the wrong force at the wrong time.
    The President's fiscal year 2015 budget request represents a 
balanced, responsible, and realistic way forward. It leads to a Joint 
Force that is global, networked, and provides options for the Nation. 
It helps us rebuild readiness in areas that were deemphasized over the 
past decade, while retaining capacity and capability. It supports the 
reset and replacement of battle-damaged equipment and helps us meet 
future needs by balancing force structure, readiness, and modernization 
priorities. It invests in missile defense and in modernizing the 
nuclear enterprise. It allows us to advantage intelligence, 
surveillance, and reconnaissance (ISR), Special Operations Forces 
(SOF), and cyber, while making adjustments to the conventional force.
    To be clear, we do assume higher risks in some areas under the 
fiscal year 2015 proposal, but this budget helps us to remain the 
world's finest military--modern, capable, and ready, even while 
transitioning to a smaller force over time. If sequester-level cuts 
return in 2016, the risks will grow, and the options we can provide the 
Nation will shrink.
    The Joint Chiefs and I remain committed to making the tough 
choices--carefully informed--that preserve our ability to protect our 
Nation from coercion and defend the American people. Our sacred 
obligation is to make sure our men and women are never sent into a fair 
fight. That means we must make sure they are the best led, best 
trained, and best equipped in the world.
    But we need help from our elected leaders to rebalance the force in 
the ways I have described. This includes, importantly, making the 
financially prudent, strategically informed reductions we need.
    The opportunity is ours in the months ahead to carry the hard-
earned lessons learned of our Nation's wars into the context of today, 
to set the conditions to prepare the force to address the challenges of 
tomorrow, and to sustain and support our dedicated men and women in 
uniform and their families. I look forward to seizing these 
opportunities together.
    Thank you for your enduring support.

                                  IRAQ

    Senator Durbin. Thank you, General Dempsey.
    It is difficult, here, to separate out the lines of 
questioning. There is clearly an important line of questioning 
related to the budget, an important line of questioning related 
to today's threats. They do merge, at some point, and so we 
have to pick and choose.
    But let me start with Iraq. Secretary Hagel, 13 years ago, 
when we were both serving in the United States Senate, we faced 
a historic vote on whether the United States would go to war in 
Iraq. It was a long and involved and bitter debate. But the 
Senate finally decided to give authority to President Bush to 
go forward with that invasion of Iraq.
    And here we stand today, 13 years later, having lost 4,484 
brave Americans in Iraq, tens of thousands returning with the 
scars of war, applying for disabilities with our VA at a record 
level, pushing that agency to the brink, in terms of providing 
those services, having spent several trillion dollars added to 
our deficit, in a situation where we invested billions of 
dollars so that the Iraqis would be able to defend themselves. 
I will concede political ineptitude when it came to the 
leadership of Iraq. Some of the decisions made by Mr. Maliki 
were disastrous and divided his country instead of unifying it 
and building it for the future.
    But now we find ourselves in a curious position. One of the 
four hard targets of the United States is Iran, which has been 
a source of great concern for the United States and a threat to 
stability to the Middle East and the world. And now we find 
conjecture and speculation that we need to work with Iran to 
stabilize Iraq.
    Can you tell me first: How did we find ourselves in this 
position? Is this the right course to follow? What have we 
learned about the situation in Iraq that we can apply to 
Afghanistan, in terms of their ability to defend themselves 
once we're gone?
    Secretary Hagel. Well, Mr. Chairman, I wish I was wise 
enough to sort all of that out for you and give you a clear, 
concise answer, but let me respond this way.
    First, on the comparison with Afghanistan, it is my 
judgment that the two bear very little comparison, for many 
reasons. First, Afghanistan is not Iraq for--internally, 
historically, ethnically, religiously. Second, there's strong 
support in Afghanistan today for America's continued, as well 
as our NATO ISAF (International Security Assistance Force) 
partners, presence there, which--both presidential candidates 
have said they would sign a Bilateral Security Agreement. 
Election just took place a few days ago. They'll certify that 
election, here, in a couple of weeks. So, that aside, I think 
there are many, many differences between Iraq and Afghanistan.
    But back to your more fundamental question. Let's take one 
piece: Iran. Let's not forget that when we went in--the United 
States went into Afghanistan in late 2001, actually early on we 
had worked with the Iranians on that western border of 
Afghanistan. So, there is some history, here, of sharing common 
interests. We have significant differences, obviously. That's 
what Vienna is about, what's going on there now, as well as 
other interests. Iran is a state sponsor of terrorism. All the 
other issues.
    But when it comes to the common interests of a nation, 
whether it's the United States or any nation, that's what 
forges some kind of reality to what we're dealing with. 
Certainly, Iraq is a good example. All the neighbors in Iraq 
are being, will be, affected by what's going on there. These 
are regional issues. Syria is a regional issue. ISIL (Islamic 
State of Iraq and the Levant) and the other terrorist groups, 
those affiliated with al-Qaeda, all are a threat to all 
nations, all governments, certainly including us.
    So, I don't think these issues come neatly wrapped in 
geopolitical graduate-school papers. They are complicated. They 
are intertwined with history, with tribal differences, 
religious differences, ethnic differences. In Iraq, I think the 
opportunities that we presented after a rather significant and 
committed number of years there, where President Bush signed, 
with then-Prime Minister Maliki in 2008, a Strategic Framework 
Agreement, which laid out when America's troops would be out of 
Iraq. This was signed in December of 2008. We presented the 
Iraqis with tremendous opportunities to govern themselves, 
defend themselves. We continue to support Iraq. We've 
accelerated our FMF (Foreign Military Financing) program with 
Iraq. But we can't dictate outcomes. It's up to the Iraqi 
people.
    So, I know that's kind of a wave-top answer, but it's all 
those complications fit together, and we are faced with the 
reality of dealing with the reality we've got on the ground 
right now threatening our interests. All the nations of this 
area--GCC (Gulf Cooperation Council) nations--are threatened. 
And certainly Iran is threatened.

                             RUSSIAN TROOPS

    Senator Durbin. General Dempsey, I don't know that there's 
any end to the ambition of Vladimir Putin. I do believe that 
there is one tripwire. He has shown that he's willing to invade 
the Republic of Georgia and to take over territory, which I 
have seen, the barbed wire that separates what was once part of 
the Republic of Georgia now being controlled by Russian troops. 
He has shown that he's willing to invade with people wearing, I 
wouldn't call them ``uniforms,'' but parkas with no insignia on 
them to invade Crimea, Ukraine. It seems to me that the only 
tripwire to stop this man's naked ambition to restore the 
Russian empire is NATO. The obvious question for us in the West 
is: If and when the day comes when Putin decides to test us, 
will we be ready? Are our NATO allies ready to stand together 
to stop any aggression that he should exhibit toward members of 
our alliance?
    General Dempsey. Well, Chairman, briefly, the tactic that 
Russia is using is one I would describe as proximate coercion, 
subversion, and misinformation. So, I doubt that there'll 
actually be a full-blown invasion, but we've got to be alert to 
the other tools that he may use to actually undermine 
stability, and notably in the Baltics and in some of our 
eastern European allies. Proximate coercion, ally your--array 
your forces on a border, and threaten the use of force. 
Subversion, as you've noted, by the introduction of surrogates 
and proxies. And misinformation, to get ethnic populations 
stirred up.
    I think, actually, Russia lit a fire in Ukraine now that 
has somewhat burned out of their control. And I think Ukraine 
is in for a very difficult path as a result.
    Our NATO allies are awakening to the fact that, for 20 
years, they've taken European security for granted, and can no 
longer do so.
    Senator Durbin. Are they ready? Are we ready?
    General Dempsey. You know, the questions about readiness 
would probably be best answered in a classified setting. But 
we're not as ready as we need to be.
    Senator Durbin. Senator Leahy.
    Senator Leahy. Well, thank you.
    Secretary Hagel and General Dempsey, I want to thank you 
for taking the time to be here, especially with all that's 
going on in the world.
    I join with the others who said compliments of Secretary 
Hale. He's been a tremendous help to this committee and to all 
of us here in the Senate, in both parties.
    I also wanted to applaud our people in the Justice 
Department, the FBI (Federal Bureau of Investigation), the 
Department of Defense, Secretary Hagel, Attorney General 
Holder, and Director Comey for the capture of Ahmed Abu 
Khatallah. I'm also wearing my hat as Chairman of the Senate 
Judiciary Committee, I'm glad you're bringing him back here to 
be tried in our courts. We Americans have shown we are not 
afraid. We don't have to send these people off to Guantanamo. 
We can try them in our courts.
    A member of my family just spent 10 months at Guantanamo, 
working with the military. I look at a place like that, where 
we're spending millions of dollars a year to lock people up. We 
could put them in maximum security here in the U.S. and get 
convictions. We're not afraid, just as we weren't when the 
Oklahoma City bomber, a great terrorist attacked, we used our 
courts. I have great confidence in them.
    And I also look at the things that we have ahead of us. I 
was glad to see you reference, General Dempsey, our Guard and 
Reserves, as did Secretary Hagel. Senator Graham and I 
introduced a bill to establish a commission to provide advice 
to the Congress. We have 46 of our colleagues as cosponsors, 
including Senators Durbin and Cochran. The language has been 
incorporated in both the House-approved defense authorization 
and the version reported by the Senate Armed Services 
Committee, and I hope that when that becomes law, you will work 
very closely to make sure that it's followed.
    Secretary Hagel. We will follow the law, Senator.
    Senator Leahy. Yes, I know. It would have been news if you 
had said otherwise.

                           SEXUAL HARASSMENT

    General Dempsey, you observed, last year, that, with sexual 
harassment and assault in the military, everyone had taken 
their eye off the ball. We've passed some major reforms, but 
the Department has also instituted even more on their own. Have 
they been effective? Where are we today in this?
    General Dempsey. Our eyes are on the ball, and the 
initiatives that we've taken are beginning to positively affect 
the negative trend lines that I reported to you last year. 
We've got work to do, both at our own initiative and 
initiatives that the Secretary of Defense has directed us to 
undertake. And I think I would simply say to you that we're 
optimistic that we can turn--we have to turn this around. 
Forget about optimism. It does erode the foundation of trust on 
which our military relies. We will turn it around. And we've 
got our eye on the ball.
    Senator Leahy. Well, telling an old war stories, I 
remember, as a prosecutor, how difficult this could be in 
prosecuting these, depending upon how much the agencies 
involved with the various law--in that case, civilian law 
enforcement agencies were willing to actually look at these 
issues. As you know from your own long experience in the 
military, there's a wide variance among military commanders of 
how they look at this. I would urge you to keep pushing for 
some consistency throughout the military, just as we--we have 
to in our military academies. This is something, if we're going 
to encourage the best people to come in the military, we've got 
to show this is a zero-tolerance area.
    General Dempsey. If I could react, Senator. I assure you 
that it is a zero-tolerance area. Also, we've got a level of 
consistency now that, if you're not aware of it, we should 
certainly make you aware of it. We've raised the level at which 
a decision can be made to investigate or not investigate, and 
we've got nine different ways that a young man or woman can 
report incidents. We have a level of consistency that I think 
would satisfy your concerns.
    Senator Leahy. Thank you very much.
    And we've had these media accounts. Of course, as you 
know--and I'll direct this to both you and Secretary Hagel--
we've had years of training provided by U.S. forces in Iraq, 
and then we saw so many of the Iraqi military just throw down 
their arms when the militants advanced on them. I'm not trying 
to compare apples to oranges, but do we face a similar 
situation in Afghanistan?
    General Dempsey. Are you asking me, Senator?
    Senator Leahy. I ask you and then Secretary Hagel.
    General Dempsey. Sure. Two divisions and--part of two, and 
one national police organization, did, in fact, throw down 
their arms and, in some cases, collude with, in some cases 
simply desert, in northern Iraq. And they did that, and, in 
fact, at--you can look back at some of our intelligence 
reports--they did that because they had simply lost faith that 
the central government in Iraq was dealing with the entire 
population in a fair, equitable way that provided hope for all 
of them.

                              AFGHANISTAN

    You asked if that could happen in Afghanistan. The newly 
elected government will have a lot more to say about that than 
anyone here, although I will tell you that, of the two 
candidates, it is our assessment that there's a likelihood that 
they will be--try to form and maintain a unity government for 
Afghanistan. But I can't completely convince either myself or 
you that the risk is zero that that couldn't happen in 
Afghanistan.
    Senator Leahy. Secretary Hagel.
    Secretary Hagel. Senator, I would agree with what the 
Chairman said on his analysis.
    I would go back to, partly, the answer I gave to Chairman 
Durbin, when he asked his question about Iraq/Afghanistan. 
There's no guarantee, which we know. There's no guarantee in 
life. It is up to the people of Afghanistan to make these 
decisions--their military, their new leadership that will be 
coming in as a result of their new government. We have helped 
them build, as well as 49 of our ISAF NATO partners, very 
significant military institutions--training, responsible. With 
the announcement of the President's plan, where we will be 
there another 2 years as we phase our transition, our roles, I 
think that's significant.
    I think the progress made in Afghanistan has been very 
significant. Different dynamics, different ethnic/religious 
dynamics. Doesn't mean that they don't have differences in that 
country. That country has a very tortured history, as we all 
know. But I think we just stay steady, and we keep doing what 
we're doing. And I think the prospects of that turning out, 
where they, in fact, can defend themselves, they can govern 
themselves, and they can bring about an element of 
representative government and freedom and rights for all their 
people. I mean, that's as good as that--it can get. Beyond 
that, we can't dictate any more. We can only go so far in 
helping any country.
    Thank you.
    Senator Leahy. Thank you, Mr. Chairman.
    I will submit for the record a question on the Convention 
on Counselor Relations. I--we're trying to get that through. I 
think I know the Department of Defense's position, which I 
happen to agree with. And so, I will submit that for the 
record, and I would like a response on that.
    Senator Durbin. Thank you, Senator Leahy.
    Senator Coats.
    Senator Coats. Thank you, Mr. Chairman.
    You know, based on my--Secretary Hagel and General Dempsey, 
welcome. Thank--based on my previous service in the Senate and 
some service now, I'm fully aware that the Pentagon has a 
contingency plan on the shelf for just about every possible 
scenario, everything from nuclear war to an invasion by Canada, 
and everything in between. My question is: Given what we've 
seen here happen in Iraq--maybe we didn't anticipate how 
stunningly quick a territory could be yielded and major cities 
could be taken over without resistance, but, nevertheless, 
after we failed to negotiate a SOFA agreement--Status of Forces 
Agreement--with Iraq, there had to be some anticipation that 
some of this territory would be up for grabs, that there would 
be scenarios where lack of confidence in the leadership or 
capability of the Iraqi military on its own would lead to 
something like this. Was there a plan on the shelf? If so, what 
is it? And if there wasn't, why isn't it?
    And, General Dempsey, I noted, and I wrote down the quote, 
here--I think you said that we're in the process of developing 
options. That's different than having options already thought 
through and strategized.
    I wonder if each of you could respond to that.

                                  IRAQ

    General Dempsey. Sure, Senator. Let me, first, assure you, 
we do not have a plan on the shelf for the invasion of Canada. 
I want to make sure that our Canadian allies who may be 
watching----
    To your point about what options do we have, we generally--
for nations where we're not in an active conflict, we generally 
describe our options in terms of what resources we can put 
around the situation, and then develop options, present them to 
our elected leaders for decision. And so, right now we've got 
a--we have a great deal of ISR assets committed to Iraq, we 
have a great many maritime assets and aviation assets committed 
to Iraq. And we've placed a few contingency, mostly for force 
protection of the United States Embassy and facilities, forces 
in and around Baghdad.
    Now, that said, we have prepared options, we've been 
discussing them within the interagency. The President of the 
United States will meet today with Members of Congress in a 
classified session, and I certainly don't intend to foreshadow 
his conversation, but I would be happy, at some point, if you'd 
like, to provide a classified briefing on that subject.
    Senator Coats. But isn't it a little bit late? I mean, the 
territory has already been lost, the cities have already been 
taken, the weapons--U.S. weapons have already been seized, the 
banks have been robbed, oil may be, or may not be, in control 
of the extremist groups, which is a great source of monetary 
resource. Isn't it too late now----
    General Dempsey. Well----
    Senator Coats [continuing]. To be sitting down and talking 
to Members of Congress and basically saying, ``Let's look at 
the options''?
    General Dempsey. Well, Senator, it's only late if you 
suggest that we could have stopped it in some way. And I think 
it's worth remembering, the real threat in Iraq that is common 
to all of us is ISIL, this organization called ISIL, which, as 
you know, started off as al-Qaeda in Iraq, went to Syria, and 
is now back in Iraq. So, this all started and stops with Iraq. 
And there is very little that could have been done to overcome 
the degree to which the Government of Iraq had failed its 
people. That's what has caused this problem.
    Secretary Hagel. Senator, may I add to that? One piece of 
your question, I think, was about surprise. Did we not 
anticipate this? To your point about planning. Some of you--
Senator Graham, Senator Blunt, members of the--Senator Reed--
Armed Services Committee--may recall, the Director of our 
Defense Intelligence Agency, General Flynn's testimony before 
the Senate Armed Services Committee in February. And in that 
testimony, he said that it is likely that, specifically, ISIL 
may well take territory in Iraq, or attempt to take territory 
in Iraq. Now, that doesn't negate, ``Why weren't you prepared? 
Why didn't you know about it?''
    The other part of that is--and I think it goes back to what 
General Dempsey was talking about--I think we were surprised 
that the Iraqi divisions, the--specifically, the ones that 
General Dempsey talked about, just threw down their weapons. We 
had obviously--as General Dempsey said, are always working 
options and scenarios. We knew ISIL, for the reasons General 
Dempsey talked about, has been a threat in Syria and elsewhere.
    So, again, I go back to, we can only do so much. We didn't 
have a presence in Iraq, as you know, for the very reason you 
mentioned, because the Iraqis would not give us the immunity 
and what we needed to get a SOFA.
    So, I think all those are parts of the answer to your 
question, Senator.
    Senator Coats. Would you agree, Mr. Secretary, that the 
current situation in Iraq is on our national economic and 
security interest?
    Secretary Hagel. Oh, I do agree, if for no other reason 
than oil. I mean, you mentioned energy and oil, and--it's a 
regional issue. I believe that. So, the ripple effect of what's 
going on there everywhere----
    Senator Coats. Given that, do you think that we, therefore, 
should take--have some response, other than no response, at 
least to this point?
    Secretary Hagel. Well, I don't think it's a matter of no 
response. The----
    Senator Coats. No response that's making a difference.
    Secretary Hagel. Well, I'm not sure of that. But I would 
give you the same response that General Dempsey did. The 
President is meeting with congressional leadership this 
afternoon.
    Senator Coats. Do you think it's late?
    Secretary Hagel. I don't----
    Senator Coats. Do you think it's too late? I mean, we've 
already lost the territory. They've already gained the control 
of the second-largest city in Iraq plus other cities that we 
lost blood and treasure, and people lost limbs and died to 
save. We've already lost it. So, it's like Crimea. Do we just 
say, ``Oh, well, okay, fine, that's done let's just look 
forward''----
    Secretary Hagel. Senator, we didn't lose anything. The 
Iraqi government----
    Senator Coats. Well, if it's in our national interest, we 
lost something.
    Secretary Hagel. Well, you could say that about a lot of 
things, but I think we ought to be clear. It wasn't the United 
States that lost anything. We turned a pretty significant 
situation over, as you noted, for the very reasons you noted, 
to the Iraqi people when we phased out of our military 
involvement in Iraq. And so, we have done everything we could 
to help them. But it's up to the Iraqis. They wanted to manage 
and govern their own country. So, I don't think we should 
assign the blame to the United States for this. I think we go 
back to who is responsible for this: ISIL. They invaded. But 
also, this current government in Iraq has never fulfilled the 
commitments it made to bring a unity government together with 
the Sunnis, the Kurds, and the Shi'a. We have worked hard with 
them within the confines of our ability to help them do that, 
but we can't dictate to them.
    Senator Coats. Well, yes. My time is up, and I'll yield 
back. I'd simply want to say that there have been many 
situations in the history of this country that have been in our 
national interest, both economically and strategically, and we 
certainly haven't punted on some of those simply because the 
country that was--where it was taking place didn't step up. I 
think that a lot of countries look to American leadership. And 
I'm not advocating any specific military action, but they are 
looking to leadership, in terms--like to know somebody's got 
their back. I think it might have been easier for those 
soldiers to shed their uniforms and run because they didn't 
have anybody at their back. And I know the SOFA agreement, and 
so forth and so on, but--to basically state that, just because 
the country didn't deliver what we wanted them to deliver, 
it's--it's something that's in our national security interest 
that we take a pass or wait too long before it's--until it's 
too late, I don't think is the kind of answer we want to get.
    Mr. Chairman, I'm over my time.
    Thank you.
    Secretary Hagel. When we're not there, we're not there. 
And, you know, I don't know what you would have expected the 
United States to do.
    Senator Coats. Well, I would hope we could get somewhere.
    Secretary Hagel. Well, we are. That's what we've been doing 
the last week, and the President will talk to leaders of 
Congress. We've been briefing, by the way, in classified 
briefings the last few days, Members of Congress. So----
    Senator Coats. I think it would be good if the President 
could talk to the Congress and talk to the American people and 
let us know where we are.
    Secretary Hagel. Thank you.
    Senator Durbin. Senator Reed.

                                 SYRIA

    Senator Reed. Thank you, Mr. Chairman.
    With respect, briefly, to Iraq, it is a State Department 
operation, basically, because it's--they run the Embassy and--
but, in the context of CENTCOM (Central Command), particularly, 
have we been communicating, to Maliki and to his military, 
questions about their capacity and their willingness and their 
effective leadership? And have we made it clear, you know, in 
conjunction with General Flynn's testimony, that were real 
threats they faced, and they had to make adjustments? Is that 
something that was done?
    General Dempsey. Senator, absolutely. And I'll--let me just 
give you one personal vignette. When the Syria issue began to 
manifest itself, I actually stopped in Baghdad personally and 
met with the most senior leaders of their government and their 
military, and described what I thought was an--and they were 
all, of course, worried about Syria, ``What's going to come in 
from Syria to affect us?'' And I said, ``That's the wrong 
question. The question is: How will you take this opportunity--
that is to say, a perceived threat to your country from 
outside--and use it as an opportunity to actually bring your 
government, your people together on the basis of that common 
threat?'' That was a year ago. And in that year, the behavior 
was, for the most part, exactly counter to what you would 
probably try to do if you were trying to bring your people 
together--changing military leadership, cronyism, just all 
forms of sectarianism that have led us to where we are today.
    Senator Reed. But have you, through General Austin or 
others, communicated consistently the operational consequences 
of these political decisions, that they are in danger of 
their--they are endangering their own security?
    General Dempsey. Frequently.
    Senator Reed. Frequently. And the response by both the 
civilian and military authorities has been sort of 
indifference?
    General Dempsey. I would describe their response as a 
volume of conspiracy theories.
    Senator Reed. Turning to the present moment, Maliki have--
we've all had a--many of us, at least, have had the occasion to 
meet with him numerous times, and, at least at one moment in 
history, he surprised a lot of us by taking very aggressive 
action in Basrah in 2008, where he was able to go after 
elements that, you know, everyone thought were untouchable. In 
fact, he was ahead of our own commanders, in terms of taking 
the offensive. At this moment, is it your sort of impression 
that he understands that this is an existential moment for him 
and his country, and that he is willing, effectively, to start 
doing things that will at least stop the momentum and reverse 
the tide and----
    General Dempsey. Senator, I don't know. Our ambassador, 
Ambassador Beecroft, is in country, along with Brett McGurk, 
working diligently to try to understand exactly how Maliki is 
thinking about this situation. But that question would be 
better passed to the State Department.

                                  IRAQ

    Senator Reed. Final question. It's just the leverage that 
we had, given the fact that we were trying to communicate 
serious concerns about their military capabilities, not so much 
because of the training of individual soldiers or the equipment 
they had--that was--seemed to be quite adequate--it was just at 
the level of leadership and political direction of the military 
forces. Do we think we've done enough in that regard, or tried 
enough, or hit the right buttons?
    General Dempsey. Well, I mean, clearly, we will look back 
on this and do what we always do, be introspective and do an 
after-action review, and use that--the results to change the 
way we do--we build partners.
    I should mention, by the way, that, although the two 
divisions in the north collapsed, as well as the police unit, 
there are still multi-confessional units of the Iraqi armed 
forces standing and defending in and around Baghdad. Multi-
confessional. This has not broken down entirely on sectarian 
lines. But it could.
    Senator Reed. Just let me--quickly, because I have just a 
few minutes--change subjects, and that's to the persistent, 
ubiquitous, and emerging, if not already present, threat of 
cyber at the level of national, sort of, wargaming, for want of 
a better term. Are you comfortable, Mr. Secretary, that you are 
doing enough of the planning and gaming and assuming all of the 
new technology that's come online as--in response to a question 
about Crimea, one of the things that the Russians did was 
cleverly employ cyber operations as an adjunct to the battle 
plan. And I think we all understand that's going to be a--
probably the opening salvo in any engagement, going forward. 
And with respect to the--this issue of war planning, are you 
actively engaging the war colleges and senior military 
educational institutions in this sort of DOD-level, Sec-level--
Secretary of Defense level--sort of what's coming, what's the 
worst case? Are we ready or where are the gaps?
    Secretary Hagel. Senator, on your first question, it is one 
of the areas of our budget that we have requested an increase--
cyber--I think it's 5.1 billion--to get our capability up 
quickly, move it to, I think, around 6,000 employees. We have 
put a high, high priority on this, the last 2 days, for the--2 
years--for the obvious reasons.
    Am I confident we're doing enough? I am confident that 
we're doing everything we need to be doing, but we're 
constantly reassessing that, Senator. I don't think anyone can 
ever be too confident, because there are surprises all the 
time. But we recognize what's out there. We recognize the 
technology that is moving so rapidly, the threats that are 
clear to this country, to the world. We are working interagency 
with the--all the appropriate assets and tools we have to bring 
together the coordinated value-added, to your question about 
war college and other outside units, interests, enterprises, to 
get their best advice, absolutely. Because we don't think we 
are, alone, the repository for all of this. So, this is as a 
high a priority, overall, as we have.
    Senator Reed. Thank you.
    Just one comment. I want to thank Secretary Hale for his 
service. This is your last appearance. Secretary McCord has 
been confirmed. Thank you very much.
    And also, thinking of our initial discussion with respect 
to Iraq, we were, I think, in a curious situation as we were 
trying to warn them and they weren't listening. And I think the 
leverage--the only leverage we have would have been simply to 
sort of pull support back, which might have even made the 
situation worse. So, this is, again, I think, something that we 
realized some--many years ago. There is no good answer there. 
But it's a very--and I don't have to tell you gentlemen--it's a 
very disturbing situation at the moment.
    Thank you.
    Senator Durbin. Senator Graham.

                            PERSONNEL COSTS

    Senator Graham. Thank you.
    Mr. Hale, make sure, in your last appearance, you get to 
speak.
    Mr. Hale. I'm doing fine, sir.
    Senator Graham. As you depart, would you advise the 
Congress and the administration to deal with the growing 
personnel costs? Because, without some personnel reforms, it'll 
be hard to maintain the budget.
    Mr. Hale. I appreciate an easy question, Senator. And the 
answer is absolutely yes. As the Chairman and the Secretary 
have said, we need to deal with these issues appropriately.
    Senator Graham. Because it's about 50 percent of our cost.
    Mr. Hale. Right, for the military and civilian, that's 
correct.
    Senator Graham. And we're talking about in the future, 
retirement reforms, looking at TRICARE anew, trying to be 
rational, in terms of cost-sharing, correct?
    Mr. Hale. Yes. All of those are elements, as you know, on 
the retirement side. We are working with and waiting for the 
commission.
    Senator Graham. Right.
    Mr. Hale. But we think we have, especially in TRICARE area, 
a good proposal that will--most of the savings, frankly, don't 
come out of the pockets of the troops. So, I'd really urge that 
one.
    Senator Graham. And to my colleagues, I hope we will listen 
to what Mr. Hale says and try to stabilize the budget.
    Now, to Iraq. Is it possible, General Dempsey, to stop ISIS 
without U.S. airpower?
    General Dempsey. ISIL.
    Senator Graham. Yes.
    General Dempsey. ISIS, the OSH, whatever we call them, 
are----
    Senator Graham. The people that al-Qaeda kicked out.
    General Dempsey. Or who broke contact because they're more 
radical than al-Qaeda.
    Senator Graham. Yes. Yes. These people.
    General Dempsey. Right. The--I suspect--well, first of all, 
we have a request from the Iraqi government for airpower. And--
--
    Senator Graham. You do?
    General Dempsey. We do. And----
    Senator Graham. Do you think it's in our national security 
interest to honor that request?
    General Dempsey. It is in our national security interest to 
counter ISIL, wherever we find them.
    Senator Graham. Fair statement. Because--and I want the 
American people to understand--there's a lot at stake for us. 
Right, Secretary Hagel?
    Secretary Hagel. There is a lot at stake for us, the 
region----
    Senator Graham. And the world at large. If Iraq falls and 
Iran dominates the south, and this group, ISIS, owns the Sunni 
territory all the way from Aleppo to Baghdad, Kurdistan breaks 
away, that would create economic chaos in the region, which 
would affect us here at home. Is that a fair outcome?
    Secretary Hagel. Well, I don't know what an outcome would 
be if that occurred, Senator. All I can tell you is, what we 
are looking at providing to the President.
    Senator Graham. Well, the economy----
    Secretary Hagel. The different options to----

                                  IRAQ

    Senator Graham. The economy of Iraq would collapse.
    Secretary Hagel. Well, I think that's right. If they lose 
their oil.
    Senator Graham. Yes, that's right. And if ISIS has assets 
from Aleppo to Baghdad, they're enriched, the country we know 
as Iraq financially collapses. Don't you think that would 
affect the region and energy prices? From the average American 
point of view, Iraq matters.
    Secretary Hagel. Well, it does. And--but, also, as you 
know--you've been there many times, Senator--the southern part 
of Iraq possesses a tremendous amount of oil, so different 
scenarios that you're talking about.
    Senator Graham. So, if the Iranians dominate the southern 
part of Iraq because the central government collapses and there 
is no force in Baghdad, the Iranians are enriched, and I think 
the world as a whole suffers, particularly--we'll get hit in 
the wallet.
    But ISIS, General Dempsey, they have vowed to attack the 
United States. Is that fair to say?
    General Dempsey. There is open-source reporting that they--
although currently a regional threat, they do have aspirations 
to attack Western interests.
    Senator Graham. And if they have a safe haven in Syria and 
Iraq, can operate from Aleppo to Baghdad with impunity, that's 
a bad scenario for us. Is that true?
    General Dempsey. That is a high-risk scenario.
    Senator Graham. Yes, to our homeland being attacked by this 
group.
    General Dempsey. Over time. Not at this time, but over 
time.
    Senator Graham. Right.
    Well, I would say that the--Baghdadi, the director, the 
head of this group, was a former GTMO--excuse me--a Camp Bucca 
detainee. Is that correct?
    General Dempsey. Correct.
    Senator Graham. I know the colonel. I used to do my Reserve 
duty there. The people did a very good job on the ground, 
General Stone and others. But he's reported that when they 
turned Baghdadi back over, when they let him out of Camp Bucca, 
that he traveled to Baghdad with him, and he turned to Colonel 
Collins and these others and said, ``I'll see you in New 
York.'' Does that fit this character?
    General Dempsey. I haven't heard that, Senator.
    Senator Graham. Well, I'm just telling the American people, 
it is in our national security interest not to give these guys 
safe haven in Syria and Iraq, because the next 9/11 could very 
well come from that region.
    Is that an unrealistic--is that an overstatement or is that 
in the area of possibility?
    General Dempsey. As I've said in other settings, the--there 
are several groups--there's--the al-Qaeda ideology is--has 
spread, as we've seen. Several of the groups are more dangerous 
than others. And ISIS----
    Senator Graham. Would you put this at the top? Would you 
put this at the----
    General Dempsey. I think, at this point in time, I would 
probably keep al-Qaeda on the Arabian Peninsula in Yemen at the 
top.
    Senator Graham. Our Director of National Intelligence says 
he thinks that the deterioration in Syria and now Iraq is a 
direct threat to the homeland. Is he right?
    General Dempsey. If he said it, and if he is assessing that 
it's there now, then I would agree with him. I think----
    Senator Graham. Does that make sense to you?
    General Dempsey. It makes sense that they will be a threat 
to the homeland, in time.
    Senator Graham. All right, perfect.
    Iran is on the ground, Senator--Secretary Hagel, in Iraq?
    Secretary Hagel. Iran has been in Iraq for many years.
    Senator Graham. Right. So, the reality is that Iran is on 
their ground. Do they have influence over Shi'a militia? The 
Iranians?
    Secretary Hagel. I'm sure they do.
    General Dempsey. Yes.
    Senator Graham. Are you worried about force protection? We 
have thousands of Americans trapped inside of Iraq. Are you 
worried about that?
    Secretary Hagel. I am. And we're----
    Senator Graham. Are you worried about another ``Benghazi on 
steroids'' if we don't watch----
    Secretary Hagel. Well, it's a bigger force, bigger threat, 
bigger dynamics, yes. It's a huge threat.

                                  IRAN

    Senator Graham. So, when it comes to whether or not we 
communicate with Iran, I am not suggesting we do a deal with 
Iran to divide up Iraq and say, ``You get a nuclear weapon if 
you help me.'' I know the strategic differences. They want to 
own Iraq. We want a free Iraq. We're strategically misaligned. 
But is it fair to say that, the reality that exists today, 
talking to Iran about security issues on the ground probably 
makes some sense?
    Secretary Hagel. I agree. And you know there have been some 
sideline conversations----
    Senator Graham. Yes. And if we start flying airplanes, it 
makes some sense to talk to the Iranians about what we're doing 
so they don't shoot us down and we don't bomb them?
    Secretary Hagel. The Iranians are there. I mean, they're in 
the region, and----
    Senator Graham. Well, that's the reality, as I see it. And 
they're up to no good. But I don't want to cede Iraq to Iran, 
but, at the same time, I don't want to blunder into a situation 
without thinking this thing through. And, for God's sakes, I'll 
talk to anybody to help our people from being captured or 
killed, and this is a time where the Iranians, in a small way, 
might help, given their behavior. I know exactly who they are. 
They're not repentant people at all. They're thugs and killers. 
But we are where we are.
    Afghanistan. On a scale of 1 to 10, if we pull all of our 
troops out by the end of 2016, General Dempsey, what's the 
likelihood of what happened in Iraq visiting Afghanistan? One 
being let--very unlikely, 10 being highly likely.
    General Dempsey. I think, based on the reports that I 
received on the development of the INSF, and I'd have to make 
an assumption about this government, but I think it would be in 
the--I'll do it in thirds--lower third; low, unlikely.
    Senator Graham. What percentage of the Iraqi--and I'm going 
to take 2 minutes, everybody else has--what percentage of the 
Afghan security forces are made up of southern Pashtuns?
    General Dempsey. I don't have that committed to memory, 
but----
    Senator Graham. It's less than 6 or 7 percent. The Afghan 
army is seen as a occupying power in southern--in the Kandahar 
region. That's just a reality, just like the Iraqi army was 
seen by Sunnis as a Shi'a army. I think the likelihood of this 
happening Afghanistan is a 8-to-10.
    Would you recommend--if I'm wrong and you're right, would 
you think the most prudent discussion would be, ``Don't let it 
happen, even if it's 1 in 3''? Do you think we should revisit 
leaving a residual force behind? Because the Afghans will 
accept it, won't they?
    General Dempsey. Well, I think that there is already built 
in a residual force. The question is: At what size and with 
what tasks?
    Senator Graham. By 2016, we're down to an Embassy force. 
There is no residual force.
    General Dempsey. Well, with an Office of Security 
Cooperation.
    Senator Graham. Yes, a couple hundred people. Would you 
recommend the President reconsider his decision to go down to a 
couple hundred people by 2016 in Afghanistan, in light of Iraq? 
And wouldn't the prudent thing to do would be to say yes?
    General Dempsey. What I will commit to is assuring you 
that, as we watch this new government form and the situation 
evolve, I will make appropriate recommendations to the 
President.
    Senator Graham. Okay.
    Pakistan is a neighbor to Afghanistan, right?
    General Dempsey. Correct.
    Senator Graham. Do you worry about if--if Afghanistan falls 
apart like Iraq, that one of the collateral damages could be 
destabilizing even further a nuclear-armed Pakistan?
    General Dempsey. I do.
    Senator Graham. So, given that possibility, why in the 
world--we--they want us to stay, the Afghans. The two new 
candidates for President would sign a Bilateral Security 
Agreement, they would accept troops. Isn't that correct?
    General Dempsey. They have said they'd sign the Bilateral 
Security Agreement, made----
    Senator Graham. They have told me they would accept troops. 
You need to ask them, because they've told me they would accept 
troops. If you don't know that, that's very disheartening, 
because I've asked them both.

                               KHATALLAH

    Finally, this guy on the ship, Khatallah, is he being held 
under the Law of War? Are we doing lawful interrogation of this 
man?
    General Dempsey. Khatallah is under the control of the 
Department of Justice.
    Senator Graham. Okay. But is he being questioned for 
intelligence-gathering?
    General Dempsey. I'd prefer to answer that in a classified 
setting.
    Senator Graham. Thank you all for your service.
    Senator Durbin. Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    Good morning, Mr. Secretary, nice to see you again. And 
good morning, General Dempsey.
    I would like to just kind of have a little dialogue with 
you, informally. What is your assessment of ISIL? I spoke to 
the Iraqi Ambassador yesterday afternoon, and his estimate is 
about 20,000--10,000 being ISIL, the--10,000 being various 
Sunni extremists and tribal members, plus what he called 
``passport fighters'' coming into the area. What do you assess 
the size? And how far are they from Baghdad at this time?
    General Dempsey. Well, without getting into classified 
matters, I'll tell you that, if you think about ISIL, they are 
located in about three places--eastern Syria, they have a wing 
that is operating in the Fallujah/Ramadi area, and a wing 
that's operating in northern Iraq. And I think that the 
Ambassador's estimates are probably high. The actual number, 
the only place I've seen it is in classified information, so I 
wouldn't want to say it here.
    But here's what I will tell you, Senator. ISIL is almost 
undistinguishable right now from the other groups you 
mentioned. In other words, in this caldron of northern Iraq, 
you have former Ba'athists, JRTN, you have groups that have 
been disenfranchised and angry with the government in Baghdad 
for some time. And as ISIL has come, they've partnered--I 
suspect it's a partnership of convenience. And there's probably 
an opportunity to separate them. But that's why the number is a 
little hard to pin down.
    Senator Feinstein. Okay. And they're dispersed, and it's 
difficult to establish a target. I understand all of that. But 
it seems to me that you've got two things here. You've got the 
military strategy, which you just said that Iraq had asked for 
airpower. Do you--would you recommend that?
    General Dempsey. Well, what I would recommend is, anytime 
we use U.S. military force, we use it for those things that are 
in our national interests, and that--once I'm assured we can 
use it responsibly and effectively. And so, as we've been 
working to provide options to the President, that's the 
standard. And, as I mentioned, these forces are very much 
intermingled. It's not as easy as looking at an iPhone video of 
a convoy and then immediately striking it.
    I'll give you one vignette to demonstrate that. I had a 
conversation with a Kurdish colleague from years past who was 
explaining to me that they had--the Peshmerga had taken over an 
Iraqi army--I'm sorry--that ISIL had taken over an Iraqi army 
base near Mosul and that the Pesh had then driven them out and 
were now occupying it. So, in the course of about 36 hours, we 
had Iraqi army units, we had ISIL, and then we had the 
Peshmerga in that same facility.

                                 MALIKI

    And until we can actually clarify this intelligence 
picture, the options will continue to be built and developed 
and refined, and the intelligence picture made more accurate, 
and then the President can make a decision.
    Senator Feinstein. Well, you're known as a very thoughtful 
person, and I appreciate that. It seems to me you've got to 
have the military response and you have to have the political 
response. And I think that most of us that have followed this 
are really convinced that the Maliki government, candidly, has 
got to go, if you want any reconciliation. If you want a Shi'a/
Sunni war, that's where we're going, in my view, right now. If 
you want partition, that's where we're going right now.
    So, the question comes, If you want reconciliation, what to 
do you do? And it seems to me that Maliki has to be convinced 
that it is in the greater interests of his country to retire 
and to--for this newly elected government to put together a new 
government.
    What is the administration thinking, or your thinking, on 
that subject? As much as you can discuss. Because that's the 
one place where Iran can be of help, if they want to.
    General Dempsey. I'm afraid, Senator, that's not a military 
question, and I would--and I'm not trying to toss it to my 
wingman here, but I'm not sure--but, I can't answer it.
    Senator Feinstein. Wingman, you're up.
    Secretary Hagel. It is a high honor, indeed, to be General 
Dempsey's wingman.
    A couple of things. First, let's start with formation of a 
new government, as you have noted. The courts in Iraq this week 
certified the election in late April. So, that is now put in--
on the path to formation. New government.
    I happen to believe, and I think the President has said it, 
that a political solution is the only viable solution. I said, 
before you came in, Senator, in response to one of the 
questions, that one of the reasons I believe that Iraq is in 
this situation is that the current government never fulfilled 
the commitments it made to bring together a unity, power-
sharing government with the Sunnis, the Shi'a, and the Kurds. 
And I think that's probably generally accepted.
    So, what do we do about it now? The State Department has 
the lead on all of this, as you know. And, as General Dempsey 
said, our Ambassador there in Iraq has been in daily touch with 
the Prime Minister and the leaders, the political leaders, as 
well as--Secretary Kerry's been personally involved in this. I 
know the Vice President has. And they are pursuing that 
political process. At the same time, we are providing, have 
been providing, the President with different options from our 
perspective. The intelligence community is trying to inform all 
of this for the President to assess what we've got and where 
this may be going.
    I think General Dempsey's point about--we're still 
clarifying what we have and what the situation is. Options like 
airstrikes--as the President said, he's not ruled in or out, 
but there has to be a reason for those, there has to be an 
objective. Where do you go with those? What does it do to move 
the effort down the road for a political solution?
    The issue of whether Maliki should step aside or not, 
that's an Iraqi political decisions, and that's something that 
we don't get into.
    But all these channels are being worked right now, and have 
been, in the last week.
    Senator Feinstein. Good.
    Well, let me ask a military question, then. According to 
the Special IG on Iraq, we have spent 25 billion to train and 
equip Iraqi security forces from the start of the war in 2003 
until September 2012. In your estimation, General, why did the 
Iraqi security forces perform so badly? And what does this 
portend for Afghanistan?

                                  ISIL

    General Dempsey. Well, they didn't universally perform 
badly. They performed badly in the north, in and around Mosul, 
where ISIL had gained a foothold and had convinced some of the 
Sunni elements that they----
    Senator Feinstein. But that wasn't just a few of them, it 
was tens of thousands.
    General Dempsey. No, I understand that, but if the--ISIL 
turned their leaders. And in the absence of leaders of a 
military formation, the soldiers are not going to stick around 
and wait to see what happens. So, ISIL was able to coopt some 
of the leaders of those two divisions.
    Now, I will tell you, when I was building the Iraqi 
security forces from 2005-2007, it was clear to--several things 
were clear to me. We could train them to fight, we could equip 
them to fight. It would be harder to give them the logistics 
architectures and signal architectures, but we did. But the 
hardest thing of all, as I said then and as I say now, is to 
build leaders and then to have those leaders supported by a 
central government that is working on behalf of all the people. 
And that's why those units in the north collapsed.
    To your question about--and, by the way, there are still 
many of the Iraqi security forces--multi-confessional, not just 
one sect or another--who are standing and fighting. But the 
entire enterprise is at risk as long as this political 
situation is in such flux.
    Let me go--let me answer your question about Afghanistan. 
Much different place. I think, a much better prospect for a 
unity government, based on this recent election. There are, of 
course--I do have concerns about the future of Afghanistan. And 
we will continue to do what we can to build into them the kind 
of resilience that we can build into a security force. But at 
the end of the day, a security force is only as good as the 
instrument that wields it. And that's the central government.
    Senator Feinstein. I really appreciate that. I mean, one of 
the things that I have looked at on intelligence is the Taliban 
there, and the shadow government there, and the amount of land 
controlled by the Taliban where people live. And I think it 
sets up a very serious situation for the future. I'm 
particularly worried about them coming back and what this does 
for women and the Shari'ah law. I watch the women huddled in a 
corner, in the newspaper, standing in line or sitting in line 
to vote. And I thought, if the Taliban comes back, it's just 
terrible. Eleven years, and we're right where we started in the 
very beginning.
    Could you comment on--you know, I went to South Korea, and 
you see our troops still there, decades later. You begin to 
understand--now, that's a different situation--you begin to 
understand what it takes. And I don't know--Senator Graham 
mentioned, ``Well, would you be for another secure agreement, 
where you could send in troops?'' But I really worry about the 
sophistication of the Afghani army. Could you comment on that? 
Will they stand? Do they have the leadership? Do they have the 
will?
    General Dempsey. I will tell you this, the Afghans are 
better fighters, more--far more tenacious fighters than their 
Iraqi counterparts. That's--that is both reason for optimism 
and reason for concern, because there is a history of them 
fighting each other, as well as external threats.
    The--to your question of will, they do have will while they 
remain optimistic for their future. And, as you know, 
Afghanistan today, the country, is a far different country than 
it was in 2002, in terms of women's rights, connectivity, 
education, access to healthcare. If those continue to progress, 
then I would suggest to you that Afghanistan will stay on a 
path.
    I have no doubt that there will be parts of Afghanistan 
that from time to time, because of their history, do separate 
themselves from the central government. And the question then 
becomes, What will the central government do to address it?
    They're far different countries, and I would caution us to 
compare one to the other and assume that Afghanistan will 
follow the path of Iraq. Far different.
    Senator Feinstein. Thank you, that's helpful.
    Thank you.
    Senator Durbin. Thank you, Senator Feinstein.
    Senator Feinstein. Thank you.
    Senator Durbin. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Secretary, welcome.
    Secretary Hagel. Thank you.

                               BOKO HARAM

    Senator Collins. It has been 9 weeks since nearly 300 girls 
were kidnapped from their school by the terrorist group Boko 
Haram in Nigeria. I believe that the United States should have 
provided immediate surveillance, reconnaissance, and 
intelligence assets to locate these girls before they were 
split up into more difficult-to-find smaller groups. I further 
believe that contingency plans should have been made so that 
our Special Forces, who performed so extraordinarily well as we 
saw during this past weekend with their capture of the 
terrorist who led the Benghazi attack, should have been on the 
ground, working with Nigerian forces to plan a rescue of these 
girls.
    Mr. Secretary, with each passing day, the future of these 
girls grows more and more precarious. There's no doubt that 
some of them have already been forced into early marriages, 
others have been taken across the border and sold into slavery, 
all have been required to convert to Islam, according to the 
video that we've all seen. Yet, it feels like these girls have 
been forgotten, pushed off the front pages by a string of 
endless crises.
    I've made my concerns known to the administration in 
several venues, about my disappointment that we did not act 
sooner and more aggressively to help rescue these girls, 
working with the Nigerians. Could you tell me--my question for 
you is: Is this an urgent priority? What is going on now?
    Secretary Hagel. Senator, I can assure you, this President 
feels exactly the same as you do, as we all do, as you have 
framed it up and laid out the tragedy of this, the urgency of 
this. But let me also address your questions about why wasn't 
there more action, quicker, so on.
    First, as you know, we cannot just drop into a sovereign 
country without that country's government asking us for 
assistant. That country, Nigeria, has an elected government, 
elected President. So, we were preparing, once we heard and 
knew what was going on, also working with them diplomatically, 
to get a request from them for each of the resources that we 
were able to provide, and still are providing. That's one.
    Second, the capability of the Nigerian forces to be able to 
carry out what we can give them in the way of intelligence or 
assistance--it's still their responsibility--they have limited 
capabilities.
    Now, I know that's not a good answer, but that's the 
reality. We are as focused today on helping locate these girls, 
doing everything we can to get them out of there. But this is a 
sovereign nation, and we require, obviously, like any other 
situation, the government to ask us to come in. They give us 
the limits and the parameters on where we can operate, how we 
can operate.
    The other part of this, too, as you know, is, this is 
about, terrain-wise, as complicated a part of the world as 
there is. They have triple, quadruple canopy jungles, they move 
them around, your deadly smart guys, Boko Haram. So, we're up 
against that, as well.
    So, unless the Chairman would like to add anything to this, 
that would be my general assessment. But make no mistake, 
Senator, this President, all of us, are as committed to this, 
even though you don't read it in the front pages because of the 
reasons you've mentioned. We're still involved, and we're still 
assisting.
    Senator Collins. Well, time is ticking away. And with each 
passing day, the chances of these girls being reunited with 
their families grows ever dimmer. And the fact is, the 
Nigerians did say yes. I realize they didn't say yes 
immediately. And it seems to me, we should have had a plan so 
that, when they said yes, we could swoop right in.
    Secretary Hagel. Well, we did, as much as they would let us 
do. And I--if you want to get down into the details of the 
operation, I'll let General Dempsey----
    General Dempsey. Well, I just want to assure you, Senator, 
we didn't wait for the Nigerians to ask or respond to our 
question. The military, under the Secretary's leadership, began 
repositioning resources when we saw this occurring.
    But I do--so, two things--I do want to bring us back to 
this budget hearing. We are where we are around the world today 
because we can be, and we can respond. It may not have been 
adequate to this task, but we are certainly adequate to a lot 
of tasks. And that capability is eroding while we sit here.
    Senator Collins. Well, let me switch to another issue, but 
let me, first, just say that I specifically asked whether there 
was contingency planning for Special Forces to go in, and was 
told that there was not. So, I'm glad to hear you contradict 
that. But that is not the answer that I was given.

                             ABU KHATALLAH

    General Dempsey. Well, let me distinguish between moving 
assets, in the event that we are given permission to use them, 
and contingency planning. And also, Senator, the Abu Khatallah 
operation, though it may have looked, you know, rather routine, 
it took us months of preparation and intelligence soak----
    Senator Collins. That's exactly my point. I mean, from day 
one, I think we should have been working on this. And I know 
how meticulous and difficult an operation that our Special 
Forces is involved in is. But that's sort of part of my 
frustration.
    Let me, because time is slipping away, turn to the issue, 
General, that you mentioned, and that is the budget constraints 
and the impact of sequestration. It is surely significant that 
one of the first actions that the President took in response to 
the crisis in Iraq was to send an aircraft carrier to the 
Persian Gulf. It is our Navy that allows us to project power. 
And I am very concerned by Secretary Hagel's written testimony 
in which he notes that the indiscriminate budget cuts of 
sequestration would result in the loss of a deployable aircraft 
carrier, delay the procurement of a submarine, and slash the 
surface fleet by 10 ships. Secretary--and I would note that our 
goal of, now, a 303-ship Navy is not near what the combatant 
commanders say that we need. And I see you're nodding in 
agreement.
    Secretary of the Navy Ray Mabus testified before us earlier 
this year that sequestration may also result in breaking the 
multiyear contracts for ships, which has the effect of raising 
the cost of the ships and giving us fewer ships. It's 
particularly troubling for our national security strategy, 
because all 10 ships in the DDG-51 multiyear procurement 
contract through 2017 and the 10 ships of the Virginia-class 
submarine program are clearly essential.
    General, do you agree with Secretary Mabus's assessment 
that we will not be able to meet our national security 
requirements and that we will end up paying more per ship, and 
thus getting fewer ships, if we do not deal with sequestration?
    General Dempsey. I do. And the same problem exists in the 
other services, as well.
    Senator Collins. Thank you, Mr. Chairman.
    Senator Durbin. Thanks, Senator Collins.
    Senator Murray.

                                  IRAQ

    Senator Murray. Thank you, Mr. Chairman.
    Mr. Secretary, General Dempsey, thank you all for being 
here.
    I'm extremely concerned by the recent developments in Iraq. 
The Islamic State in Iraq and Syria have reportedly captured 
large amounts of money and weapons from the large territory in 
Iraq and Syria. They are active, and they're reportedly 
committing human rights violations. And, as we know, their 
presence is potentially destabilizing to our partners in the 
Middle East. And, importantly, they threaten the United States 
and our interests. I know that the President has said he's 
considering a wide range of options in response. I'm glad he's 
not talking about putting direct combat troops on the ground. 
But what I wanted to ask you today is, Are Iraqi security 
forces capable of pushing the insurgents back?
    Secretary Hagel. Do you want to start?
    General Dempsey. Well, I've got a little time under my belt 
with the Iraqi security forces. One of the things we've got to 
learn and are--we're working to learn it, but we don't know 
yet--is what's left? What is left of the Iraqi security forces? 
They seem to be holding a line that roughly runs from Baquba, 
north of Baghdad, over to Fallujah. We also know that there's 
been some augmentation of the Iraqi security forces by militia. 
And so, you know, among the options we're considering is 
whether we would, in fact, try to do an assessment of what's 
actually defending Baghdad at this point. That's an important 
question.
    Senator Murray. So, it's impossible to ask what assistance 
they would need until you do that assessment?
    General Dempsey. You know--I mean, there are some things we 
know for a fact, where they will require assistance--ISR. I 
mean, that--you know, we've maneuvered a great deal of both 
manned and unmanned ISR to try to gain clarity on what exactly 
is occurring. But there are some things that we need to know 
about actually the fabric of what's left of the Iraqi security 
forces.
    Senator Murray. Okay.
    Secretary Hagel, I wanted to ask you--you've talked at 
length about--the services are going to have to make 
significant cuts in personnel. And I am very concerned about 
transition and employment for those who are leaving the 
military. It's why we made the Transition Assistance Program 
mandatory under the VOW (Veterans Opportunity to Work) Act, and 
have made some reforms to help servicemembers transition and 
find employment. I wanted to ask you how you have worked with 
your counterparts at other agencies to prepare, now, for the 
increasing numbers of servicemembers who are going to be 
separating and needing that transition assistance.
    Secretary Hagel. Senator, it's a very, very high priority, 
for obvious reasons. As I said before, we create the veteran, 
and then we hand the veteran off. And you--the programs that 
you mentioned, that the Congress initiated and funded, and 
continue to fund, are critically important for us as we help 
shape and prepare these men and women who will leave the 
services. And this goes into every dimension of their future, 
whether it's healthcare, retirement, job preparation, job 
opportunities. So, it becomes, has become, will continue to be, 
as important a part of our responsibilities as there is, from--
from the time they enter service, the commitment we make to 
them, all the way through. So, I'm committed, personally--the 
General is, all our chiefs are, the entire establishment of 
DOD--to do that.
    Senator Murray. Okay. It's absolutely important that we 
stay focused on that.
    Secretary Hagel. We will.
    And second, to your question about, Are we working closely 
with the interagencies? Absolutely. In fact, I just, on Monday, 
had another conversation with the new--with the Acting 
Secretary of Veterans Affairs, Sloan Gibson, who I just, 
incidentally, have known a long time, and we have a very good 
relationship. And we're meeting again next week. And that's 
just but one example.
    But all the agencies--because we've got to bring value-
added to all the resources in how we're doing this and----
    Senator Murray. We spent an--a considerable amount of money 
training these people, and we need to make sure that we use 
their skills when they leave.

                        SPECIAL VICTIMS' COUNSEL

    Secretary Hagel, I also wanted to ask you about the Special 
Victims' Counsel (SVC). I'm really pleased that the Department 
worked quickly to implement a provision that I authored that 
requires Special Victims' Counsels in all of our military 
services. The number of cases that they are getting shows how 
important that service really is. But I am concerned that we 
may need more attorneys to meet the need. I wanted to ask you 
how many additional SVCs and how much funding do the services 
need to keep up with the needs of victims of military sexual 
assaults?
    Secretary Hagel. Let me ask our Comptroller if he's got any 
specific numbers. I don't know. I'll take it for the record on 
the specific numbers and money and----
    Senator Murray. If you could get that information back to 
me, and also a breakdown of spending on the Special Victims' 
Counsels programs, including the $25 million I requested in 
last year's defense appropriations--if you could respond back 
to me on that, I'd appreciate it.
    Secretary Hagel. We will, and we'll get it back to you very 
quickly.
    [The information follows:]

    Following a successful Special Victims' Counsel (SVC) pilot program 
launched by the Air Force in 2013, all of the Services established 
programs to provide legal representation to sexual assault victims who 
are authorized to receive legal assistance. These programs achieved 
initial operating capability by November 1, 2013, and full operating 
capability by January 1, 2014. A study conducted by the Joint Service 
Committee on Military Justice suggests that the Services' SVC 
organizations collectively form the most extensive victim 
representation program in the country. While the programs are still 
fairly new, analyses so far reveal tremendously high victim 
satisfaction. The programs have been instrumental in protecting 
victims' rights throughout the case investigation and court-martial 
processes. The Department of Defense is committed to continuing to 
provide sexual assault victims with expert legal representation.
    A breakdown of personnel and financial requirements for the SVC 
programs by Service follows:
    A. Army.--The Army currently has 65 judge advocates serving as SVCs 
in the Active Component, 70 in the Army Reserve, and 14 in the National 
Guard. Some of these judge advocates, all of whom are in legal 
assistance offices, provide SVC services full time, while others do so 
part time.
    During fiscal year 2014, the Army mobilized 20 Reserve Component 
judge advocates to augment legal assistance offices to accommodate the 
increased workload and diversion of previous legal assistance resources 
arising from the SVC program. Based on additional needs, including 
representation of victims of offenses designated by section 1716 of the 
National Defense Authorization Act for fiscal year 2014, Public Law No. 
113-66, 127 Stat. 672 (2013), that were not previously covered by the 
Army SVC program, this number will increase to 26 mobilized judge 
advocates in fiscal year 2015.
    The Army's fiscal year 2014 SVC funding was $2,597,000 for the 
Active Component, $1,367,000 for Army Reserve, and $939,686.31 for the 
National Guard. The Army anticipates comparable funding needs, adjusted 
for inflation, for fiscal year 2015.
    B. Navy.--The Navy's Victims' Legal Counsel (VLC) Program currently 
has 31 assigned full-time counsel, including a captain (0-6) Chief of 
Staff, a commander (0-5) Deputy Chief of Staff, and 29 full-time VLC. 
The VLC Program is sufficiently staffed to accomplish its assigned 
mission; no additional staffing is required in fiscal year 2015.
    The estimated cost of the Navy VLC Program for fiscal year 2014 is 
$672,751. The Navy JAG Corps recently received $673,000 in fiscal year 
2014 funding to execute the VLC Program. Comparable funding, adjusted 
for inflation, will be necessary for the VLC Program in fiscal year 
2015.
    C. Marine Corps.--The Marine Corps' Victims' Legal Counsel 
Organization (VLCO), which provides legal representation to individuals 
authorized to receive legal assistance who are the victims of any 
offense under the Uniform Code of Military Justice, is comprised of 15 
active duty judge advocates (including a colonel (0-6) Officer in 
Charge and major (0-4) Deputy Officer in Charge) and eight enlisted 
legal services specialists. Beginning July 28, 2014, one GS-11 civilian 
paralegal specialist will be assigned to the VLCO headquarters. The 
VLCO is augmented by a Reserve judge advocate captain (0-3) currently 
on Active Duty for Operational Support orders. An additional four 
active duty judge advocates serving in other primary billets have been 
trained as VLCs and are authorized to serve as Auxiliary VLCs when 
needed and if available. The VLCO is also supported by a Marine Corps 
Reservist from the Individual Mobilization Augmentee Detachment (IMA 
Det). The VLCO IMA Det is currently comprised of one drilling Reserve 
lieutenant colonel (0-5) judge advocate serving as VLCO Reserve Support 
Branch Head. An announcement seeking applicants for four Reserve major 
(0-4) judge advocates billets for the VLCO IMA Det was issued in June 
2014.
    On March 5, 2014, the Commandant of the Marine Corps directed a 
review of the entire Marine Corps legal community to determine the 
short- and long-term manpower challenges facing the Marine legal 
community, including the VLCO. The current demand for VLC services is 
being met with the present staffing level. However, based on geographic 
dispersion, the Marine Corps may require additional VLC billets to 
cover some of the outlying installations that currently have no VLC 
presence. The Staff Judge Advocate to the Commandant of the Marine 
Corps is reviewing these staffing issues within the Marine Corps.
    The VLCO began with an operating budget of $150,000 in fiscal year 
2014 to cover training, site visits, and administrative costs. On 
November 15, 2013, the VLCO was authorized an additional $14,000 for 
VLC travel not otherwise covered. Additionally, the VLCO received 
$225,978 from DOD Sexual Assault Prevention and Response Office (SAPRO) 
funds during fiscal year 2014 to train VLCs and equip VLCO offices. 
This approximately $390,000, however, is not the VLCO's only source of 
funding. The costs for the Marine Corps VLC program are partially 
covered by Marine Corps convening authorities, who are required to fund 
costs incurred in support of courts-martial, including victim and 
witness travel and resulting travel by VLCs to accompany their clients 
for military justice purposes. These costs, which come from various 
commands' operation and maintenance funds, are not centrally budgeted 
or calculated. For fiscal year 2015, the VLCO is expected to receive 
the same initial operating budget as fiscal year 2014 of $150,000, 
which will be sufficient to support the current personnel structure. 
However, if additional VLC billets are approved, additional funds may 
be necessary to train personnel and establish new office locations.
    D. Air Force.--The Air Force's SVC program is currently staffed by 
28 full-time SVCs plus a colonel (0-6) Chief, a GS-14 civilian 
Associate Chief, and a major (0-4) Deputy Chief. The program will 
require an additional 10 billets in fiscal year 2015 to meet 
anticipated victim requests for assistance. This increase is required 
in part to provide representation for victims of offenses designated by 
section 1716 of the National Defense Authorization Act for fiscal year 
2014, Pub. L. No. 113-66, 127 Stat. 672 (2013), that were not 
previously covered by the Air Force SVC program (i.e., child sexual 
assault offenses, stalking, voyeurism, forcible pandering, and indecent 
exposure). Five of these requested 10 billets are for field grade 
officers to provide mid-level management and supervision of SVCs and to 
handle more complicated cases. The other five billets would augment the 
28 existing SVCs and provide an appellate litigation specialist.
    In fiscal year 2014, the Air Force SVC program received 
approximately $2,158,000 in operating funds. The SVC program received 
another approximately $4,245,000 for training (which provided training 
for not only Air Force and Air National Guard SVCs, but also for some 
Army, Army National Guard, Navy, Marine Corps, and Coast Guard SVCs and 
VLCs) and $1,300,000 for development of a case management system. 
During fiscal year 2015, the Air Force anticipates expending a 
comparable amount, adjusted for inflation, in operating funds for the 
SVC program. The Air Force will require an additional $411,000 during 
fiscal year 2015 for additional development of a case management 
system.

                INTEGRATED DISABILITY EVALUATION SYSTEM

    Senator Murray. Okay. And finally, Secretary Hagel, as you 
know, the Integrated Disability Evaluation System (IDES) has 
been a concern of mine for a very long time. We saw a major 
problem in my home State with servicemembers' mental health 
diagnosis being inappropriately changed, and there have been 
many, many more problems. I am continuing to hear from 
servicemembers who are stuck in the system for a very long 
time. They're not getting support from the Department, and 
they're getting incorrect evaluations. So, I want to know: What 
lessons have you learned from the implementation of IDES, and 
what reforms are you now considering?
    Secretary Hagel. First, as you know, we've had a team out 
at the regional VA centers in your State, helping them and 
assisting them as we integrate this. On the specific question 
regarding us--DOD--I'm not satisfied with where we are. I just 
had a meeting in my office, I think, Friday, about this 
specific thing. And, by the way, it wasn't just to prepare for 
the hearing.
    We need to do more and pick it up. I asked them 
specifically--they're going to get back to me by the end of 
this week, and I'll give you a very detailed response to all 
your questions--I said, ``I need to know. You give me a list 
what you want me to do--Secretary of Defense--to break through 
what you think you're not getting done because of bureaucracy, 
whatever it is.'' I said specifically, ``Do we need more help? 
Do we need more people? Do we need more money? Do we need more 
technology?''
    Senator Murray. What did they tell you?
    Secretary Hagel. They'll be back to me with a report by the 
end of this week, and I'll share it with you.
    Senator Murray. Okay. I'd very much like to see this. We've 
been talking about this forever. It continues to be a problem. 
And we can't just keep letting this slide. So, if you can get 
back to me as soon as you have that. Okay.
    Secretary Hagel. I will be back to you. I'll share it all 
with you.
    Senator Murray. Very much appreciate it.
    Secretary Hagel. I have the same concern.
    [The information follows:]

    As you know, Department of Defense (DOD) and Veterans Affairs (VA) 
jointly established a standard of 295 days for active duty Service 
members to complete the Integrated Disability Evaluation System (IDES) 
process, from start to finish. Of the 295 day standard, DOD is 
responsible for completing DOD core processes in 105 days, VA is 
responsible for completing VA core processes in 100 days, and Service 
members are afforded 90 days to complete elective steps or use leave as 
appropriate. DOD processing times are well below the 105 days standard; 
Service members routinely complete the DOD component of IDES in 91 
days. However, VA processing times are well above their 100 day 
standard at 165 days. Until VA meets its core processing standard of 
100 days, the IDES process as a whole cannot meet the overarching 295 
day standard.
    Although DOD is achieving its IDES goals and processing Service 
members ever more rapidly, I have directed the Under Secretary of 
Defense for Personnel and Readiness to review how we can further reduce 
our timeline with consideration of the Service member's role in the 
process. By law, Service members may appeal their disability 
determination repeatedly. These appeals extend the period for which a 
member remains in the IDES process. The DOD review will examine the 
IDES process for additional efficiencies while ensuring that all 
necessary due process is afforded to the member.
    We know that by partnering with VA through the IDES process, we are 
providing our seriously ill or injured Service members with 
increasingly more consistent disability evaluations and ratings, more 
rapid access to benefits, and greater transparency across the process. 
Since we launched the IDES in 2011, we have continued to work closely 
with the VA to improve IDES and ensure continuity of care throughout a 
Service member's transition. Among our many efforts:
  --DOD has completed the capability to electronically transfer IDES 
        case files to VA. However, VA has to ``manually'' download, 
        print, and upload the file into the Veteran Benefit Management 
        System (VBMS), which takes time. To expedite the process, VA 
        needs to fund a ``software solution'' that will allow them to 
        upload the electronic case file directly into VBMS. In a June 
        23, 2014 letter to Acting Secretary of Veteran Affairs, Sloan 
        Gibson, I asked him to fund this capability to enable the 
        faster transfer of IDES case files directly to VBMS. Fully 
        developing this capability promises to reduce VA processing 
        timelines.
  --In July 2013, at my direction, DOD detailed 21 Reserve Duty 
        Soldiers to VA's Seattle, Washington, Disability Rating 
        Activity Site to provide clerical support for processing all 
        Army IDES claims, thereby allowing VA claims processors to more 
        efficiently focus on processing IDES claims. These Soldiers 
        will remain on-site until December 31, 2014 to continue to 
        provide clerical support to the VA.
  --DOD is working with VA to provide faster disability decisions for 
        all catastrophically ill or injured Service members who clearly 
        will be unable to continue their military service. These 
        members receive a presumptive 100 percent disability rating and 
        are expeditiously routed through the IDES process in order to 
        receive benefits as soon as possible. For example, these 
        members are not required to complete the physical or medical 
        evaluation board process and can move straight to the 
        transition and benefits phase.
  --As required by the fiscal year 2013 National Defense Authorization 
        Act, by October 2014, DOD will implement a more robust quality 
        assurance program that will include common standards and 
        requirements across the Military Services. This program will 
        audit the performance of Medical and Physical Evaluation Boards 
        to ensure IDES evaluations and outcomes are accurate and 
        consistent.
    The DOD remains absolutely committed to working with the VA to 
provide the best possible care for our ill and injured Service members 
and their families. Thank you for your continued support of our 
Nation's Service members.

    Senator Murray. Okay, thank you very much.
    Thank you, Mr. Chairman.

                             BUDGET ISSUES

    Senator Durbin. Senator Murray, thank you very much.
    Mr. Secretary, back to budget issues for a minute. Many of 
the recommendations by the administration in the new budget 
relate to the pay and benefits of those serving in the 
military, and retirees. Did you do, or did the administration 
do, a survey of men and women in the military, and retirees, to 
determine what they consider to be the most valuable benefits 
they're currently receiving, and those of lowest value?
    Secretary Hagel. Let me ask our Comptroller for the 
specific of the answer to your question, but I'll--let me start 
with a general answer.
    First, the presentation that we made, as I say in my 
written statement in more detail, in the budget was based on 
considerable analysis from all our chiefs. And the Chairman 
will want to say something about this, I'm sure. All the 
information we could gather. We asked the chiefs, the services, 
the same question you just asked me, ``You come back to me and 
tell me what you think we need to do.'' One of the first things 
that I did when I got over there, about a year and a half ago, 
was, I met, as I do all the time, with the chiefs. We went 
through the whole series of what do they need? What do we need 
to get prepared for? That was a question, because all the 
chiefs understand it better than anyone. As Senator Graham 
said, 50 percent of our budget goes to these kinds of issues. 
And that continues to escalate. We know we're on a track, we 
can't sustain it. It's just--it's like entitlement programs.
    Senator Durbin. I understand.
    Secretary Hagel. So, we're doing all of that.
    Senator Durbin. I understand the premise. I was just trying 
to understand the formulation of your response.
    Secretary Hagel. Let me ask the Chairman for what--how we 
got from the services to answer your question with specifics.
    General Dempsey. Yes, Senator, let me assure you, we did. 
We've spent a year on this, with monthly meetings with the JCS. 
And, in the interim, we looked at both direct and indirect 
compensation. So, pay and benefits, on the one side; 
commissaries, PXs, and education, on the other. Those are 
indirect compensation. And we put together--believe me, it 
wasn't--I had no role in it, but we put together a computer 
program that you could take a serviceman or woman at a 
particular grade, and you could show the effect on various 
changes in pay and compensation and healthcare benefits, direct 
and indirect, with exquisite precision. So, we could tell, for 
example, what effect we would have on an E-6 at 12 years, and 
that same individual as they matriculated through the force to 
22 years. We've got all of that data.
    And when we had all that data, then we decided what we 
would need to do to account for the budget reductions, but also 
to bring our costs, over time, under control. And then we came 
up with this package. So, that the analysis is extraordinarily 
sound.
    Senator Durbin. Let me get into a couple of specifics. 
First, a recommendation to you. I will tell you where you can 
save some money. To the benefit of all the Active military and 
their families, put an end to the subsidizing of for-profit 
colleges and universities. They are overcharging these families 
and the military, twice the tuition of schools like the 
University of Maryland, which, for decades, has offered great 
courses to the military. These for-profit schools, calling 
themselves names like the American Military Universities, are 
ripping off the government and ripping off servicemen and 
women. So, if you want to start saving, I suggest we need 
stricter policies on how they solicit the members of the 
military to sign up for what turns out, in many cases, to be 
worthless.

                                SMOKING

    Second question. Mr. Secretary, what is the smoking policy 
in the Pentagon?
    Secretary Hagel. Well, we don't smoke in the Pentagon.
    Senator Durbin. Well, let me ask you a second question. Do 
you sell tobacco products in the Pentagon?
    Secretary Hagel. We do in the Pentagon, in our--by the 
way--let me see if I can jump ahead. Yes, we have a--you've 
been there, you know we have different stores down in the 
basement--retail stores. But let me jump ahead here to the--I 
think, maybe where you're going, to the bigger issue here. I 
ordered a review of all our tobacco. This is part of our 
healthy base initiative. All of our tobacco sales everywhere 
throughout the enterprise. The Department of the Navy was 
already considering the ban on sale of tobacco products and e-
cigarettes in retail outlets on Navy and Marine Corps 
installations and vessels. They don't allow smoking on 
submarines. They're looking now at not even smoking on ships. 
I've asked for a complete review--it will be back to me in the 
next couple of months--on recommendations from our services on 
this specific policy. But it's bigger than just selling it at 
the Pentagon.
    Senator Durbin. So, let me suggest. It's been reported that 
we spend $1.6 billion a year on medical care of servicemembers 
from tobacco-related disease and loss of work. $1.6 billion.
    Secretary Hagel. That's----
    Senator Durbin. We should also know that the rate of 
smoking among the military is 20 percent higher than the 
average American population. The rate of use of smokeless 
tobacco, more than 400 percent higher than the average 
population. One out of three members of the military who use 
tobacco today say they started after they enlisted. Why? Well, 
we make it easy. And we make it easy because, for some reason, 
the Department of Defense decided to put in a discount for 
tobacco. So, not only when you buy it at the exchange do you 
get some breaks, in terms of local taxes and State taxes that 
aren't collected on the tobacco product, there's a required 5-
percent discount. So, it's a bargain, it may be the best 
bargain that the military sells to its men and women in 
uniform. Tobacco. Good God. At this point in our history, how 
can this be a fact? I'm glad you're doing this. I hope you'll 
hurry it along.
    Secretary Hagel. Well, we will. The Chairman may want to 
respond.
    General Dempsey. I just want to make sure, Senator, that--
the Joint Chiefs want to have a voice in this decision. We've 
asked a lot of our men and women in uniform, and we live--we 
lead an uncommon life by choice, but the--all the things you're 
talking about are legal, and they are accessible. And anything 
that makes anything less convenient and more expensive for our 
men and women in uniform, given everything we're asking them to 
do, I've got concerns about. I'm openminded to the review, but 
I want to make sure that you understand that the chiefs will 
need to have a voice on this because of the effect on the 
force.
    Senator Durbin. I think that's valid. Can you start your 
review with the following premise? Tobacco is the only product 
legally sold in America today which, if used according to 
manufacturers' directions, will kill you.
    General Dempsey. I accept that. My father died of cancer, 
and I'm a cancer survivor, not from tobacco. But it is legal, 
and that is an issue for the broader Congress of the United 
States, not uniquely for the United States military.
    Senator Durbin. I understand that. But if it's legal, I 
guess someone could rationalize that we should allow you to 
smoke right here. We decided not to. The Pentagon decided not 
to. We're trying to set an example, and I think our men and 
women in uniform, if they have healthier and longer lives, 
would be a good example of a policy that we should follow.
    Senator Collins.
    Senator Collins. Thank you very much, Mr. Chairman.
    And I want to associate myself with your comments about 
giving a discount for buying tobacco products at our 
commissaries or PXs or wherever. I just think that that's 
something that needs to go, and would be happy to work with you 
on it.
    General Dempsey, many experts have said that, had we left a 
residual force in Iraq, a NATO force of which American troops 
would have been a part, that ISIS would not have been able to 
make the gains that it made, nor would it have attempted to 
make those gains. Do you agree with that?

                                  IRAQ

    General Dempsey. Well, as you recall, Senator, we actually 
recommended--our military advice was that we needed to remain 
partnered with the Iraqi security forces longer. But it--and 
that--so, I'm--I stand by that recommendation, and I was part 
of it, years ago. The size of it was being negotiated, but I 
was very much of the mind we needed to continue to partner with 
them for some period of time.
    But remember that our partnership was on the basis of 
increasing their tactical capability, their logistics 
capability, their ability to budget, to be a responsible 
institution of government. The problem today is that the 
government has not acted responsibly in Iraq. And I don't know 
that the presence of U.S. military personnel uniquely would 
have changed the outcome.
    Senator Collins. But you stand by your initial 
recommendation that there should have been a residual force. 
And obviously, the reason you thought that must have been 
because you felt it was necessary to help continue to train and 
equip the Iraqi forces, and to ensure stability.
    General Dempsey. I do. And to develop their leaders to be--
to understand what it means to lead in a democracy.
    But also recall that I also said that, in the absence of a 
Status of Forces Agreement, that I wouldn't, personally, want 
to send America's sons and daughters to Iraq. And we didn't get 
a Status of Forces Agreement.
    Senator Collins. General, the cornerstone of this 
administration's counterterrorism strategy has been, according 
to the President's speech at West Point, to rely more heavily 
on other countries, including the proposal of the $5-billion 
Counterterrorism Partnership Fund, to train, build capacity, 
and facilitate partner countries' front-line counterterrorism 
efforts, including in Libya, Mali, Somalia, and Syria. And yet, 
as we see in those countries, as well as Pakistan and now Iraq, 
the countries that have received U.S. assistance have a very 
mixed record of performance in protecting U.S. counterterrorism 
interests. What's so disturbing about what's happening in Iraq 
is, not only does it pose a huge threat to that country and the 
region, but it poses a huge threat to our country.
    We provided $15 billion--I don't need to tell you, and I'm 
well aware of your role--in training and aid to the Iraqi 
forces. And then, when I saw so many of them cut and run 
against ISIS, it's just appalling and very disappointing. So, 
what gives you confidence that this new approach, this new $5-
billion Counterterrorism Partnership Fund, will deliver a 
strategic defeat to extremists who are out to harm us?
    General Dempsey. The issue of violent extremist 
organizations, most of whom are inspired by radical religion, 
is going to be with us for another, in my judgment, 25 to 30 
years. It's a generation-plus problem. And therefore, the new 
approach to try to rebalance--How much do we do, ourselves? 
Because the challenges we see, as they've migrated across from 
Pakistan and now extend across the Arab world, Mideast, North 
Africa, and into western Africa. We've got to find a way to 
address them regionally. And when you start to think 
regionally, you could either come to the conclusion that we 
should do it all ourselves or find partners and capable allies, 
as we have with the French in Mali, for example, and work 
collaboratively to do that. That's what this fund is all about. 
And the companion piece for the European initiative, as well, 
to counter what we see as a changing security environment in 
Europe.
    I don't think we have any choice, frankly, but to find 
and--well, in some cases, find more capable partners, and, in 
other cases, build more capable partners, because the thought 
of doing this all ourselves is a difficult one to grasp.
    Senator Collins. Secretary Hagel, you recently said that 
you were opposed to the creation of a commission to study what 
the balance should be between the National Guard and the Active 
Duty troops. I know it's a very difficult task to--in this time 
of excessive budget constraints, to figure out what the right 
mix should be. But the fact is that the National Guard is far 
less expensive, when you look at the cost per soldier or 
airman, than is someone who's in the Active Duty troops.
    I'm wondering why a commission wouldn't be a good idea. And 
I also want to convey to you that it's not just my Governor, 
but every Governor I've talked to, every adjutant general that 
I've talked to, who are very unhappy about the decisions that 
have been made to cut the National Guard.

                             NATIONAL GUARD

    In Maine, the National Guard is slated to be reduced to the 
lowest number ever in its history. And that is of great 
concern, because, as you're fully aware, the National Guard 
plays two roles. It can be activated and deployed, but it also 
plays an essential role domestically in responding to national 
disasters--natural disasters or a terrorist attack that may 
occur on our soil.
    So, could you talk a little bit to help me understand why 
you don't think a commission would be a good idea to review 
this controversial issue?
    Secretary Hagel. Senator, first, as I said in my opening 
statement, as I said in my written statement, the National 
Guard and Reserves are, have been, and will remain an integral, 
essential part of our national security strategy. That's not an 
issue.
    A couple of the specific points, and then I'll get, the 
last point, to your question about the commission.
    As I've also said--and we've talked here today--about the 
realities of our abrupt and steep, unprecedented, quite 
frankly, budget cuts. That's the reality that we have. And then 
you know, as you've spoken just a few minutes ago, about: 
sequestration becomes the law of the land in 2016, unless 
that's changed. So, that's the reality of the financial 
landscape and, fiscally, what we've got to deal with.
    When you look at the National Guard and Reserve cuts, what 
we're proposing, versus Active Duty--and I again remind you, 
we're talking about a 13-percent cut in Active Duty and a 5-
percent cut in Reserve and National Guard as we try to balance 
our budget, as we try to balance the equality of what we're 
going to need to carry out the national security interests of 
this country, it is--was--I believe still is, and I'll let 
Chairman Dempsey address this--the strong concurrence of all of 
our chiefs, who I rely on an awful lot, and the combatant 
commanders, and the people down on the ground who know it best, 
who have to actually, day to day, implement these strategies 
through tactics--they agree with--everybody's got to take some 
percentage of reduction, here. If I had an--not an unlimited 
budget, but if I had a different kind of budget, I probably 
wouldn't make those recommendations, based on what the chiefs 
have come back.
    Second, the lower-cost issue, Active versus National 
Guard--I am going to ask the Chairman to respond to that, 
because it depends. It isn't an easy metric that the Reserve 
and National Guard are cheaper. It depends if they have to go 
get trained up and go into Active Duty, a war zone, and so on. 
Before I go into that, I'm going to ask the Chairman to get 
into that. So, it's not quite as simple as ``they're cheaper.'' 
So, it's an easy issue.
    Commission. Here was the feeling after I had consulted with 
the chiefs in--the people that I rely on for advice, and then 
they came to me with recommendations. We believe we know what 
we need to do right now. A commission prolongs decisions that I 
do think--not because I'm Secretary of Defense, but--I do think 
reside within the leadership responsibilities of your military. 
Now, that's why we have civilian control over the military. 
I've got all that. But I think if we start micromanaging our 
military, the people whose lives are dedicated to national 
security, they come before the Congress, as they must; they're 
responsible to me and to the President, civilians, as our 
Constitution requires. But when we start second-guessing them 
too far down the line, I think that's not smart, and I think 
it's dangerous.
    So, I don't think we need a commission, for those reasons 
and others. We know what we need to do. Commission would 
prolong this another--well, you know about commissions. And I 
don't think we need one. We know what we need to do. There are 
some hard choices, as I said, and this is one of them.
    Let me, if it's okay, ask the Chairman to respond to, 
maybe, the difference in the cost.
    General Dempsey. Yes, thanks, Senator--I mean, thanks, 
Secretary.
    Senator, I'll get this right at some point so, I agree, by 
the way, on whether we need a commission. I think the Army has 
done a remarkable job. I used to be the Chief of Staff of the 
Army, and if you would have told me, when I was the Chief, that 
I would be able to take these budget cuts and manage them and 
come up with a plan to provide the Army that we think the 
Nation needs, I'd have--I maybe would have said I don't think 
we can get there. But they got there.
    The issue of cost. This body and the other committees that 
give us our budget, buy readiness. That's what you buy. You're 
not buying an Active Duty soldier, you're not buying a 
particular platform or a national guardsman. You're buying 
readiness. And it depends how quickly you want it ready. And 
that's what distinguishes between the Active, the Guard, and 
the Reserve. What capabilities you migrate and how quickly you 
need to access them.
    And so, as I say that I'm complimentary of the Army's plan, 
it's based on what the Army needs to have ready to go on a very 
short notice. And I think that you would agree, we just had 
this conversation about Nigeria, you'd agree that, in the world 
in which we live, with so much uncertainty, complexity, and 
threats, I think we need more of the force ready right now than 
at any time in our previous history, where you could--State-on-
State issues, you could take a long time to build up readiness 
and deploy it.
    So, if you're going to pay for a national guardsman to be 
as ready as an Active Duty soldier, you're going to pay exactly 
the same thing. It comes down to how quickly you need to access 
the capability. When you need it tonight, you pay the same 
whether it's an Active Duty soldier or a guardsman.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    The only comment I would make is, the guardsman goes back--
the Guard member goes back to the community and to civilian 
life, in most circumstances. The Active Duty member remains on 
Active Duty and, thus, is more expensive. To me, it's obvious, 
if they're being--a National Guard troop is being deployed, it 
is going to be trained in the same way, and it is going to be 
as costly. But it's what happens at the end of the deployment 
that creates the cost difference.
    General Dempsey. I agree with that, Senator. But if they go 
back home and I need them and I can't get them, then I'm not 
doing my job. And don't forget, there--and there is reason for 
Governors to be interested in this, because they have State 
responsibilities, as well.
    Senator Collins. Correct.
    General Dempsey. But what the Secretary has to balance is 
the national security interests of our Title X responsibilities 
as the first priority. And I think we've done that as--with 
recognizing the other things that guardsmen and reservists do 
in their communities--I think we've done it responsibly. And 
I'm not sure that a commission would help us identify that.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Senator Durbin. Thanks, Senator.
    Mr. Hale. May I ask, or offer, briefly, a comment?
    If you take your logic to the extreme, we wouldn't have 
anybody on Active Duty. It would be cheaper to have everybody--
--
    Senator Collins. Well----
    Mr. Hale. Obviously, there's a mix----
    Senator Collins. No. Because, obviously----
    Mr. Hale. That's the right--we need a mix.
    Senator Collins. I mean, that's an absurd--I was going to 
commend you for all your service. You just have totally blown 
it.
    Mr. Hale. I just want to establish, we need a mix. I'll 
accept the lack of commendation if you accept the fact that we 
need a mix. And we think we have it about right.
    Senator Collins. No one's suggesting that we don't need a 
mix. I mean, that is obvious.
    And I will commend you for your service, nonetheless, and 
for the work that we did together on DCAA when I was the Chair 
or Ranking Member on Homeland Security.
    Thank you.
    Mr. Hale. That has been a success story. We have turned 
that agency around.
    Senator Collins. You have, indeed.
    Mr. Hale. I appreciate your support and----
    Senator Durbin. And thus, we end on a positive note.
    Senator Collins. Just barely.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Durbin. Comptroller Hale, thank you for many, many 
years of great service. You've really done your country proud, 
and we're honored to have you come to this table so often and 
try to take on one of the most daunting tasks in the history of 
the world: The education of a United States Senator.
    So, thank you very much for that.
    Secretary Hagel, thank you very much.
    General Dempsey, you and the men and women in uniform are 
the best, and I thank you for your service and all that have 
joined you today.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to Hon. Chuck Hagel
            Questions Submitted by Senator Patrick J. Leahy
    Question. Secretary Hagel, in recent years the Department seems to 
face a choice in every budget between meeting the requirements of the 
Defense Strategic Guidance at non-sequester levels, or meeting all the 
requirements of the Defense Strategic Guidance with less readiness, but 
at sequester levels.
    When does the Nation need to begin a frank conversation about what 
strategic interests it is actually willing to pay for? At what point do 
we need to consider the Defense Strategic Guidance supported only at 
sequester levels?
    Answer. The Quadrennial Defense Review (QDR) released earlier this 
year is the Department's current strategy, building on the work done in 
the Defense Strategic Guidance, which was released in January 2012. As 
the QDR came together, we considered our national interests in a 
complex and uncertain world, thoroughly reviewed our missions and 
objectives, and looked at innovative ways of securing and protecting 
U.S. interests. Our priority was balancing readiness, capability and 
capacity--the current strategy is supportable at the funding levels in 
the President's budget submission, albeit at higher levels of risk in 
some areas. A return to ``sequester'' levels of funding would introduce 
greater risk and would require a strategy reconsideration.
    Question. Secretary Hagel, for years I have been trying to pass 
legislation that would bring the United States into compliance with our 
obligations under the Vienna Convention on Consular Relations. That 
convention guarantees that when an American is arrested in another 
country, the U.S. consulate will be notified and can help. Compliance 
with this treaty is in America's national interest and has a 
significant impact on our diplomatic relations. Our current failure to 
comply places Americans living, working and traveling abroad at risk. I 
appreciate your Department's support for this legislation.
    Can you provide an assessment of the impact this would have for the 
safety of American servicemembers and their families overseas?
    Answer. The Department refers you to then-Secretary Panetta's 
letter to you dated August 31, 2011 (copy provided), that provides the 
requested assessment. The Department continues to support enactment of 
the Consular Notification Compliance Act of 2011.
    [The letter follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
    Question. Do you support the Air Forces' stated plans to make the 
Global Strike Command a 4-star position to oversee its nuclear 
enterprise and any plans to create a new or reorganized nuclear 
command?
    Answer. Yes. We must prioritize the funding of our nuclear forces 
commensurate with their role in protecting our country and deterring 
aggression throughout the globe. For this reason, I ordered both an 
internal and external review of our nuclear forces. The Department is 
analyzing these reviews closely and will be acting on the 
recommendations as we review and prepare the budget for fiscal year 
2016. The Administration remains committed to a safe, secure, and 
effective nuclear arsenal, and to strengthening the health of the 
nuclear workforce and the nuclear enterprise.
    Question. On January 8, 2011, the 917th Wing at Barksdale Air Force 
Base (AFB) was deactivated. The A-10s of the 917th supported Green Flag 
East exercises on a regular basis at Fort Polk. Today, our sources have 
indicated the Air Force resources only about half of the Green Flag 
East exercises with fighters. Often, B-52s from Barksdale AFB support 
Green Flag East because of the loss of the A-10s. Separately, we 
understand the Air Force is considering backfilling certain A-10 bases 
with legacy F-16s. Does the Army still have a requirement for close air 
support during its training exercises at the Joint Readiness Training 
Center (JRTC)?
    Answer. Yes, the Army still maintains a requirement for Close Air 
Support (CAS) at the Joint Readiness Training Center (JRTC) and at all 
of our training centers. This support is necessary for challenging our 
units and leaders with tough, realistic training. Our Soldiers' ability 
to use CAS is critical to maintaining Army proficiency in Unified Land 
Operations, and is a significant aspect of Joint readiness. The Army 
fulfills these requirements for CAS support from both the Air Force and 
Navy through the use of a variety of aircraft.
    Question. Will the tempo at the JRTC--with troops returning to 
CONUS--increase as we continue to train our soldiers for deployment?
    Answer. The Joint Readiness Training Center (JRTC) remains a 
primary venue for Army units to train, build, and maintain light 
tactical forces for Joint Force Readiness. Even as end strength and 
force structure are reduced, Army training will remain consistent as 
the Army plans to maximize capacity of JRTC.
    Question. Will the Air Force consider Barksdale AFB for a potential 
flying mission to replace the capability lost when the 917th was 
deactivated?
    Answer. The Air Force determines the most operationally effective 
and fiscally efficient posturing of its assets during our annual 
program and budget build. Consequently, the establishment of a new 
flying mission at Barksdale AFB may be considered in the years to come.
    However, fiscal constraints imposed by the Budget Control Act (BCA) 
and sequestration implications have hampered the Air Force's ability to 
distribute resources in a manner posing the least risk to our 
warfighting capabilities. Reversion to strict BCA funding caps in 
fiscal year 2016 and beyond will further hinder the Air Force's ability 
to replace deactivated force structure and likely even compel us to 
divest additional capabilities through unit deactivations.
    Question. Does the Air Force believe it is resourcing Green Flag 
East sufficiently and with the correct mix of aircraft?
    Answer. Yes, based on past and projected participating squadrons, 
the Air Force is resourcing Green Flag East sufficiently to meet our 
requirements with the correct mix of aircraft.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
                       non-navy work at pax river
    Question. Secretary Hagel and Chairman Dempsey, I am concerned 
about the decision to prevent the Naval Air Station Patuxent River 
(PAX) from working with non-Navy customers. The Navy has stated that it 
believes the cost of supporting non-Navy activities comes out of the 
Navy's pocket, but it does not. If this policy continues, PAX will lose 
an estimated $2 billion of work. So in an attempt to save money, the 
Navy is turning away the non-Navy business that actually brings them 
money. PAX has supported non-Navy work since the 1990s. It has provided 
services to the Army, Air Force, Special Operations Command (SOCOM), 
and National Aeronautics Space and Administrations (NASA). Facilities 
such as the Advance Prototype Facility were specifically built by PAX 
to target non-Navy customers.
    Secretary Hagel and Chairman Dempsey, with a shrinking budget, all 
the military services should be pooling their resources when it comes 
to test and evaluation facilities, not circling the wagons. What is the 
Department of Defense doing to clamp down on policies such as the 
Navy's non-Navy work policy?
    Answer. The Department of Defense (DOD) is aware of the Navy's work 
acceptance policy for its Warfare Centers. The Navy relies on its 
Warfare Centers to develop, test and field the capabilities required by 
the warfighter. The Navy's workload acceptance policy provides 
visibility into where work is performed and ensures tasking is aligned 
to the appropriate technical capability. Though the Navy places a 
priority on the Naval mission, non-Naval work is an important element 
of the overall workload at many of the Warfare Centers. This work 
contributes to the strength of the technical workforce and reduces 
overhead rates within the Naval Working Capital Fund (NWCF). However, 
if the overall workload at an individual Warfare Center or across 
multiple Warfare Centers is not properly aligned by capability and 
capacity, performance of the mission as well as NWCF rates will be 
negatively impacted. The DOD supports the Navy's effort and will 
continue to monitor the implementation of the Navy's workload 
acceptance policy and engage as required.
    The DOD has made great progress in coordinating test and evaluation 
(T&E) activities across the Services. Annually, the DOD certifies the 
Service T&E budgets for range and lab sustainment, targets and 
investment projects. The DOD develops a biennial ``Strategic Plan for 
DOD T&E Resources'' that assesses the ability of the T&E infrastructure 
to meet short and long term acquisition program requirements. Under T&E 
Reliance, the Services collaboratively work together to promote 
effective T&E infrastructure and investment management with the goal of 
providing cost-effective and efficient operation without regard to 
ownership and to avoid unwarranted duplication of test capabilities.
                            c-130j fielding
    Question. Secretary Hagel and Chairman Dempsey, I am concerned 
about the proposed divesture of the A-10 Thunderbolt beginning in 
fiscal year 2015. If the A-10s are divested with no replacement, the 
Air Guard at Martin State, among other Air Guard installations, will 
have no flying mission. The Air Force released an un-official plan with 
the fiscal year 2015 budget to replace A-10 units with C-130J Super 
Hercules units. Martin State is scheduled to lose 22 A-10s and 
unofficially gain 8 C-130Js.
    Secretary Hagel and Chairman Dempsey, can you commit to me that the 
Maryland Guard won't lose its flying mission? Will the A-10s at Martin 
State be replaced with C-130Js?
    Answer. Assuming the submitted President's fiscal year 2015 budget 
plan, requested USAF A-10 divestiture plan, and C-130J realignment plan 
remain intact, C-130Js will be relocated to Martin State in fiscal year 
2018 to maintain the Maryland Guard flying mission.
                        status of nigerian girls
    Question. Secretary Hagel and Chairman Dempsey, on April 14, 2014, 
276 girls were kidnapped in Nigeria. These girls are believed to be 
between the ages of 14 to 18, but some as young as 8. Boko Haram has 
claimed credit for these kidnapping as a stand against western 
education.
    I am concerned that these girls have fallen off the radar, now that 
the media attention has lessened. What is the status of DOD's effort to 
find them? Has any progress been made? What is the focus of your 
current efforts?
    Answer. DOD continues to support Nigeria's efforts to locate and 
return the girls kidnapped by Boko Haram on April 14 of this year. As 
we have noted before, DOD was intensely focused on countering the 
threat of Boko Haram before the kidnappings of the Chibok girls 
occurred, and we remain focused on this. We continue to have personnel 
present in Abuja as part of the interdisciplinary team of experts 
deployed to Nigeria in the aftermath of the kidnapping. The focus of 
these personnel is to work with their Nigerian and P3 (United States, 
United Kingdom, and France) counterparts to gather and share 
intelligence about the girls' location. It is equally true, however, 
that recovering these girls could take a very long time. Nigeria's 
military lacks most of the skills required to mount an effective 
recovery operation, especially one involving hundreds of hostages being 
held at multiple locations. We are in the process of providing basic-
level training to some of Nigeria's forces, but this will take time and 
does not include the highly specialized skills required to conduct 
hostage recovery operations; we are beginning from a very low baseline.
    DOD will continue to engage with Nigeria to help it build its 
capacity to counter the threat of Boko Haram both to support the 
recovery of the Chibok girls and to promote security and stability in 
Nigeria and West Africa more generally.
                                 ______
                                 
              Questions Submitted by Senator Mark L. Pryor
    Question. The fiscal year 2014 National Defense Authorization Act 
(NDAA) requires a review and report for the award of the Purple Heart. 
Because there have been multiple domestic attacks against 
servicemembers, do you anticipate that there will be changes to any of 
the award criteria related for the Purple Heart and how does your 
department plan to implement any potential changes to this policy?
    Answer. I have directed a comprehensive review of the military 
decorations and awards program which is expected to conclude in July 
2015. The Purple Heart award criteria is being examined as part of that 
review. As the review just recently began and is ongoing, it would be 
premature to speculate on any potential outcome.
    Question. Do you anticipate that the criteria related to the award 
of the Purple Heart will include circumstances where a servicemember is 
killed or wounded in an attack on United States soil?
    Answer. I have directed a comprehensive review of the military 
decorations and awards program which is expected to conclude in July 
2015. The Purple Heart award criteria is being examined as part of that 
review. As the review just recently began and is ongoing, it would be 
premature to speculate on any potential outcome.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
    Question. Given the rise in military suicide, what do we know about 
how servicemembers and their families are affected by suicides 
occurring within the military community?
    Answer. Death by suicide is a shocking and tragic event and family 
members, friends, and peers all react differently depending on 
individual factors.
    Based on the Calendar Year 2012 Annual Department of Defense 
Suicide Event Report (released in early 2014), the demographics of 
Active Duty servicemembers who die by suicide are that they are male, 
Caucasian, and 17-24 years of age. In addition, nearly half (48.4 
percent) are married and most of them resided with their spouse and 
dependent children (16.4 percent have children residing with them).
    The Department of Defense's ``Reserve Component Suicide Postvention 
Plan: A Toolkit for Commanders'' notes accurately that servicemembers 
and family members affected by suicide will often respond with shock at 
first and question the circumstances surrounding the death. In the 
following days, weeks, and months, survivors often struggle with 
complex and changing emotions that include denial, guilt/blame, 
sadness, anger, and acceptance. During this complex grieving process it 
is not uncommon to find survivors experiencing depression, mistrust, 
helplessness, abandonment issues, a loss of appetite, difficulty 
sleeping, loss of interest in activities, and occasionally suicidal 
thoughts.
    Question. Are servicemembers' exposures to suicide and attempted 
suicide being measured to determine how it affects them and what 
resources they might need following these exposures?
    Answer. Department of Defense Suicide Event Reports (DODSER) 
capture a range of information about Active Duty servicemember suicides 
and suicide attempts, including those that were previously exposed to 
suicide of a friend or family member. The calendar year 2012 DODSER 
Annual Report reports that 6.0 percent of suicides and 12.2 percent of 
suicide-attempts had a history of exposure to suicide of a friend or 
family member. Through studies and experience, DOD knows that a death 
by suicide can leave survivors with a mix of complex emotions and 
responses. Survivors often struggle with feelings of shock, denial, 
guilt, blame, sadness, and anger. These emotions can lead to a sense of 
helplessness and abandonment, a loss of appetite, difficulty sleeping, 
a loss of interest in work or other activities that one previously 
found enjoyable, and occasionally suicidal ideation. To help combat 
these effects and help survivors through the grieving process the 
Department of Defense has put in place a number of valuable resources 
that are available on the National Resource Directory.
    For example, should a servicemember or family member feel they or 
their loved one is in immediate crisis, they are encouraged to reach 
out to the Veterans/Military Crisis Line (MCL). Through a partnership 
with Department of Veterans Affairs, professional responders are 
standing by 24/7 to provide confidential crisis support. Also available 
to servicemembers and their families is 24/7 confidential grief and 
loss counseling offered through Military OneSource. Additionally, the 
Department of Defense created the Vets4Warriors program to provide 
assistance through peer-to-peer counseling, referrals, resilience case 
management, and outreach support services.
    Similarly, the Services have all developed programs to grow 
individual and unit resilience to assist in preventing suicide. The 
Army has developed the Ready and Resilient Campaign (R2C), which 
provides comprehensive resilience training for Soldiers and family 
members to develop coping skills and behaviors. The Navy/Marine Corps 
have developed the 21st Century Sailor & Marine Initiative, which 
provides Sailors and Marines with access to support and helps them 
develop coping skills to build their resilience. The Air Force has 
developed the Comprehensive Airman Fitness program to build resilience 
by teaching Airmen skills and providing them with the tools needed to 
cope with stress and hardship.
    In addition, the Department has collaborated with the Suicide 
Prevention Resource Center to develop Gatekeeper Training for Suicide 
Prevention. This educational program teaches people the warning signs 
of a suicide crisis and how to respond effectively. Also, some of the 
Services have entered into Memorandums of Agreement with the Tragedy 
Assistance Program for Survivors (TAPS) where they can refer survivors. 
TAPS is a not-for-profit peer support program established to assist 
survivors of military deaths in dealing with the loss of a 
servicemember. TAPS has incorporated a specific focus area and 
designated staff to support survivors of suicide and provides the 
Defense Suicide Prevention Office with briefings based on cases 
referred from the Services.
    Question. What resources have the Department of Defense (DOD) 
created to help those servicemembers who may be profoundly affected by 
the suicide deaths of their fellow servicemembers?
    Answer. The DOD and Military Services have developed numerous 
resources to help members of the Armed Forces and family members who 
are affected by suicide. A few of the Department's efforts include the 
Reserve Component Suicide Postvention Plan, Veterans/Military Crisis 
Line, the Vets4Warriors program, and Military OneSource. Similarly, 
each Service has created Service-specific programs to help prevent 
suicide and build resilience among their servicemembers and their 
families.
    The Department published the ``Reserve Component Suicide 
Postvention Plan: A Toolkit for Commanders'' in August 2013. The 
Postvention guide, which has been distributed in print to thousands of 
stakeholders and is available online for free download on 
www.suicideoutreach.org provides Commanders with a range of information 
about suicide and activities undertaken in the immediate aftermath of a 
suicide. The guide outlines the roles and responsibilities of 
Commanders, discusses how they can build resilience, provides 
recommendations for memorial services, and describes how to effectively 
support families and respond to media inquiries.
    The Department has distributed over 172,000 products that draw 
awareness to the Veterans/Military Crisis Line (MCL), a call center 
manned by the Department of Veterans Affairs (VA) that provides 24/7, 
confidential crisis support to veterans, servicemembers, and their 
families. An Executive Order issued on August 31, 2012, called on DOD 
and VA to develop a national suicide prevention campaign focused on 
connecting servicemembers and veterans to mental health services. 
Servicemembers affected by suicide are encouraged to reach out to 
professional responders at MCL.
    The DOD's Vets4Warriors (V4W) program, which provides assistance to 
all servicemembers and their families supports these individuals 
through peer-to-peer counseling, referrals, resilience case management, 
and outreach services. The veteran peers understand the problems unique 
to military life and know the resources and benefits available to 
servicemembers and their families.
    Military OneSource is a service providing comprehensive information 
about military life and offers confidential grief and loss counseling 
free of charge, 24/7/365. Additional non-medical, confidential 
counseling is available through the Military Family Life Counselor 
programs, counselors embedded in military units, youth centers, 
military schools and some child development centers.
    In accordance with Department policy, the Services have developed 
individual resilience and suicide prevention programs focusing on their 
culture and shared experiences. For instance, the Army has developed 
the Ready and Resilient Campaign, the Air Force has initiated the 
Comprehensive Airman Fitness program, and the Navy and Marine Corps 
have established the 21st Century Sailor & Marine initiative. These 
programs are all designed around the common goal of teaching the skills 
and providing servicemembers with the tools to manage stress and 
hardship to build their resilience.
    Question. How have policies changed to assist family members who 
lose a servicemember to suicide?
    Answer. Department of Defense (DOD) and Service policies are 
constantly evolving to meet the needs of our military families who lose 
a servicemember to suicide. Each branch of the Armed Forces has its own 
postvention policies and practices, as required by DOD Directive 
6490.14 ``Defense Suicide Prevention Program.'' Each of the Services 
have Casualty Assistance Officers (CAO) who handle casualty and 
mortuary affairs for families of those who have died during active 
military service. A CAO is trained to professionally deal with families 
experiencing deep grief, recognize vulnerabilities, and set boundaries 
between assisting families and maintaining military decorum. The CAO 
can answer questions related to the Department's programs offering DOD 
Survivor Benefits; Veteran Death and Survivor Benefits; and other 
Federal benefits and services, all of which are codified in policy.
    The Department of Defense has provided guidance to the Reserve 
Components through the ``Reserve Component Suicide Postvention Plan: A 
Toolkit for Commanders.'' This guide, which has been distributed in 
print to thousands of stakeholders and is available online for free 
download, provides Reserve Component Commanders with a range of 
information about suicide and postvention, which are the response 
activities undertaken in the immediate aftermath of a suicide that has 
impacted the unit or family. The guide outlines the roles and 
responsibilities of Commanders and discusses how to effectively support 
families.
    Military OneSource is DOD's centralized assistance program--or one-
stop shop--for all programs and resources available for our military 
families, available 24/7/365. Military OneSource is both a vibrant Web 
site and a comprehensive program that provides confidential help and 
support, a call center, and online tools for anything a military family 
member may need to navigate military family life. Survivors remain 
eligible for support from Military OneSource for as long as they may 
need it or be inclined to use it.
    In August 2013, the Department, through the Defense Suicide 
Prevention Office, gained oversight of the Vets4Warriors program. This 
program provides assistance to families through counseling, referrals, 
resilience case management, and outreach support services. The veterans 
employed by Vets4Warriors understand the problems unique to military 
life and know the resources and benefits available to servicemembers 
and their families.
    Similarly, all of the Services with the exception of the Army have 
entered into Memorandums of Agreement with the Tragedy Assistance 
Program for Survivors (TAPS) where they can refer survivors. TAPS is a 
not-for-profit peer support program established to assist survivors of 
military deaths in dealing with the loss of a servicemember. TAPS has 
incorporated a specific focus area and designated staff to support 
survivors of suicide. The Army has developed its own Survivor Outreach 
Services program that supports survivors, but also refers individuals 
to TAPS.
    Question. Are there uniform protocols followed by Casualty 
Assistance Officers? Are family members being provided supportive 
services in the wake of their loved ones death?
    Answer. Yes, Casualty Assistance Officers must follow uniform 
protocols. The Department places a high priority on taking care of 
servicemembers and their survivors. The Department requires that the 
Services train assistance officers on their duties and responsibilities 
before being assigned to assist a family. Casualty Assistance Officers 
are required to assist the family with receipt of all Federal benefits 
and entitlements and provide them with points of contact for additional 
resources such as counseling or financial assistance. I consider the 
care and support of survivors our highest duty and will make sure they 
are given all the necessary assistance both immediately after the death 
of their loved ones, and for the long term.
    Question. What programs are in place within DOD to equip returning 
servicemembers with the appropriate resources they need to successfully 
transition to civilian life?
    Answer. To assist servicemembers to transition confidently and 
successfully to civilian life, DOD provides eligible servicemembers 
separating, retiring, or being released from Active Duty, with access 
to the Transition Assistance Program (TAP). TAP, which has been 
completely redesigned since 2011, in collaboration with partner 
agencies, Departments of Homeland Security, Veterans Affairs, Labor, 
Education, the U.S. Office of Personnel Management, and the U.S. Small 
Business Administration, provides training, counseling, information, 
and other transition services to assist servicemembers in becoming 
career ready for employment, accessing higher education, obtaining a 
credential or starting their own business based on their individual 
post-military career goals.
    Question. In fiscal year 2011, DOD's Federal Voting Assistance 
Program (FVAP) received funding to conduct Voting System Testing 
Laboratory tests on six online ballot delivery and Internet voting 
systems. Please provide a summary of FVAP's findings from these tests.
    Answer. The findings and reports on ``Voting System Testing 
Laboratory Functionality and Security Testing and Penetration Testing 
of a Simulated Election'' inform the Department's larger electronic 
voting demonstration project decisionmaking process. That process is 
still ongoing, making the reports and findings pre-decisional and 
unavailable for public release.
    However, in response to a request from the House Armed Services 
Committee (HASC) staff, FVAP released the reports for committee use 
only with the marking ``FOR HASC USE ONLY. NOT FOR PUBLIC RELEASE.'' 
Upon request, the Department will provide a copy of the reports to the 
Senate Appropriations Committee for committee use only.
    The Director of FVAP, Mr. Matt Boehmer, discussed the reports' 
findings and timeline for public release with the HASC Military 
Personnel Subcommittee Ranking Member, Representative Susan Davis, on 
July 10, 2014.
    If members of this committee would also like to discuss the 
reports, Mr. Boehmer is available to meet at a time convenient to them.
    Question. Despite added attention to and appropriations for DOD 
screening and delivery of care to servicemembers with post-traumatic 
stress disorder (PTSD) and traumatic brain injury (TBI), mental health 
issues and substance abuse, particularly the misuse and abuse of 
prescription pills, persist as a very serious problem for 
servicemembers. Are DOD's various mental health and addiction 
prevention/treatment initiatives achieving the desired results? Which 
programs have been most successful for providing mental health and 
substance abuse treatment to servicemembers?
    Answer. Tremendous DOD resources and attention have been, and 
continue to be, actively deployed to address issues of program 
evaluation, integration, coordination and quality of care within the 
DOD. The Department began evaluation of existing programs based on the 
requirements set by President Obama's Executive Order dated August 31, 
2012, ``Improving Access to Mental Health Services for Veterans, 
servicemembers and Military Families.'' The DOD, VA, and HHS have since 
been working collaboratively on these strategies and creating an 
inventory of mental health and substance abuse prevention and treatment 
programs and activities to inform this work. DOD is concluding a review 
of all DOD mental health and substance abuse prevention, education, and 
outreach programs for evidence of effectiveness and to identify those 
with the most impact. Although comprehensive review of all such 
programs is still ongoing, several programs, highlighted below, have 
shown success for enhancing mental health and substance abuse treatment 
for servicemembers.
    DOD and VA have been actively collaborating on disseminating the 
use of evidence-based treatments and best practices designed to enhance 
the assessment and treatment of individuals with a wide range of mental 
health concerns. This includes the training of over 4,000 providers in 
evidence-based psychotherapies (EBPs) for the treatment of PTSD and 
over 1,600 in EBPs for other mental health disorders.
    In September, 2012 DOD augmented its deployment health assessment 
process to include mental health assessments (MHAs) before deployment, 
and three times after return from deployment to determine whether 
treatment is needed for mental health conditions. The deployment MHAs, 
which include validated screening tools for PTSD, depression and 
alcohol misuse, are designed to more accurately identify individuals 
with mental health concerns and have been critical to the early 
identification of mental health concerns and referral for care when 
needed. As of July 23, 2014, over 1.2 million deployment MHAs have been 
administered. Based on data over the last 2 years, approximately 7 
percent of servicemembers receiving a deployment MHA had a recommended 
referral to mental health specialty care or to a mental health provider 
in primary care.
    The embedded mental health program is an early intervention and 
treatment model that promotes servicemember readiness (pre-, during, 
and post-deployment). It provides multidisciplinary, community mental 
healthcare to servicemembers in close proximity to their unit area and 
in close coordination with unit leaders. The intent of co-locating 
providers in close proximity to units is to increase servicemember's 
accessibility to mental healthcare and improve trust in mental health 
providers, as both are significant barriers to care in military 
population. Ultimately, the embedded mental health program aims to 
prevent negative mental health outcomes and assist the servicemember 
return to duty whenever possible.
    In the primary care setting, the Department has funded 470 mental 
health providers within Patient Centered Medical Home teams to optimize 
access to mental healthcare and to improve the early screening, 
identification, and intervention of mental health conditions. These 
providers are available to provide consultation to primary care 
providers on prevention, assessment, and treatment strategies for a 
wide range of mental health concerns, and to provide brief, targeted 
intervention services.
    With regard to the potential misuse and abuse of prescription 
medications, the Department monitors the dispensing of prescription 
medications via the DOD Pharmacy Data Transaction Service (PDTS), which 
matches real-time prospective drug utilization with a patient's 
medication history for each new or refilled prescription before it can 
be dispensed to the patient. PDTS flags beneficiaries associated with 
an excessive number of controlled substance claims, pharmacies used to 
obtain controlled drugs, and/or prescribing providers. These 
beneficiaries are then asked to enroll in the Department's ``1-1-1 
Program'' which identifies a single prescribing physician, a single 
pharmacy, and a single emergency room and treatment facility for their 
care. Beneficiaries who are identified through PDTS are encouraged to 
participate in the program or face limits in benefits, and many are 
subsequently offered treatment and case management to address substance 
use disorder dependence.
    Section 739 of the National Defense Authorization Act for fiscal 
year 2013 requires DOD to develop a plan to improve the coordination 
and integration of the programs of DOD that address psychological 
health and TBI of members of the Armed Forces. The information 
collection and evaluation activities conducted from fiscal year 2013 
through fiscal year 2017 will provide robust and comprehensive 
information about gaps and redundancies in psychological health and TBI 
programs, the effectiveness of these programs, and how well the 
programs are coordinated and integrated into overall operational 
delivery of care to servicemembers, their families, and veterans. 
Activities involving the provision of specialized program evaluation, 
instruction, and training to DOD-wide psychological health and 
traumatic brain injury (TBI) programs will begin in fiscal year 2015. 
The outcomes and recommendations derived from these activities will 
inform policy decisions, address of gaps and redundancies, identify 
best-practices moving forward, and help achieve the goal of promoting 
programs with demonstrated effectiveness.
    Question. Within the past year, how has DOD improved the resources 
it provides to servicemembers who are victims of sexual assault? Are 
DOD's actions to prevent and respond to sexual assaults in the military 
having the desired effect? Does DOD need any additional authority from 
Congress to address this issue?
    Answer. Over the past year, DOD has implemented a number of 
programs designed to improve victim confidence, recognizing that 
increased victim confidence and reporting is a bridge to greater victim 
care and holding offenders appropriately accountable. On August 14, 
2013, I directed that the Services establish Special Victims Counsel 
programs. This program offers victims legal consultation and 
representation throughout the military justice process. The program has 
helped increase victim confidence. Victims also receive support from 
Sexual Assault Response Coordinators and Sexual Assault Prevention and 
Response Victim Advocates, who have received nationally recognized 
certification through the DOD Sexual Assault Advocate Certification 
Program, administered by DOD contract with the National Organization 
for Victim Assistance.
    The Department also issued DODI 6400.07, ``Standards for Victim 
Assistance Personnel,'' which ensures all victim-assistance related 
programs throughout the Department are consistent with the Standards 
for Victim Assistance Programs and Providers established by the 
National Victim Assistance Standards Consortium. The new policy also 
establishes the DOD Victim Assistance Leadership Council to advise the 
Department on policies and practices related to the provision of victim 
assistance across the DOD.
    Additionally, we have increased resources to servicemembers who are 
victims of sexual assault through the DOD Safe Helpline. The Safe 
HelpRoom, a moderated group chat service that allows sexual assault 
survivors in the military to connect with and support one another in a 
secure online environment, was implemented this year. Users can connect 
with sexual assault response professionals via phone or anonymous 
online chat from their mobile devices from anywhere in the world. In 
addition, the Safe Helpline Mobile Self-Care Applications help users 
manage the short-and long-term effects of sexual assault.
    Although we continue to assess our progress, it takes time to 
measure the effectiveness of our programs. However, we are encouraged 
by our most recent report to Congress (fiscal year 2013 Sexual Assault 
Annual Report), which indicated a 50 percent increase in victim's 
reports of sexual assault when compared to fiscal year 2012.
    We assess this increase in reports as consistent with a growing 
level of confidence in our response system and are encouraged that more 
men and women are coming forward to report a sexual assault, get care 
and support, and assist our efforts to hold offenders appropriately 
accountable.
    Question. DOD has announced that in fiscal year 2014 and fiscal 
year 2015, it will implement 18 reductions in force (RIF) at 14 
military installations. Two of these RIFs are slated to take place at 
Fort Knox. Please provide DOD's methodology for this determination
    Answer. An activity is required to use Reductions in Force (RIF) 
procedures when employees could be separated or downgraded because of 
lack of funds, lack of work, or reorganization. The preferred course of 
action when a RIF may be required is to use other restructuring tools 
such as limiting hiring, offering voluntary early retirement and 
voluntary separation incentives, and reassigning employees to vacant 
positions. RIF is the method of last resort as it adversely affects our 
civilian employees and their families.
    Question. How is DOD taking steps to work more effectively with the 
Department of Veterans Affairs (VA) to help servicemembers transition 
to the VA healthcare system?
    Answer. For over 10 years, the Assistant Secretary of Defense, 
Health Affairs has Co-Chaired the VA, DOD and Health Executive Council 
(HEC) to provide direction and oversee the cooperative efforts of each 
Department's healthcare organizations. This council oversees numerous 
workgroups focused on identifying and implementing mutually beneficial 
opportunities to improve business practices and efficiencies, and to 
improve quality and access to care for both VA and DOD beneficiaries.
    The HEC has approved and funded 165 Joint Incentive Fund (JIF) 
projects for a total of $645 million over the last 11 years, and 
includes many types of services at the local, regional and national 
levels. Many of these initiatives support improved access to care and 
information sharing in support of patient care.
    DOD has also initiated several efforts to improve transition 
servicemembers by ensuring healthcare information is effectively 
communicated to the separating servicemember and to the Veterans Health 
Administration. These efforts are now consolidated in the Defense 
Health Systems Modernization program in order to align current 
information technology enhancements with the longer term effort to 
modernize the primary electronic record system.
    The following are some of these initiatives:
  --Blue Button.--Servicemembers can access their complete medication 
        history from the MHS through Blue Button. Now they can download 
        the information in a format meeting national standards for 
        health information sharing, the ``Continuity of Care 
        Document.''
  --Service Treatment Record sharing.--Medical documentation is now 
        made available electronically to the VA within 45 days of 
        separation via an interface between the Health Care Artifacts 
        and Imaging Solution and Veteran Benefits Management System. 
        This interface enables VBA to copy all of the files of the 
        Service Treatment Record into VBA systems when a servicemember 
        files a claim to expedite the claim development phase.
  --Information integration, interoperability, and visibility.--A 
        comprehensive viewer of all electronically available 
        information has been successfully piloted and is being 
        evaluated for wide deployment across DOD and VA. This viewer 
        provides read only access with role based access control to all 
        care documentation in the electronic medical records of the 
        both VHA and the Military Health System in an integrated 
        display. Information in this system has been mapped to national 
        standards. DOD is evaluating the use of this system to provide 
        information to partner healthcare organizations as part of the 
        Virtual Lifetime Electronic Record program.
  --Care Coordination.--The Recovery Coordination Program provides 
        guidance and oversight for the Services' non-medical case 
        management of seriously, very seriously, and catastrophically 
        injured servicemembers. Supporting approximately 14,000 
        customers, the population has remained relatively constant 
        since the program was established in 2008. Non-medical case 
        management is an essential part of transition from DOD to VA 
        care, which is why the Departments are working together to 
        implement a new ``Lead Coordinator'' concept to increase 
        communication and collaboration.
  --In addition to the above initiatives, since 2011 DOD and VA have 
        worked closely with other Federal agencies and the President's 
        economic and domestic policy teams to enhance the successful 
        transition of our servicemembers from military to civilian 
        life. The redesigned Transition Assistance Program (TAP) 
        includes mandatory enrollment in eBenefits and provision of an 
        enhanced Briefing on VA benefits to all transitioning 
        servicemembers. The VA benefits briefing addresses Disabled 
        Transition Assistance Program information, and an overview on 
        eBenefits and VA healthcare, as well as information on the full 
        range of VA benefits and services. DOD also requires that 
        approximately 90 days before their transition, servicemembers 
        participate in a Capstone, which includes the ``warm handover'' 
        of servicemembers to VA representatives, facilitating 
        personalized attention and service. To support the initiatives 
        described above, as well as the provision of Vocational 
        Rehabilitation and Education services to eligible members with 
        service connected disabilities, installations with high or 
        medium demand have expanded to accommodate a permanent VA 
        presence.
  --Another key initiative DOD has undertaken is the IC3 program. The 
        mission of Interagency Care Coordination Committee (IC3) is to 
        develop ``One Mission, One Policy, and One Plan'' for 
        servicemembers and veterans needing complex care coordination. 
        One major component of this program is the ability to share 
        information and utilize common resources to ensure that care 
        coordinators are working seamlessly together to deliver care, 
        benefits, and services to servicemembers and veterans during 
        the transition period from DOD to VA without any gaps in care. 
        Through this sense of ``oneness,'' IC3 aims to ensure that no 
        servicemember and veteran ever loses or misses an opportunity 
        to receive the care, benefits, and services that he or she 
        requires. For those that are approaching the end of their 
        military career, it is particularly critical to have a common 
        operational picture of care coordination, to ensure their needs 
        are being met in real-time.
      IC3 built the infrastructure for a single, borderless, Community 
        of Practice (CoP) and launched the CoP with its initial group 
        of leaders from 50+ wounded Warrior care, benefits, and 
        services coordination programs. Additionally, the Lead 
        Coordinator (LC) role was developed, introduced, and is in the 
        beginning phases of a nationwide rollout. Every SM/V will be 
        assigned a LC who will serve as the primary point of contact 
        for complex care and service coordination to the servicemember, 
        Veteran, and their families or designated caregivers.
      Finally, and perhaps most critical for managing complex care, IC3 
        has started the development planning for a full scale 
        electronic Interagency Comprehensive Plan (ICP). The ICP will 
        improve coordination, transparency, and interoperability across 
        programs by allowing VA and DOD care coordinators to view and 
        share client data from one place and to track the SM/V's 
        history. The ICP would guide a designated Lead Coordinator to 
        execute appropriate follow up, which will be monitored through 
        an electronic support capability, and would ensure complex 
        care.
                                 ______
                                 
            Question Submitted by Senator Richard C. Shelby
    Question. Secretary Hagel, during last week's hearing you stated 
that you had, ``no direct evidence of any direct involvement in [the 
Taliban Five's] direct attacks on the United States or any of our 
troops.'' However, publicly released reports indicate otherwise. In 
light of this reporting, why do you say there is no evidence the 
Taliban Five were involved in attacks against the United States or our 
troops?
    Answer. (Deleted)
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats
    Question. The Administration has not been able to stop Vladimir 
Putin's aggression in Ukraine and the Administration has not been able 
to stem the progress of the ISIS radicals in Iraq, threatening the 
existence of the Maliki government. How have these clear political 
setbacks for the United States affect our ability to deter Chinese 
aggression in Asia? Should America's allies and friends be concerned 
that China will take advantage of Washington's preoccupation and use 
force?
    Answer. The United States remains firmly committed to our allies 
and to ensuring peace and security in the Asia-Pacific region. U.S. 
treaty alliances remain the backbone of our presence in the Asia-
Pacific region, and our friends and allies have seen our significant 
steps in recent years to enhance our posture in Northeast Asia, to 
expand our partnerships in Southeast Asia, and to ensure that our 
forces can operate effectively regardless of other nations' 
capabilities.
    Question. Chinese naval forces are now participating in the Rim of 
the Pacific (RIMPAC) exercise with United States and allies naval 
forces. Yet Chinese fighters have almost collided with Japanese 
surveillance aircraft on two occasions in recent weeks; are building 
new island bases in the South China Sea; destroying any basis for a 
political settlement to those disputes and continues to build up its 
forces for the conquest of democratic Taiwan. It does not seem that the 
Administration's much vaunted Pivot to Asia is actually deterring them, 
does it?
    Answer. The United States rebalance to the Asia-Pacific region is 
focused on building relationships within the region, including China, 
to help ensure peace and prosperity. It focuses on resolving disputes 
through diplomacy and well-established international rules and norms 
rather than intimidation and coercion. Five lines of effort constitute 
the rebalance: modernizing alliances and partnerships, enhancing 
defense posture, investing in capabilities, updating concepts and 
plans, and strengthening multilateral engagement.
    Underpinning all of the Department's engagements in the Asia-
Pacific region is our commitment to key principles and values that are 
essential to regional peace and security. The Department seeks to build 
a relationship with China that effectively manages existing elements of 
cooperation and competition and helps integrate China into the 
international system. We are also candid in raising with China our 
concerns regarding its behavior. We are focused on establishing 
mechanisms that will prevent miscalculation and disruptive regional 
competition and avoid escalatory acts that could lead to conflict.
    Question. Russia has been on the verge of formally invading Ukraine 
for weeks now. The Ukrainians do not want American troops, but they do 
want simple items like fuel for their vehicles and helicopters, secure 
radios and body armor for their troops. How has your department 
responded to these requests?
    Answer. We are using Foreign Military Financing funds to transfer 
body armor, helmets, radios, night vision devices, medical supplies, 
and uniform items to the Ukrainian armed forces. These items are in 
procurement and will be shipped to Ukraine in the near future. All of 
our assistance efforts for Ukraine are being expedited with the highest 
priority. As additional funds become available, we will continue to 
work closely with the Government of Ukraine to identify and address 
Ukraine's most pressing needs.
    Question. Russian forces threaten stability in Europe, Islamic 
radicals led by the Islamic State of Irag and Syria (ISIS) in Iraq 
threaten to undo enormous American sacrifice and create a new launching 
pad for international terror, and in Asia, China is threatening to use 
military force against two longstanding defense treaty allies. Also, 
North Korea is poised to advance its nuclear capability with a new 
nuclear test and remains poised to invade South Korea. Do you think it 
is time for your Administration, for the President, re-evaluate his 
priorities? Should we revive the old requirement to be able to fight 
two simultaneous wars and fund that level of capability?
    Answer. The President's and the Department's security priorities 
take into account a wide range of threats and challenges, from 
traditional military coercion to potential spectacular attacks by 
violent extremist organizations. The Quadrennial Defense Review 
examined the balance of capacity, capability, and readiness of the 
force in the 2020 timeframe and projected key capability demands for 
the 2030 timeframe. With the level of funding requested in the 
President's budget submission, in aggregate, the Joint Force will be 
capable of simultaneously defending the homeland; conducting sustained, 
distributed counterterrorism operations; and, in multiple regions, 
deterring aggression and assuring allies through forward presence and 
engagement. If deterrence fails at any given time, U.S. forces could 
defeat a regional adversary in a large-scale multi-phased campaign, and 
deny the objectives of--or impose unacceptable costs on--another 
adversary in another region. The President's fiscal year 2015 budget 
provides the resources to build and sustain the capabilities to conduct 
these operations, although at increased levels of risk for some 
missions.
                                 ______
                                 
             Questions Submitted to General Martin Dempsey
            Questions Submitted by Senator Patrick J. Leahy
    Question. General Dempsey, last year you observed that, with 
regards to sexual harassment and assault in the military, everyone had 
taken their eye off the ball. Since then, the Congress has passed some 
major reforms and the Department has instituted even more of their own.
    What metrics do you use to measure the effectiveness of those 
programs, and what indicators will you use to assess that we have 
succeeded in changing the culture?
    Answer. The Department has developed metrics that will allow us to 
better determine the extent of the sexual harassment and sexual assault 
within the military and the effectiveness of our response efforts. Our 
objective continues to be towards the elimination of sexual assault. 
Several of the metrics are new and will take time to implement and even 
more time to measure their effectiveness.
    These metrics measure:
  --Past year prevalence of unwanted sexual contact.--Provides best 
        estimate of sexual assault incidents involving servicemember 
        victims.
  --Prevalence vs. reporting.--Provides estimate of the proportion of 
        the crime being reported.
  --Bystander intervention experience.--Indicator of servicemember 
        actions to prevent sexual assault.
  --Command climate index.--Indicators of a healthy command climate and 
        of prevention that addresses continuum of harm.
  --Victim experience.--Determine if advocates Sexual Assault, Response 
        Coordinate/Victim Advocate ((SARC/VA) and Special Victims 
        Counsel) are meeting victim needs and will identify means for 
        improving support.
  --Investigation length.--Help set expectations for victims and 
        indicator of appropriate resourcing within the response system.
  --Victim retaliation.--Determine if professional (command structure) 
        or social (peers) retaliation is perceived.
  --Military justice system.--Determine if the Department's changes in 
        the military justice process are having the desired effect on 
        victim involvement; whether victims are being kept informed.
  --Perception of leadership support for SAPR.--Indicator of command 
        climate.
    The metrics are supported by other assessment tools to further 
measure the effectiveness of the Sexual Assault Prevention and Response 
program--surveys, focus groups, Service-authored assessment reports.
  --Defense Equal Opportunity Climate Survey (DEOCS).--Identify signs 
        of culture change--indicators of a healthy command climate and 
        of prevention that addresses the continuum of harm. The DEOCS 
        is based on a convenience sample and results may not be 
        representative of the entire force. It does allow commanders to 
        assess their units.
  --2014 Workplace and Gender Relations Survey (WGRS).--Addresses past-
        year prevalence of unwanted sexual contact. To address 
        increased interest in the WGRS and its results, the 2014 WGRS 
        will be conducted by an external agency, RAND. The survey will 
        be conducted between August and September 2014. The 2014 survey 
        sample will invite one-third of the active duty population to 
        take the survey.
  --Survivor Experience Survey (June-September 2014).--Captures the 
        levels of victim satisfaction and confidence in the response 
        system.
  --Focus groups--July-August 2014.--Focus groups will be conducted at 
        key training and operational installations across the 
        Components to capture the opinions of targeted enlisted 
        personnel and junior officers.
  --We are also collecting data about the military justice process and 
        the outcomes of cases. While these are not metrics, this data 
        may help us better understand the impact of recent changes in 
        law and policy on the military justice process.
    These assessments will help to inform the Secretary of Defense, 
Secretaries of the Military Departments and Joint Chiefs and influence 
policy and procedural changes that will continue to improve our 
prevention and response systems.
    Question. General Dempsey, in what ways has U.S. military support 
to the African Union-Regional Task Force been successful in combating 
the Lord's Resistance Army and helping the hunt for Joseph Kony, who 
has so far evaded capture? Does the Department consider the model used 
for this engagement as one to export for future multi-national security 
engagements?
    Answer. U.S. military support to the African Union-Regional Task 
Force support all four pillars of the U.S. Government strategy--protect 
civilians, promote DD/RRR (disarmament, demobilization, reintegration, 
repatriation, and resettlement), increase humanitarian access/support, 
and remove Joseph Kony and senior leaders from the region. These 
objectives are being accomplished through a truly U.S. interagency, 
international and nongovernmental organization collaborative approach 
with U.S. military forces comprised mostly of special operations 
forces. United States Special Operations Forces advise an African 
Union-Regional Task Force comprised of Soldiers from Uganda, the 
Democratic Republic of the Congo, and the Republic of South Sudan in a 
regional security plan that has weakened the Lord's Resistance Army 
significantly since 2010. The Central African regions of eastern 
Central African Republic and Democratic Republic of the Congo, western 
South Sudan, and northern Uganda have seen a significant reduction in 
Lord's Resistance Army kidnappings and violence, allowing access for 
nongovernmental organizations and partner nation humanitarian elements. 
Substantial numbers of defectors left the Lord's Resistance Army after 
successful Military Information Support Operations followed up with 
successful non-governmental organization and partner-nation sponsored 
defector integration programs. Since October 2012, over half of 
defectors report they were exposed to some type of defection tool which 
often led them to a safe defection site. Abductions and forced 
conscription of child soldiers, while still occurring, is 60 percent 
lower than 2010 figures. The African Union-Regional Task Force removed 
three of the top five Kony lieutenants from the battlefield, while the 
remaining Lord's Resistance Army bands are geographically dispersed in 
eastern Central African Republic. Kony himself remains isolated from 
his forces, relying on couriers and high-frequency communications to 
monitor the remaining Lord's Resistance Army. The increased 
professionalization of our partner nation forces is on glide-path to 
provide a capability to continue pressure on the Lord's Resistance Army 
in an effort to keep it from regenerating while being better prepared 
to address other regional security challenges.
    The Department considers the mil-to-mil partnership in this model 
not unique. Our engagement with the African Union-Regional Task Force 
is an option on a range of scalable options based on a number of 
variables such as regional political conditions, desired effects, 
available resources, and national security priorities. United States 
Special Operations Forces increased our partnership and connection with 
key allies in the central African region, contributed to regional 
stability efforts, operated and trained in an austere jungle 
environment, and utilized a small U.S. military footprint to help 
coordinate and enable operations in a regional endeavor to assist 
regional militaries in achieving peace and safety for a large 
population in central Africa. The whole of government approach in this 
case has been successful.
                                 ______
                                 
              Questions Submitted by Senator Mark L. Pryor
    Question. The Armored Multi-Purpose Vehicle (AMPV) is the Army's 
proposed program to replace the aging M113 Armored Personnel Carrier 
family of vehicles. Do you see this program as a high priority for the 
Army as the service continues to work to ensure that soldiers have the 
best protection and mobility for future conflicts?
    Answer. The AMPV program is a high priority program for the Army 
and will provide the vital capabilities--force protection and 
mobility--for the Armored Brigade Combat Team Commanders to maneuver 
and command across a range of military operations.
    Question. The fiscal year 2015 President's budget request for the 
AMPV is $92.4 million in research, development, testing, and evaluation 
(RDT&E) funding. This is a $64 million increase from fiscal year 2014 
budget. Is it possible for the Army to accelerate the AMPV program 
under the current acquisition strategy or would additional funding be 
required?
    Answer. The Armored Multi-Purpose Vehicle (AMPV) effort is 
currently in source selection. Since the AMPV schedule is dependent on 
the selected vendor's proposal, the Army does not yet know where all 
opportunities exist to accelerate the development and delivery of the 
AMPV. Once a contract award is made, which is anticipated in the second 
quarter of fiscal year 2015, the Army will examine opportunities to 
accelerate the AMPV schedule in order to provide this capability to the 
Warfighter.
    Question. During the fiscal year 2015 Air Force budget hearing, 
General Welsh referred to Little Rock Air Force Base as ``one of the 
gems of the U.S. Air Force.'' He discussed the Air Force's plan to 
making Little Rock the ``most efficient place to retain the transport 
aircraft.'' Part of this plan includes the transfer of 10 C-130Js from 
Keesler AFB to Little Rock AFB. Can you discuss the reasoning behind 
the decision to consolidate the C-130 fleet as the Air Force attempts 
to find the most effective and efficient base-alignment scenarios?
    Answer. The Air Force (AF) is realigning the C-130 enterprise to 
minimize operational impacts while maximizing savings. Consolidation of 
the 10 C-130Js at Little Rock AFB is part of the Air Force's plan to 
reduce excess C-130 capacity while maximizing savings and training 
efficiencies via agreements between units. This means that both Active 
and Reserve Components units can better fulfill opportune training 
requirements. Keeping an Air Force Command (AFRC) C-130 presence at 
Little Rock contributes to the Total Force Integration (TFI) of the 
AF's C-130 enterprise and increases integration of Reserve, Guard, and 
Active Component Airmen. Little Rock AFB provides efficiency with 
maintenance and operations between units to generate the most effective 
total force training possible.
    Question. How is the transfer of C-130Js from Keesler AFB to Little 
Rock AFB progressing and do you anticipate any issues with the transfer 
of the aircraft to Little Rock AFB?
    Answer. The transfer is currently on hold. As directed in Senate 
section 133 of the fiscal year 2015 National Defense Authorization Act 
(NDAA) (S. 2410), all proposed unit-equipped C-130 transfers previously 
authorized for execution in fiscal year 2014 and those outlined in the 
fiscal year 2015 President's budget will be delayed until 60 days after 
the Secretary of the Air Force submits the required report to Congress. 
This report will outline the costs and benefits of the Air Force's re-
alignment plan and answer any anticipated aircraft transfer concerns, 
including proposed transfers to Little Rock AFB.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
    Question. General Dempsey, when we met last, I mentioned to you my 
concerns about the United State's vulnerability to Russia's sole supply 
of the RD-180 liquid rocket engine for key military space launch 
programs. Following recent U.S. sanctions against Deputy Prime Minister 
Dimitry Rogozin, the person responsible for RD-180 export licenses, he 
announced that Russia will no longer deliver these engines to the 
United States, unless we guarantee that they will only be used for 
civilian purposes. General Dempsey, I would like to encourage this 
Committee to be supportive of funding for U.S. development of our own 
liquid rocket engine for both civilian and military purposes. Could you 
please discuss how imperative this funding is from a national security 
perspective?
    Answer. Assured access to space is critical to the deployment and 
subsequent operations of the Department's space-based capabilities, and 
maintaining that assured access is a strategic objective of the 
Department. The Department, with the Air Force as the lead agency, is 
working with its partners to create an affordable and technically low-
risk plan to reduce the Nation's use of Russian manufactured rocket 
propulsion systems. The Air Force review is expected to complete in 
mid-October. All of the options under review require some additional 
government investment to ensure the Department maintains assured access 
to space.
    Question. As a follow-up to my last question, once funding is 
appropriated, I would like to ensure that the liquid rocket engine is 
jointly developed between the Air Force and NASA. Do you believe that 
there is value in leveraging NASA's decades of rocket propulsion 
research development and risk reduction in developing a U.S. RD-180 
replacement?
    Answer. Yes, there is value in engaging with NASA on both their 
engine development experience and their future launch needs. The 
Department, with the Air Force as the lead agency, is working with its 
partners in creating an affordable and technically low-risk plan to 
reduce the Nation's use of Russian manufactured rocket propulsion 
systems. NASA and the Department share many, but not all, goals in 
common. Due to the large number of launches needed to support 
Department space systems, cost efficiency is an important Department 
assessment criteria.
    Question. General Dempsey, as you know, the government of Poland 
has initiated a ``Shield of Poland'' competition to increase its air 
and missile defense capabilities and enhance the security of our mutual 
eastern European allies. Two air and missile defense systems offered by 
U.S. industry, Medium Extended Air Defense System (MEADS) and Patriot, 
are in the final four of this competition. What is the official U.S. 
Government position regarding advocacy in this competition, and will 
the Department of Defense support both U.S. programs equally, if either 
is selected by Poland? That is, will the U.S. Government stand behind 
MEADS if selected, or Patriot if selected?
    Answer. Since the 18 June SAC-D hearing, the Polish government 
opted to remove MEADS from consideration with rationale that urgent 
threats required Poland to only consider systems currently fielded to 
NATO countries. Patriot remains under consideration along with the 
French SAMP/T. Patriot has full U.S. Government support.
                                 ______
                                 
               Question Submitted by Senator Daniel Coats
    Question. Two geographic combatant commands (SOUTHCOM and AFRICOM) 
have less than 10 percent of their intelligence, surveillance, and 
reconnaissance (ISR) requirements being met. Over the last 3 years, 
AFRICOM has seen the emergence of numerous conflicts, including major 
conflagrations in Mali, South Sudan, Central African Republic, and 
Libya. The inability of the Global Force Management Process (GFMP) to 
prioritize and allocate ISR resources has resulted in skewed 
allocations of ISR resources, leaving the DOD unable to predict or 
respond to emerging crises.
    Do you think the current allocation of ISR resources is the right 
mix? Is fixing the ISR allocation a priority? What needs to be done to 
better prioritize limited ISR resources? What needs to be done to 
better leverage National Technical Means so we reduce unnecessary 
duplication of aerial and overhead platforms?
    Answer. While we continue to respond to emergent crises, such as 
those in Mali, Nigeria, South Sudan, and provide support for our 
current ISR allocation reflects the priorities coordinated through 
(OSD) Policy and approved by the Secretary of Defense.
    The fundamental challenge, which the Department has faced for over 
a decade, is the scarcity of available ISR assets; no combatant 
command, including commands such as U.S. Pacific Command (USPACOM) and 
U.S. Central Command (USCENTCOM), which confront significant military 
threats, possess sufficient ISR capacity to fulfill all requirements. 
This challenge, already severe under current budgetary conditions, 
would be significantly exacerbated under sequestration as the 
Department would be unable to procure and maintain its ISR inventory as 
programmed.
    Managing the allocation of our ISR Force is a constant endeavor. 
The Global Force Management Allocation Process is exacting, and the 
Combatant Commands each have the opportunity to advocate for their 
requirements. Every emergent request, regardless of the Combatant 
Command, is tempered through a tried-and-true process of validation and 
sourcing. The Secretary of Defense makes the final decision in 
allocating the limited airborne ISR assets based on operational needs 
and risks in consultation with me, the Combatant Commanders, and the 
Interagency. The GFM process is agile, and provides an incredible 
ability to respond, as has been demonstrated in each of the crises 
listed above.
    There are a number of efforts underway to better capture the 
National Technical Means and allied contributions to our intelligence 
requirements, from internally directed looks to GAO-managed efforts. 
But the flexibility of U.S. airborne ISR in responding to U.S. 
requirements cannot be matched and will continue to drive increasing 
requirements on our global ISR Force.

                          SUBCOMMITTEE RECESS

    Senator Durbin. This meeting of the subcommittee stands 
adjourned.
    [Whereupon, at 12 p.m., Wednesday, June 18, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
